<html>
<title> - A CALL TO ACTION: NATIVE COMMUNITIES' PRIORITIES IN FOCUS FOR THE 117TH</title>
<body><pre>[Senate Hearing 117-8]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 117-8

                  A CALL TO ACTION: NATIVE COMMUNITIES'
              PRIORITIES IN FOCUS FOR THE 117TH CONGRESS

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2021

                               __________

         Printed for the use of the Committee on Indian Affairs
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-248 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                      COMMITTEE ON INDIAN AFFAIRS

                     BRIAN SCHATZ, Hawaii, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
MARIA CANTWELL, Washington           JOHN HOEVEN, North Dakota
JON TESTER, Montana                  JAMES LANKFORD, Oklahoma
CATHERINE CORTEZ MASTO, Nevada       STEVE DAINES, Montana
TINA SMITH, Minnesota                MIKE ROUNDS, South Dakota
BEN RAY LUJAN, New Mexico            JERRY MORAN, Kansas
       Jennifer Romero, Majority Staff Director and Chief Counsel
     T. Michael Andrews, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 24, 2021................................     1
Statement of Senator Cantwell....................................    52
Statement of Senator Cortez Masto................................    46
Statement of Senator Hoeven......................................    48
Statement of Senator Lujan.......................................    53
Statement of Senator Murkowski...................................     2
Statement of Senator Schatz......................................     1
Statement of Senator Smith.......................................    50

                               Witnesses

Forsman, Hon. Leonard, President, Affiliated Tribes of Northwest 
  Indians........................................................    26
    Prepared statement...........................................    28
Kitka, Julie, President, Alaska Federation of Natives............    36
    Prepared statement...........................................    39
Lindsey, Hon. Carmen ``Hulu'', Chair, Board of Trustees, Office 
  of Hawaiian Affairs............................................    29
    Prepared statement...........................................    31
Sharp, Hon. Fawn, President, National Congress of American 
  Indians........................................................     4
    Prepared statement...........................................     5

                                Appendix

Danner, Robin Puanani, Chairwoman, Sovereign Council of Hawaiian 
  Homestead Associations, prepared statement.....................    73
Nuvangyaoma, Hon. Timothy, Chairman, Hopi Tribe, prepared 
  statement......................................................    57
Reitmeier, Kim, Executive Director, ANCSA Regional Association, 
  prepared statement.............................................    63
Scott, Carol Wild, Esq., Legislative Chair, Veterans and Military 
  Law Section, Federal Bar Association, prepared statement.......    58
Seattle Indian Health Board, prepared statement..................    60
Swartz, Jr., Hon. Warren C., President, Keweenaw Bay Indian 
  Community, prepared statement..................................    66
United South and Eastern Tribes Sovereignty Protection Fund, 
  prepared statement.............................................    67

 
A CALL TO ACTION: NATIVE COMMUNITIES' PRIORITIES IN FOCUS FOR THE 117TH 

                                CONGRESS

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2021


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Brian Schatz, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good afternoon. I will call this oversight 
hearing to order.
    I am honored to kick off the first oversight hearing as the 
Chairman of the Committee, Putting Native Communities' 
Priorities Directly in the Spotlight, as our first order of 
business. Leaders from across Indian Country, Hawaii, and 
Alaska, welcome. Thank you for being here.
    I would also like to extend a warm aloha to the Office of 
Hawaiian Affairs Board of Trustees Chair, Carmen ``Hulu'' 
Lindsey. Congratulations on your appointment as chair, and 
thank you for your leadership to support the well-being of the 
Native Hawaiian people. One of my goals as chairman is to bring 
Native Hawaiian issues and priorities to the forefront, and I 
look forward to continuing our partnership on the Committee.
    I want to be clear that today's hearing isn't a check-the-
box exercise. It is a real opportunity for members of the 
Committee to chart a path forward by listening to and learning 
from Native leaders for the next two year and beyond. Now more 
than ever, Congress must be tuned in and listening. Native 
communities are experiencing disproportionate impacts from 
multiple crises, COVID-19, economic insecurity, racial 
injustice, and climate change.
    So as the strongest voice for Native priorities in the 
Congress, this Committee will act to address these challenges 
by working together in its bipartisan tradition, and to uphold 
the Federal treaty and trust responsibilities to tribes and 
Native communities across the Country, from Hawaii to Alaska 
and to the continental United States.
    The last time this Committee held a priorities meeting, it 
was to hear from the Trump Administration about its priorities 
for Indian Country, a perfectly appropriate thing to do. But 
today's hearing is different. We are bringing the focus back to 
Native communities. We want to hear directly from you about 
your priorities for the 117th Congress, because consultation 
should not apply just to the Executive Branch, but also to 
Congress to inform our work, to advance Indian Country and 
Native communities' priorities.
    I look forward to hearing from each of the witnesses 
joining us today. I thank everybody for participating.
    I will now turn to the vice Chair, Senator Murkowski, for 
any opening statement.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I am looking 
forward to our partnership on this Committee. The oversight 
hearing that we have scheduled here today is a very important 
one for all of the reasons that you have mentioned. I too want 
to welcome our witnesses. Your participation and your testimony 
really will help set the direction for us this Congress.
    You have outlined, Mr. Chairman, some of the priorities. I 
think it is important to recognize and acknowledge that we do, 
this Committee takes seriously the priorities of our Native 
communities. They have guided the legislation that we have seen 
come out of this Committee over the years.
    With strong and unified tribal voices laying out the needs 
of tribes, we have seen passage of significant pieces of 
legislation. You think about some of the ones in recent years, 
there was the Tribal Law and Order Act, the Indian Child 
Welfare Act, the Indian Arts and Crafts Act, the Native 
American Languages Act, the Native Act, Savanna's Act, just 
last year. So many others.
    I am really proud to have worked to help the shepherd the 
reauthorization of the Indian Health Care Improvement Act. I 
have worked on Native youth suicide issues with former 
chairman, Byron Dorgan. The work that we have been able to do 
to support Native education and language programs, as we 
advanced the Alice Spotted Bear and the Walter Soboleff 
Commission on Native Children. So many great initiatives here.
    And I think this Committee, as we mentioned before, is one 
that has a reputation of being collaborative, of being 
bipartisan. I think that the work that we do to address the 
extraordinary diversity of tribes is an important priority, and 
this Committee will continue to do so. So whether it is 
targeting pandemic relief or addressing structural barriers to 
economic recovery, there are varying needs on reservations that 
face Native Hawaiians or Native people in Alaska. So hearing 
from leaders such as we have today is critical to our effort.
    When we think about diversity, it is a reminder to us all 
that the blessings that we have with the leadership from our 
Native people, whether it is in tribes on the east coast, 
Native Hawaiians or Alaska Natives, there are differences. We 
recognize the differences. We also recognize the differences in 
governance structure.
    This year marks the 50th anniversary of the passage of 
ANCSA, the Native Claims Settlement Act. This law changed the 
treatment of Alaska Natives and their lands, setting up a 
different model than the reservation system. Part of that 
bargain with the passages of that law was that services to 
Alaska Natives would not be cut off. ANCSA was amended to 
include a provision that eliminated all doubt as to whether the 
Federal service obligation to Alaska Natives remained after the 
passage of ANCSA. Ensuring that the legislation continues to be 
fully implemented and meets the goals and the intent behind the 
law has been a commitment of mine while Senator.
    I raise that because my hope is that as colleagues come to 
understand the differences and distinctions, the great 
diversity among Native American peoples, whether they are in 
the State of Montana, State of Hawaii, or State of Alaska, we 
all recognize that this Country, the United States, has a 
unique fiduciary trust obligation to American Indians, Alaska 
Natives, Native Hawaiians, wherever they are.
    That will be the goal of this Committee, to ensure 
fulfillment of these trust and treaty obligations. So it is, it 
is about listening, listening first and foremost.
    I am hopeful that we will get to a place, Mr. Chairman, 
where we have the ability to move about more freely, where we 
are able to not only see our Native leaders here in person in 
the Committee, but that we will be able to get out into their 
communities, out to visit on reservations, to visit with 
tribes. And again, continue that very, very important dialogue. 
The issues are profound in so many ways, as we think about the 
effort to promote economic recovery, through job creation, 
workforce development, following this pandemic. What we do to 
address public safety and law enforcement, enhancing health 
care access, how we deal with infrastructure needs, whether it 
is broadband or water and sanitation, whether it is dealing 
with housing issues and overcrowding. There is so, so much to 
be done. I am looking forward to taking up these efforts.
    Today we are going to have an opportunity to receive 
testimony from our Alaska Native witness, and a leader, and a 
friend of mine. Julie Kitka is President of the Alaska 
Federation of Natives. AFN is the largest statewide Native 
organization in our State, more than 140,000 Native people. 
Formed back in 1966 to settle land claims, AFN continues to be 
the significant forum and voice of Alaska Natives in addressing 
critical issues of public policy and government.
    Thank you, Julie, for testifying virtually. Know that we 
value not only your testimony and your insight today, but 
really for the leadership that you have provided. I should note 
that Julie just celebrated 30 years with AFN on New Year's Day. 
I appreciate all of her work.
    I also want to recognize President Sharp for being here 
with us today, and thank her for the opportunity to speak to 
the NCAI membership yesterday with you, Senator Schatz. Again, 
good engagement. I am looking forward to today and to this 
Congress.
    The Chairman. Thank you very much.
    We will now turn to our witnesses. I will introduce the 
witnesses. We will start with Ms. Sharp. First, we have the 
Honorable Fawn Sharp, President of the National Congress of 
American Indians. Then we have the Honorable Leonard Forsman, 
President of the Affiliated Tribes of Northwest Indians, 
Portland, Oregon. Then we have the Honorable Carmen ``Hulu'' 
Lindsey, Chai of the Board of Trustees of the Office of 
Hawaiian Affairs. And Ms. Julie Kitka, President and CEO of the 
Alaska Federation of Natives, from Anchorage, Alaska.
    President Sharp, you may begin.

 STATEMENT OF HON. FAWN SHARP, PRESIDENT, NATIONAL CONGRESS OF 
                        AMERICAN INDIANS

    Ms. Sharp. Thank you very much. [Greeting in Native 
tongue.]
    Good morning, Chairman Schatz and Vice Chairman Murkowski, 
and members of the Senate Committee on Indian Affairs.
    On behalf of the National Congress of American Indians, I 
thank you for holding this hearing. I am Fawn Sharp, President 
of the Quinault Indian Nation and President of the National 
Congress of American Indians, the oldest and largest 
organization comprised of sovereign tribal nations and their 
citizens.
    As the 117th Congress commences, Indian Country is in a 
national emergency that while intensified by the COVID-19 
pandemic has its roots in the Federal Government's neglect of 
its fiduciary obligations to Indian Country. That has led to 
our vulnerability to the COVID-19 pandemic and resulted in our 
communities at times having the highest per capita COVID-19 
infection rate in the United States.
    While COVID-19 has had an impact all across Indian Country, 
and while it is our foremost priority, Congress must address 
the structural barriers that impair the lives and livelihoods 
of our citizens through a public health and an economic 
recovery plan for Indian Country. This Committee is best 
situated to provide leadership toward this tribal Marshall 
Plan, and has an historic opportunity to harness Congress' 
plenary power to remove barriers and support Indian Country's 
socioeconomic development on a sovereign to sovereign basis.
    Today, my testimony will focus on an overview of critical 
needs in the following areas. First, I would like to address 
COVID-19 relief. Despite the pandemic's disproportionate impact 
to our communities, Indian Country received only .5 percent of 
the $2 trillion in aid provided in the CARES Act. Our 
communities continue to battle this infection while struggling 
to deliver health care, access to vaccines, and to stabilize 
our governments.
    In recognition of this need, in February of 2021, NCAI and 
18 tribal organizations sent a letter to Congressional 
leadership addressing the urgent tribal priorities that 
included requests for $15 billion for tribal health and $20 
billion in direct aid to tribal governments. NCAI is encouraged 
that many of the asks that were included in the House package 
were made and we requested these tribal provisions be retained 
in the final bill, including the $20 billion in direct aid to 
tribal governments.
    Additionally, we request that Congress commit to include 
tribal nations in all forthcoming COVID-19 packages to address 
the significant tribal assistance needs.
    Second, I will focus on infrastructure. As documented in 
the United States Commission on Civil Rights, the 2018 Broken 
Promises Report, Indian Country has substandard infrastructure 
in every sector. The statistics are harrowing. I strongly urge 
each and every Committee member to carefully examine those 
findings.
    Accordingly, I call upon this Congress to prioritize tribal 
infrastructure and to reform the chronic and widespread 
underfunding of the trust relationship. My written testimony 
highlights specific actions that can improve the living 
conditions of our citizens through infrastructure investment in 
detail.
    Additionally, Congress must prioritize the timely funding 
of the trust responsibility. In the 116th Congress, legislation 
was introduced authorizing advance appropriations with 
bipartisan and bicameral support. Advance appropriations must 
be enacted during this Congress in order to achieve the basic 
stability and certainty that is owed to tribal nations by the 
Federal Government.
    Third, I will address tribal homelands. Tribal homelands 
are essential to the economies and cultures of tribal nations. 
Since 1934, Federal policy supported the restoration through 
the land into trust process under Section 5 of the Indian 
Reorganization Act. In 2009, the Supreme Court created 
confusion in this process which resulted in a decade of land 
into trust delays and lawsuits defended by taxpayer dollars.
    Since the 111th Congress, members of this Committee have 
consistently introduced legislation a clean fix that would 
include, number one, restoring the Interior Secretary's 
authority to take land into trust for all federally recognized 
tribal governments, and two, reaffirm existing trust lands. 
NCAI requests this Committee prioritize passage of a clean 
Carcieri fix.
    Fourth and finally, I would like to address climate change. 
Climate change threatens the health, culture and economies of 
tribal peoples. Due to these impacts, tribal nations are key 
partners, and we must be at the table at all national and 
international engagement on this subject. We are 
disproportionately impacted by climate change, and we certainly 
deserve a seat at every table.
    Finally, I urge this Committee to support the nomination of 
Representative Haaland as Secretary for Interior to support the 
tribal priorities described above. Representative Haaland is 
amply qualified and has demonstrated time and time again 
expertise and a record of bipartisan support. Accordingly, we 
ask this Committee's members to support her swift confirmation 
to expedite Interior's performance of its trust and treaty 
obligations to tribal nations and peoples.
    In conclusion, I thank you for this opportunity to testify. 
I look forward to your questions. [Phrase in Native tongue.]
    [The prepared statement of Ms. Sharp follows:]

Prepared Statement of Hon. Fawn Sharp, President, National Congress of 
                            American Indians
    On behalf of the National Congress of American Indians (NCAI), 
thank you for holding this hearing to address tribal priorities for the 
117th Congress. I am Fawn Sharp, President of the Quinault Indian 
Nation and President of NCAI.
    Founded in 1944, NCAI is the oldest and largest representative 
organization serving the broad interests of Tribal Nations and 
communities. Tribal leaders created NCAI in response to federal 
policies that threatened the existence of Tribal Nations. Since then, 
NCAI has fought to preserve the treaty and sovereign rights of Tribal 
Nations, advance the government-to-government relationship, and remove 
structural impediments to tribal self-determination.
    These three principles are derived from the ``Declaration of Indian 
Rights,'' passed by 183,000 American Indians and Alaska Natives (AI/
ANs) who convened in 1954 to address the termination crisis, and remain 
the solutions to our present crises.
    As the 117th Congress commences, Indian Country is in a national 
emergency that-while intensified by the coronavirus-19 (COVID) 
pandemic-has its roots in the federal government's neglect of its 
fiduciary obligations to Tribal Nations and citizens. This situation 
was foreshadowed in 2018 by the United States Commission on Civil 
Rights' (USCCR) Broken Promises Report which found that:

         Federal programs designed to support the social and economic 
        well-being of Native Americans remain chronically underfunded 
        and sometimes inefficiently structured, which leaves many basic 
        needs in the Native American community unmet and contributes to 
        the inequities observed in Native American communities. \1\

    This existing crisis created disparities that led to American 
Indian and Alaska Native (AI/AN) vulnerability to the pandemic and 
resulted in our communities having at times the highest per-capita 
COVID-19 infection rate in the U.S. \2\ This
    lethal breach of trust led to deaths of over 5,307 and the number 
continues to grow. We have lost our language keepers, youth, leaders, 
and loved ones to the viral socio-economic conditions that have spread 
this scourge and impaired our response.
    While Indian Country's foremost priority for the 117th Congress is 
relief to battle the pandemic, Congress must address the structural 
barriers that impair the lives and livelihoods of AI/ANs through a 
public health and economic recovery plan for Indian Country. The Senate 
Committee on Indian Affairs (SCIA) is best situated to lead this 
``Tribal Marshall Plan'' and has a historic opportunity to harness 
Congress' plenary power to support Indian Country's development out of 
the imposed third-world conditions that existed pre-pandemic.
    In support of these efforts, I incorporate for the record NCAI's 
2021 tribal priorities for all committees of jurisdiction \3\ and our 
FY 2022 Budget Request which contains a historic analysis of the 
chronic underfunding of programs administered by the U.S. Department of 
the Interior (Interior). \4\ To that end, my testimony today will 
address needs in the following areas: COVID-19 relief; infrastructure; 
advanced appropriations and data; health, economic development; lands 
and cultural heritage; energy and climate change; public safety and 
justice; and child and family welfare.
I. COVID-Relief
    Presently, the rate of AI/AN infection and deaths from COVID-19 
continues to remain high. As of February 18, 2021, the Indian Health 
Service (IHS) reports nearly 184,585 cases within the IHS, tribal, and 
urban Indian health care system (known commonly together as ``I/T/U''). 
\5\ According to the Centers for Disease Control and Prevention (CDC), 
AI/AN communities have lost at least 5,307 lives to COVID-19, the 
majority of whom are over the age of 55. \6\ Today, despite being only 
0.4 percent of the weighted distribution of the U.S. population, AI/AN 
COVID-19 deaths represent 1.2 percent of all U.S. deaths related to 
this virus. This disparity is even greater in some parts of Indian 
Country. \7\
    Despite the pandemic's disproportionate impact on AI/AN 
communities, Indian Country received only .5 percent of the $2 trillion 
in aid provided in the Coronavirus Aid, Relief, and Economic Security 
(CARES) Act.
    In recognition of this unmet need, on February 2, 2021 NCAI and 18 
tribal organizational partners sent a letter to Congressional 
leadership and the White House addressing urgent tribal priorities in 
the following categories: tribal government and economic relief; 
health, education, and nutrition aid; transportation, housing, 
broadband needs; and emergency management assistance. \8\ This letter 
requested $15 billion for tribal health and $20 billion in direct 
relief to tribal governments and flexible use of funds.
    The House Budget Reconciliation included many of these urgent 
tribal priorities. As the Senate continues negotiations on the next 
relief package, NCAI requests that the Senate prioritize all tribal 
provisions that were included in the House package, including retention 
of the $20 billion provided for direct relief to Tribal governments. 
This aid is critical for addressing the economic devastation our 
governments face due to declining revenues which fund services in our 
communities for both tribal and non-tribal citizens.
    Additionally, as the United States continues its coordinated 
vaccination distribution plan, we urge members of SCIA to support 
Tribal Nations in receiving a minimum of five percent of the statutory 
set-aside in funds to support the entire I/T/U system for COVID-19 
vaccine distribution. Tribal Nations should also be able to receive 
vaccines from both their state or directly from IHS and not be forced 
to choose between the two. Tribal Nations are integral to the national 
vaccine strategy and access to vaccines is essential to this 
intergovernmental public health partnership. In addition to retaining 
tribal provisions in the present relief package, we request that SCIA 
uphold its trust responsibility and commit to including Tribal Nations 
in all forthcoming COVID-19 packages to address significant tribal 
assistance needs.
II. Infrastructure
A. Water
    Current water infrastructure in Indian Country is severely 
underfunded and inadequate to meet the health and safety needs of 
tribal communities. Nearly 48 percent of Native homes do not have 
access to reliable water sources, clean drinking water, or basic 
sanitation. \9\ A 2018 GAO Report found that an estimated $3.2 billion 
in funding was needed for water infrastructure projects to address 
existing sanitation deficiencies in Indian homes, and an additional 
$2.4 billion in funding was estimated for future tribal drinking water 
infrastructure needs over the next 20 years. \10\ The absence of 
adequate and reliable potable water supplies has contributed to 
unemployment and mortality rates on tribal lands that are much higher 
than those of adjacent non-Indian communities. \11\
i. Support Tribal Water Settlements and Permanently Extend the 
        Reclamation Water Settlement Fund (RWSF)
    Given these needs, tribal water settlements are vitally important 
to securing access to water on tribal lands. These settlements often 
represent decades of negotiations between tribal, federal, state, and 
local stakeholders and seek to improve water systems throughout the 
country. \12\ It is essential for Indian water rights settlements to be 
resolved and fully funded to fulfill the federal government's 
obligation to manage water resources held in trust on behalf of Tribal 
Nations. One tool that can be used to adequately fund the 
implementation of tribal water settlements is the Reclamation Water 
Settlement Fund (RWSF).
    The RWSF represents a critical resource for funding infrastructure 
projects, such as irrigation canals, dams and storage reservoirs, 
treatment facilities, and distribution facilities, tied to Indian water 
rights settlements. These infrastructure projects ensure that wet water 
reaches tribal lands. Presently, many tribes that have gone through the 
arduous process of obtaining these settlements experience chronic and 
substantial shortfalls in appropriations from Congressional 
authorizations. These shortfalls result in the partial construction of 
water infrastructure that in some instances becomes operationally 
useless. \13\ The lack of development of tribal water infrastructure, 
exacerbated by federal underfunding, essentially eliminates the 
possibility of economic, agricultural or energy development on the 
tribal lands awaiting that needed infrastructure. \14\
    In the 116th Congress, Senator Tom Udall introduced S. 886, the 
Indian Water Rights Settlement Extension Act which proposed to 
permanently extend the RWSF. Currently the RWSF, codified at 43 U.S.C. 
 407, is only authorized to receive deposits beginning in FY 2020 and 
ending FY 2029, yet this fund is already deemed critical and will be 
heavily relied upon by enacted and future Indian water rights 
settlements. Future Indian water rights settlements are currently 
authorized only to tap into the RWSF for infrastructure needs until FY 
2034 when this fund expires. Having a secure funding mechanism is 
critical to streamlining the Indian water rights settlement process, 
and--in turn--ensuring access to clean drinking water for tribal 
citizens, and water certainty for states and the surrounding non-Indian 
communities. In accordance with Resolution #DEN-07-069, NCAI strongly 
supports reintroduction and passage of legislation to permanently 
extend the RWSF. \15\
B. Broadband
    Funding is needed throughout Indian Country for rapid deployment, 
adoption, affordability, and access to high-speed Internet (broadband). 
According to a 2019 Federal Communications Commission (FCC) report, 
individuals residing on tribal lands are nearly 4.5 times as likely to 
lack any terrestrial broadband Internet access as those on non-tribal 
lands. \16\ Even when examining fixed broadband deployment at speeds 
lower than ``broadband,'' only 6 percent of homes on non-tribal lands 
lack coverage by any wired provider, while 25 percent of homes on 
tribal lands have no wired option for 10/1 Mbps service. \17\ Societal 
and market behaviors are changing rapidly and everyday tasks and 
activities are being driven more online. An immediate robust investment 
into tribal communities is critical to ensure that tribal communities 
are not entirely left behind as our education, healthcare, government 
services, and commerce undergo years of changes in a short time.
i. Expand DOI National Tribal Broadband Grant (NTBG) Program and Hold 
        Oversight Hearing on Interior's Role in Broadband Deployment in 
        Indian Country
    The National Tribal Broadband Grant Program (NTBG) established 
within Interior is administered by the Office of Indian Energy and 
Economic Development (IEED). It is a competitive, discretionary grant 
program that awards approximately twenty-five to thirty grants ranging 
from approximately $40,000 to $50,000. \18\ Currently, the program only 
provides a few tribal governments with grant funding to hire 
consultants to perform feasibility studies for deployment or expansion 
of broadband transmitted, variously, through digital subscriber line, 
cable modem, fiber, wireless, satellite and over power lines. \19\ The 
NTBG program should be expanded beyond its current capacity to provide 
for the implementation of these feasibility studies and increased 
funding should be appropriated for the build-out and deployment of 
broadband networks in Indian Country.
    Further, competitive grant models are cost prohibitive for certain 
Tribal Nations to apply for and introduce uncertainty into any long-
term planning that relies on such funds. The result is that those 
communities that need access the most are effectively barred from 
competitive grant programs. The NTBG program should be expanded and 
operate on a non-competitive funding model in order to improve access 
for Tribal Nations applying to the program. Expansion of the NTBG could 
also entail incorporation of some of the recommendations in the 
National Tribal Broadband Strategy (NTBS).
    The NTBS was published in January 2021 by Interior as a proposed 
roadmap for action and investment by the federal government in 
broadband access and adoption for AI/AN communities. This strategy 
outlines 28 recommended actions that agencies should take to help 
address the digital divide. \20\ The first of these recommendations is 
to create a new Broadband Development Program (BDP) within IEED to 
implement the NTBS and coordinate efforts within and beyond Indian 
Affairs (IA) to drive tribal broadband development. Under this proposed 
recommendation, the BDP would administer the NTBG program, provide 
technical assistance to tribes, and build partnerships between various 
tribal broadband stakeholders. \21\ In accordance with our NTBG related 
asks above, the creation of the BDP could help to foster improvements 
to the NTBG and improve access to the program.
    In addition to the creation of the BDP, the NTBS also details 
various administrative and legislative recommendations that should be 
considered by Congress. SCIA should conduct an oversight hearing on 
Interior's role in broadband deployment in Indian Country that includes 
a review of the NTBS in order to gather expert and tribal leader 
feedback on the recommendations contained within the strategy. While 
many of the recommendations have consensus-based support, others may 
conflict with the needs and requests of Tribal Nations. For example, 
the NTBS proposes to establish a program for federal match and seed 
funding within BDP to provide initial investment for tribal broadband 
infrastructure projects. \22\ The strategy also proposes the creation 
of Critical Infrastructure Corridors (CICs) to identify zones for 
incentivized investment in critical infrastructure to unserved and 
underserved tribal communities. These CICs would be identified by 
overlaying Opportunity Zones, NEPA exemption areas, and existing 
infrastructure networks with underdeveloped and underserved tribal 
communities. \23\ Various Tribal Nations and leaders have voiced their 
opposition to federal match requirements and the use of opportunity 
zones to determine priority and eligibility for tribal broadband 
funding programs.
    In summary, NCAI urges Congress to pass legislation that invests in 
broadband infrastructure development and deployment and increases 
access to affordable telecommunications services on Indian lands. \24\ 
We further recommend that Congress conduct an oversight hearing on 
Interior's role in broadband infrastructure build-out in Indian 
Country. \25\
C. Housing
    Housing infrastructure in Indian Country continues to lag behind 
the rest of the United States. Over 70 percent of existing housing 
stock in tribal communities is in need of upgrades and repairs, many of 
them extensive. \26\ In 2017, The U.S. Department of Housing and Urban 
Development (HUD) reported that, ``the lack of housing and 
infrastructure in Indian Country is severe and widespread, and far 
exceeds the funding currently provided to tribes.'' \27\ The lack of 
affordable housing contributes to homelessness and overcrowding. Tribal 
communities experience overcrowded homes at a rate of 16 percent, 
roughly eight times the national average. \28\ HUD research also shows 
that such overcrowding has a negative effect on family health and 
contributes to the ongoing problems of domestic violence and poor 
school performance in Indian Country. \29\ Funding new construction 
across the board will help alleviate issues of overcrowding.
    In addition to the historic funding shortfalls, the location of 
many tribal communities increases the material and labor costs of home 
construction and impose additional housing development costs upon 
communities already confronting enormous economic challenges. \30\ 
Building materials must often be brought into tribal communities from 
miles away over substandard roads or even by air, and the availability 
of ``qualified and affordable contractors'' is limited. \31\ Given 
these extensive funding needs, it is critical that Congress support (1) 
reauthorization of NAHASDA; (2) increase funding for the Bureau of 
Indian Affairs' (BIA) Housing Improvement Program (HIP); and (3) 
permanently reauthorize the Tribal HUD-VASH Program.
i. Reauthorize NAHASDA and Increase Funding for IHBG Formula Grants (FA 
        Reviewed)
    The Native American Housing Assistance and Self-Determination Act 
(P.L. 104-330) (NAHASDA), first enacted in 1996, authorized Tribal 
Nations to self-determine their housing programs. It gave flexibility 
for Tribal Nations to develop, construct and maintain housing for their 
members, transforming how federal housing programs addressed housing 
needs in tribal communities. NAHASDA consolidated existing housing 
funds into a single block grant--the Indian Housing Block Grant 
(IHBG)--resulting in tens of thousands of additional housing units 
being constructed, as well as increased tribal capacity to address 
related infrastructure and economic development challenges. The IHBG is 
a formula-based grant that provides certainty and security for long-
term housing and community development. Unfortunately, IHBG has been 
mostly level-funded for the past 20 years, failing to even keep pace 
with inflation while housing needs continue to increase. \32\
    In the 116th Congress, Senator John Hoeven introduced S. 4090: The 
NAHASDA Reauthorization Act. S. 4090 proposed to reauthorize NAHASDA 
programs through 2031, create an Assistant Secretary for Indian Housing 
at HUD, and update several key provisions including: re-establishing a 
Drug Elimination program for tribal communities; streamlining 
environmental review requirements; allowing housing assistance for 
students; recognizing tribal sovereignty to govern maximum rent 
requirements; allowing tribal housing programs to access IHS sanitation 
funding; tribal eligibility for HUD Housing Counseling and Homelessness 
Assistance grants; and reauthorizing Native Hawaiian housing programs. 
NCAI strongly urges Congress to reintroduce and pass legislation that 
reauthorizes NAHASDA through 2031 \33\ and provides increased funding 
appropriations for IHBG formula grants of at least $1 billion to help 
address the ongoing housing crisis in Indian Country.
ii. Increase funding for the BIA Housing Improvement Program (HIP)
    HIP is a home repair, renovation, replacement, and new housing 
grant program administered by the BIA and federally recognized Tribal 
Nations for low-income AI/ANs. In 2015, the BIA updated its regulations 
and expanded the eligible use of HIP funds to include down payment 
assistance for low-income working families seeking to become private 
homeowners. \34\ This new activity expands homeownership opportunities 
for Native families and allows leveraging of federal housing funds to 
increase the number of families served and projects funded. 
Additionally, HIP recipients receive BIA funding priority for water and 
sewer infrastructure. \35\
    Despite the need, the HIP program has undergone funding 
fluctuations. It was funded at $23.1 million in 2005 \36\ and then 
eliminated from the 2008 budget and not funded again until 2016 at $8 
million. The prior Administration proposed the elimination of this 
program and it has been funded at a flat rate of $9.7 million in 
subsequent years. \37\ For a decade, NCAI has strongly advocated for 
restoration of this funding to at least $23 million to address the 
substantial unmet housing needs in Indian Country. Accordingly, we 
strongly urge the 117th Congress to increase funding for this program 
which serves some of the neediest in Indian Country.
iii. Permanently Reauthorize the Tribal HUD-VASH Program Native 
        veterans have a long history of distinguished service to this 
        country. Per capita, they serve at a higher rate in the Armed 
        Forces than any other group of Americans and have served in all 
        the nation's wars since the Revolutionary War. Native veterans 
        have even served in several wars before they were even 
        recognized as U.S. citizens or eligible to vote. Despite this 
        esteemed service, homelessness is a concern for our Native 
        veterans. To combat this issue, Congress created the HUD-
        Veterans Affairs Supportive Housing (HUD-VASH) program. The 
        program has been a nationwide success because it combines 
        rental assistance, case management, and clinical services for 
        at-risk and homeless veterans. Unfortunately, this program is 
        not fully available to Native veterans living on tribal lands.
    In the 116th Congress, Senator Jon Tester introduced S.257, the 
Tribal HUD-VASH Act of 2019. S. 257 would codify and make permanent the 
Tribal HUD-VASH program within the larger HUD-VASH program and ensure 
adequate funding for the program. In addition, the bill would make all 
Tribal Nations and their tribal housing programs eligible for the HUD-
VASH program, which to date has remained limited to the original 26 
recipients. The bill would also call on IHS to assist the program as 
requested by HUD or the Department of Veterans Affairs (VA).
    NCAI has a standing resolution supporting this legislation. \38\ 
Accordingly, NCAI urges this Committee to pass similar legislation 
early in the 117th Congress.
D. Roads and Transportation
    The economy and wellbeing of Indian Country are dependent upon 
transportation infrastructure. Without safe and well-maintained roads, 
bridges, and public transportation, Tribal Nations are unable to 
adequately provide essential services to their citizens. Tribal Nations 
construct, improve, and maintain transportation facilities that are 
used by tribal citizens and surrounding communities alike and require 
funding to promote public safety, economic development, and community 
wellbeing.
    There are approximately 160,000 miles of public roads in the 
National Tribal Transportation Facilities Inventory, \39\ placing sole 
or shared jurisdictional control over the construction and maintenance 
of these facilities with tribal governments. These roads are often the 
primary means of access to Native and non-Native residents and visitors 
alike. The lack of sufficient transportation infrastructure throughout 
Indian Country hampers economic development opportunities for Tribal 
Nations and their citizens and increases risks for all motorists who 
traverse these roads.
    The integrity of the transportation infrastructure systems in 
Indian County includes BIA-owned roads and facilities that have a 
direct impact on tribal and surrounding non-tribal communities. In 
2018, in coordination with the Tribal- Interior Budget Council, the BIA 
developed and conducted a road maintenance survey intended to develop 
data on road maintenance budget needs. \40\ The road maintenance survey 
included both tribal and BIA respondents. The survey found, in part, 
that the estimated value of deferred road maintenance for all 
respondents was $498 million. \41\ This finding begins to quantify the 
chronic underfunding of tribal transportation programs that led to such 
a staggering maintenance backlog statistic, and demonstrates the need 
for a robust funding solution. It is imperative that federal funding 
levels for the Tribal Transportation Program (TTP), Tribal Technical 
Assistance Program (TTAP), Tribal Transit Program, and BIA Road 
Maintenance Program are increased. For many tribal governments, this 
federal funding is the only funding source to improve or maintain road 
systems.
i. Address the backlog of BIA Indian Reservation Roads and Bridge 
        Maintenance
    The BIA is responsible for maintaining approximately 29,400 miles 
of roads in Indian Country, including 900 bridges. However, funding for 
BIA Road Maintenance has remained stagnant for several appropriations 
cycles, while deferred maintenance has risen to over $300 million. The 
condition of BIA System roads and bridges is increasingly concerning 
for tribal citizens and members of surrounding communities.
    For FY 2020, $36.06 million was appropriated for BIA Road 
Maintenance, and has remained steadily around this amount for prior 
fiscal years; meanwhile, the road maintenance need continues to 
increase. Additional funding for the BIA Road Maintenance program is 
needed to begin to address public safety and commercial activity 
concerns that affect tribal communities and surrounding areas.
    Congress must increase annual appropriations for the BIA Road 
Maintenance Program to address the unacceptable backlog of unmet road 
maintenance needs for fair, poor, and failing routes, and structurally 
deficient BIA System bridges, especially for school bus routes. NCAI 
requests Congress increase the annual funding for the BIA Road 
Maintenance Program to $75 million.
ii. Support Elimination of the Obligation Limitation Deduction on TTP 
        Funds
    A limitation is placed on Federal-aid highway and highway safety 
construction program obligations to act as a ceiling on the obligation 
of contract authority that can be made within a specified time period. 
Prior to enactment of the Moving Ahead for Progress in the 21st Century 
Act, the TTP program, formerly the Indian Reservation Roads, was exempt 
from the obligation limitation and its subsequent deduction. Currently, 
the TTP program is subject to the Federal Obligation Limitation and 
shares in a rescission of funding each year, while other programs 
remain exempt. Federal obligation imitation deductions on TTP funds can 
be in excess of $50 million in a single year. Even with the $10 million 
annual increases in funding under the Fixing America's Surface 
Transportation Act, after the federal obligation limitation deduction, 
it was one step forward and five steps back in funding each year, 
against a tribal infrastructure landscape that is crumbling in places 
and non-existent in others. These rescinded funds due the Federal 
Obligation Limitation are desperately needed to maintain the safety and 
condition of transportation facilities used by Native and non-Native 
citizens alike. During the 116th Congress, surface transportation 
reauthorization in the Senate included many desperately needed 
reauthorization solutions for tribal transportation, including the 
entirety of S. 1211, the Addressing Underdeveloped and Tribally 
Operated Streets Act that was voted out of this Committee during the 
116th Congress. However, only the House included a solution to 
eliminate the Federal Obligation Limitation on TTP funds as part of its 
surface transportation reauthorization effort during the 116th 
Congress. \42\ SCIA must advocate with the Senate Committee on 
Environment and Public Works and the rest of the Senate to include a 
solution to the devastating recessionary effects of the obligation 
limitation deduction on TTP funds.
III. Appropriations and Data
A. Support Advance appropriations for IHS and DOI Indian Affairs
    Delays in federal funding have an outsized impact on the daily 
lives of tribal citizens who already face underfunding of healthcare 
and education, and backlogs in physical infrastructure--all of which 
fall under the federal government's treaty and trust obligations to 
Tribal Nations. Authorizing advance appropriations for BIA, the Bureau 
of Indian Education (BIE), and IHS is a solution to the issue of 
delayed funding. Advance appropriations are an agreement to fund 
certain programs at a set amount in advance of when that funding is 
made available. These advance appropriations do not become available 
until the fiscal year they are designated to fund and can be modified 
to reflect changing conditions that may need revised appropriations at 
a later date. Advance appropriations are budget neutral and potentially 
flexible funds that help entities and programs manage specific planning 
concerns while insulating against the outsized effects of federal 
funding uncertainty on tribal governments and communities. In the 116th 
Congress, legislation was introduced authorizing advance appropriations 
for certain BIA, BIE, and IHS accounts with bipartisan and bicameral 
support. This common sense solution to an outsized problem for Indian 
Country must be introduced and enacted during the 117th Congress, and 
it must include all Indian Affairs and IHS accounts in order to achieve 
the basic stability and certainty that is owed to Tribal Nations by the 
federal government.
B. Federal Data Deficiencies for Tribal Programs
    The federal government does not collect the data necessary to 
measure unmet programmatic obligations across tribal programs. As a 
result, any measure of progress for tribal programs is arbitrarily 
compared to historical budgets that are documented as underfunded and 
insufficient to meet the trust and treaty obligations of the federal 
government to Tribal Nations and their citizens. Failure to collect 
this data and put forward a needs-based budget directly harmed Tribal 
Nations during legislative COVID-19 relief negotiations because Tribal 
Nations were often asked to supply data that documented the extent of 
unmet needs, and tribal relief asks were compared against chronically 
underfunded annual appropriations. Certain unmet obligations 
assessments have been completed, such as the annual BIA report to 
Congress required under the Tribal Law and Order Act. However, these 
efforts are limited in scope and fundamentally affected by the quality 
of data that goes into such estimates. This Committee must work with 
Congress to require all federal departments or agencies with tribal 
programs to include an annual estimate of the cost to fully fund the 
responsibilities of each tribal program within the department or 
agency. Each program estimate should include a detailed explanation of 
the methodology and underlying data relied on to provide such 
estimates. Each methodology must be developed in consultation and 
collaboration with Tribal Nations. The estimates must also identify 
data deficiencies that limit accuracy and provide a plan for remedying 
those deficiencies.
C. Empower Tribal Governments to Collect and Certify Their Own Data for 
        use by the Federal Government
    More than four and a half decades of self-determination and self-
governance in federal Indian policy have clearly and repeatedly 
demonstrated that empowering Tribal Nations is a fiscally responsible 
and effective use of funds providing government services to AI/ANs. The 
federal government has tribal data deficiencies, and the solution must 
be collaboratively developed and maintained by tribal and federal 
partners working together. Tribal governments enter into annual funding 
agreements to operate federal programs and are good financial stewards 
of the funds they receive. Providing resources to tribal governments to 
collect and certify certain data consistent with any negotiated funding 
agreements in place could allow for improvements in federal data and 
tribal program outcomes, as well as certain mutual assurances that the 
data, once received by the federal government, will not be misused.
D. Enact Strict and Consistent Confidentiality Requirements on all 
        Tribal Data Collected by the Federal Government, Including 
        Restrictions on Internal use and Transfer of Tribal Data 
        Between Agencies and Penalties for Misuse
    Government actions are often data-driven and certain information is 
critical to allocate spending for tribal programs. Unfortunately, the 
unauthorized public release of tribal data during the Coronavirus 
Relief Fund (CRF) implementation renewed tribal distrust and skepticism 
in the federal government's collection and use of tribal data. Even 
without a data leak, datasets taken out of context (such as NAHASDA-
certified Census Bureau data used by the Department of the Treasury for 
CRF allocations to tribal governments) \43\ confuse specific 
jurisdictions for federal programs and can substantially distort real 
conditions in tribal communities. Administrative guardrails and 
protections must be developed in consultation and collaboration with 
Tribal Nations to restore faith in the federal government as partner 
and as trustee. These measures would provide express assurances to 
tribal governments that the United States has a fiduciary obligation to 
safeguard and properly use tribal data that is collected for 
fulfillment of its federal trust and treaty responsibilities. Simply 
put, it is a fundamental matter of government-to-government trust.
E. Move Contract Support Costs and Payments for Tribal Leases from 
        Discretionary to Mandatory Spending
    The Indian Self-Determination and Education Assistance Act (ISDEAA) 
requires the Secretary of the Interior and the Secretary of Health and 
Human Services (HHS) to pay Tribal Nations the funding associated with 
federal programs and Contract Support Costs (CSC), which are the 
administrative and overhead costs of running the programs. The 
Secretaries of Interior and HHS must also enter into leases with Tribal 
Nations or eligible tribal organization for facilities used to 
administer and deliver services under the ISDEAA. Appropriations 
Committees have repeatedly stated in explanatory statements that 
obligations of this nature are typically addressed through mandatory 
spending, but since they fall under discretionary spending, they impact 
other discretionary programs. Appropriating CSC and Payments for Tribal 
Leases on a mandatory basis would solve this problem once and for all 
by bringing the appropriations process into line with the clear legal 
requirements of the authorizing statute. A simple amendment to a 
permanent appropriations statute could solve these decades-long funding 
dilemmas. At no net cost, the government would avoid liability, protect 
Indian programs, and honor tribal contracts.
IV. Health and Education
A. Health
    The federal government's obligation to provide healthcare was 
prepaid by Tribal Nations. The United States assumed this 
responsibility through a series of treaties with Tribal Nations, 
exchanging compensation and benefits for Tribal Nations' land and 
resources, and to obtain peace. Despite these obligations, AI/ANs have 
long experienced significant health disparities when compared to other 
Americans. To minimize these disparities NCAI calls on the Senate to 
ensure the following priorities are addressed during the 117th 
congress.
i. Address Tribal Health Infrastructure
    The public health infrastructure crisis across Indian Country has 
its roots in the historic underfunding of the federal government's 
fiduciary responsibility to Tribal Nations. The most recent IHS report 
submitted to Congress on IHS and tribal health care facilities reported 
that the unmet need for IHS facilities is over $10 billion. Underfunded 
facilities coupled with inadequate water and sanitations systems, and 
outdated electronic health record systems creates a less than ideal 
health environment and negatively impacts the social, physical, and 
mental wellbeing of tribal and neighboring communities.
    The Broken Promises Report found that inadequate health facilities 
is one correlating factor in AI/ANs having ``life expectancies that are 
5.5 years shorter than the national average.'' \44\ Currently, the 
average age of an IHS hospital is greater than 37 years compared to 10 
years for mainstream hospitals. \45\ Further, the federal government 
spends just $35 per capita on IHS facilities, compared to $374 per 
capita for the nation as a whole. \46\ This disparate funding has 
resulted in the square footage of IHS health care facilities being at 
only 52 percent for the populations it is intended for. \47\ Given that 
AI/AN populations are rapidly growing, Congress must have the courage 
to address this issue head on by appropriating large amounts of funding 
to address the backlog of need and build for the future.
    In addition to physical infrastructure, updating IHS's current 
Electronic Health Records (EHR) systems is an urgent priority. 
Currently, in various tribal communities patients are forced to hand 
carry their medical records with them when seeing a clinician so they 
can guarantee their service provider has the resources needed to make 
informed medical decisions. Implementing a well thought out EHR system 
can address many issues and results in health professionals being able 
to make better informed decisions about their patients, reduce medical 
errors, and coordinate closer with other medical sites. NCAI is 
grateful for the emergency funding provided within COVID-19 emergency 
legislation to improve tribal EHR; however, in order to make 
substantial upgrades to the current system, Congress must commit to 
providing dedicated and sustainable funding. That said, NCAI urges 
members of this committee to introduce and pass legislation for 
dedicated funding to ensure tribal health systems are not left further 
behind in the nation's transition to electronic health systems.
    Additionally, the Broken Promises Report highlighted the 
underfunding of water sanitation programs within tribal communities, 
citing the estimated need of $2.8 billion to provide safe drinking 
water and adequate sewage systems for all Native homes. \48\ Lack of 
safe drinking water and inadequate sanitation systems has made it 
nearly impossible for many AI/AN communities to abide by CDC's 
sanitation and hygiene standards during the current COVID-19 health 
emergency. In the 116th Congress, S. 4168 was introduced by Senator 
Kristen Sinema. S. 4168 would have dedicated funding in the amount of 
$1.335 billion each year for the period of fiscal years 2020 to 2024. 
Last year, NCAI passed #PDX-20-017, ``Calling for Increased Funding for 
Health Care and Sanitation Infrastructure for American Indian and 
Alaska Native Tribal Nations.'' \49\ Accordingly, NCAI supports efforts 
like S. 4168 and requests that Congress enact legislation to address 
tribal sanitation needs.
ii. Address Mental and Behavioral Health and Addiction in Indian 
        Country
    The high rates of behavioral health challenges among AI/AN people 
creates an urgency for Tribal Nations, Congress, and federal agencies 
to partner in a manner that seeks to improve the health and well-being 
of all AI/AN people. Currently, Tribal Nations struggle to address 
challenges like mental health, due to an inability to implement federal 
programs in a flexible manner that ensures such programs reflect 
community values and use proven methods for addressing complex issues. 
When Tribal Nations can fully adjust programs and incorporate their 
individual community values there has been success in increased 
participatory engagement and behavioral health challenges have 
decreased.
    NCAI supports the re-introduction and passage of this legislation 
and in 2012 passed Resolution SAC-12-054, ``Increase Funding for 
Prevention of Methamphetamine and Suicide in Indian Country.'' \50\ 
Accordingly, NCAI requests Congress include Tribal Nations in 
additional mental health legislation to support effective and 
culturally appropriate tribal responses to the opiate epidemic and 
addiction crisis in tribal communities.
iii. Expanding Telehealth Services
    In addition to reducing risk from COVID-19, telehealth expands care 
to those who may live far away from an IHS or tribal facility. During 
the COVID-19 pandemic, the Centers for Medicare and Medicaid in 
partnership with Congress enacted waivers to, among other things, 
support the expansion of telehealth to protect public health and 
deliver care to distant populations. This has been instrumental in 
ensuring the safety and wellbeing of our tribal communities and should 
be extended and expanded upon once the pandemic is over.
    Additionally, while Indian Country is grateful for the waivers that 
have been given, the disparity between the rates that CMS pays for in-
person and telehealth service have still yet to be addressed and will 
not encourage the use of telehealth in the future. Currently, in-person 
medical services are paid at the OMB/IHS All Inclusive Rate, which is 
$479 per visit in the lower 48 states and $710 in the State of Alaska. 
\51\ Unfair to tribal Federal Qualified Health Centers using telehealth 
services, CMS's reimbursement rate for the same medical appointment via 
telehealth is only $92.03 per visit. \52\ NCAI supports the Tribal 
Technical Advisory Group to the Center for CMS that, ``Given their 
unique history and reimbursement methodology, that directive should not 
apply to Tribal FQHCs, which should instead be reimbursed for the 
service at the same All Inclusive Rate that applies for patients seen 
on site.'' \53\ Accordingly, NCAI urges this committee to support the 
expansion of the existing telehealth waivers, allow payment disparities 
to be retroactive to the start of the Public Health Emergency and to 
make sure Tribal Nations are receiving the resources needed to provide 
care to their patients. In addition, NCAI supports making these 
expanded waivers permanent so that our tribal health systems can 
develop this method of care to increase services to AI/ANs after the 
pandemic ends.
B. Education
    Native students have faced and continue to face obstacles both 
inside and outside the classroom. We know that the challenges Native 
students face are significant, but we also know that Native students 
can succeed, and Native education can improve. Tribal Nations across 
the country have partnered with state and local jurisdictions to 
establish innovative programs that recognize the unique cultural and 
educational needs of Native students. In these areas, Native students 
are thriving, graduating, and are ready to lead in their communities 
and beyond. In order to provide Tribal Nations and our Native students 
the education they deserve, NCAI calls on Congress to address the 
following:
i. Address Crumbling School Infrastructure with Innovative Solutions
    Schools operating within the BIE system are woefully outdated and, 
in some cases, dangerous for students and staff. At the end of FY 2019, 
BIE reported 71 schools in poor condition, \54\ which puts Native 
students at a significant, unfair learning disadvantage. The current 
cost as estimated by Interior's Office of Inspector General for 
replacing or rehabilitating BIE school facilities exceeded $4.6 
billion. \55\ Further, Interior identified $629 million in deferred 
maintenance for BIE-funded education facilities and $86 million in 
deferred maintenance for BIE educational quarters. \56\ To begin to 
address this issue, Congress passed H.R. 1, the American Recovery and 
Reinvestment Act (ARRA) of 2009, allocating $200,000,000 for calendar 
year 2009 and $200,000,000 for calendar year 2010 in tax credit bonds 
for purpose of construction, rehabilitation, and repair of schools 
funded by the BIA.
    While this funding was appreciated, no Tribal Nations were able to 
use the ARRA tax credit bonds due to a lack of capital outlay and an 
escrow account to support the issuance of school modernization bonds. 
Tribal Nations recognize the need for adequate school facilities for 
students in their communities and have been working with the 
Administration and Congress to come to solutions for alternative school 
construction funding options under existing statutory authority. Some 
Tribal Nations have discussed and even developed a school construction/
lease-back proposal whereby the community takes over the school design 
and construction function, and, when completed, leases the facility 
back to Interior. While this is a great solution for Tribal Nations 
that have the resources and capital to complete school design and 
construction, additional innovative solutions must be made. Therefore, 
NCAI urges this committee work with Tribal Nations to develop 
additional innovative models of funding for BIE school construction and 
related infrastructure, provided that new funding sources or methods 
must supplement and not supplant existing funding methods. Further, 
NCAI calls on members of this Committee to support increased funding 
levels as requested in NCAI's FY 2022 Budget Book to address this 
critical need.
ii. Support Native Languages
    The survival of our Native languages is essential to the success of 
tribal communities and way of life. However, without urgent and 
sustained intervention, far too many Native languages risk extinction. 
According to the United Nations Educational, Scientific and Cultural 
Organization, 74 Native languages will disappear within the next decade 
if we don't take significant action. \57\ This has been exacerbated by 
COVID-19, which has had a devastating toll on the lives of our Native 
elders who are often our communities' last fluent speakers.
    In the 116th Congress, S. 4510, the Native American Language 
Resource Center Act was introduced by Senator Brian Schatz. This 
legislation would create grants for our institutions of higher 
education to establish, operate, and staff a Native American language 
resource and training center, which would improve the capacity to teach 
and learn Native American languages. NCAI urges this Committee to pass 
similar legislation early in the 117th Congress to help provide the 
resources needed to protect our Native languages for the next 
generation.
iii. Support for the Creation of Native Community-Based Curricula 
        Development
    Native Americans are unfortunately invisible to many. Most 
Americans likely have attended or currently attend a school where 
information about Native Americans is either completely absent from the 
classroom or relegated to brief mentions, negative information, or 
inaccurate stereotypes. This results in an enduring and damaging 
narrative regarding Native peoples, Tribal Nations, and their citizens.
    Even though some exceptional efforts are happening around the 
country to bring accurate, culturally responsive, tribally specific, 
and contemporary content about Native Americans into mainstream 
education systems, much work remains to be done. Therefore, NCAI urges 
Congress to introduce legislation to support community-based curricula 
development. Giving Tribal Nations and tribal organizations the 
resources they need to create culturally responsive curriculum will 
make it more likely that states implement and require our history, told 
accurately, be included in public school systems.
V. Economic Development
    In 2018, the USCCR documented the dire socio-economic conditions in 
Indian Country with its Broken Promises Report, which found that:

         Indian Country faces many economic development challenges. 
        Over 25 percent of Native Americans live in poverty, which is 
        higher than the poverty rate of any other racial group in the 
        U.S. For Native Americans living on reservations, the 
        unemployment rate is around 50 percent and for certain 
        reservations, the average unemployment rate is much higher, 
        hovering around 80 percent and up. \58\

    The current COVID-19 pandemic has especially highlighted Indian 
Country's need for increased investments in infrastructure, housing, 
education, healthcare and broadband. Despite these unmet needs, few 
federal programs exist that provide stable funding to fulfill this 
trust responsibility and Tribal Nations encounter difficulty accessing 
credit to fund these development needs through lending institutions 
which currently have very little incentive to extend credit and capital 
services onto tribal lands. Capital barriers particularly impact tribal 
governments because dual taxation leads Tribal Nations to rely more 
heavily on tribal enterprises that require access to credit services to 
support these enterprises. Addressing dual taxation and access to 
capital are essential to federal trust responsibility to support the 
development of tribal economies.
A. Addressing the Effects of Dual Taxation on Tribal Economies
    Congress has trust and treaty responsibilities to ensure federal 
tax policy affords Tribal Nations the same opportunities as other 
governments to provide for their citizens. The ISDEAA formally 
committed the United States to supporting tribal self-determination and 
self-governance, as embodied in the following passage:
    The Congress declares its commitment to the maintenance of the 
Federal Government's unique and continuing relationship with, and 
responsibility to, individual Indian tribes and to the Indian people as 
a whole.In accordance with this policy, the United States is committed 
to supporting and assisting Indian tribes in the development of strong 
and stable tribal governments, capable of administering quality 
programs and developing the economies of their respective communities. 
\59\
    Like all sovereigns, Tribal Nations need revenues to fund 
governmental services and public goods. The Supreme Court, in Merrion 
v. Jicarilla Apache Tribe, held that ``the power to tax is an essential 
attribute of Indian sovereignty because it is a necessary instrument of 
self-government and territorial management.'' \60\ Despite the Supreme 
Court's recognition of tribal taxation authority, taxation of economic 
activities on tribal lands is often subject to attempts by state and 
local governments to tax the same economic activity, which results in 
complex, confusing, and unpredictable rules. This dual taxation creates 
disincentives to invest in businesses on tribal lands and results in 
Tribal Nations often foregoing their inherent right to tax in order to 
retain private investment on their lands. This forfeiture of critical 
revenue contributes to the distressed economic conditions that exist on 
many tribal lands. Indian Country has long pursued solutions \61\ to 
dual taxation and in November 2020 passed NCAI Resolution #PDX-20-013, 
entitled Calling Upon Congress to Support the Modernization of Federal 
Indian Traders License Statute and Regulations in Keeping with the 
Indian Self Determination Policy. Accordingly, NCAI urges Congress to 
consider legislative action to address dual taxation on tribal lands.
VI. Cultural Heritage and Lands
A. Cultural Heritage
    The protection and preservation of Native American religious 
practices, customs, sacred and cultural places, and items of patrimony 
is a priority for Tribal Nations. Existing federal law has resulted in 
the limited repatriation of ancestral remains, cultural items, and some 
safeguards for sacred places. \62\ Legislation, however, is needed to 
increase protections of tribal cultural and religious practices, sacred 
places, and items of patrimony and to prevent the export and sale of 
sacred items in foreign auctions. \63\
i. Improve Domestic Legislation to Better Protect Native American 
        Cultural Patrimony and Ancestral Remains
    In the 30 years since the passage of the Native American Graves 
Protection and Repatriation Act (NAGPRA), many ancestors and sacred 
items have been returned to their homelands. For all the success of 
NAGPRA, more needs to be done. For example, approximately 117,000 
ancestral remains have yet to be repatriated and Tribal Nations have 
little recourse when the statute is violated despite the existence of 
civil penalties. \64\ Congress can address these continuing issues by 
improving NAGPRA with the following amendments.

<bullet>  Creating mechanisms that support private citizen efforts to 
        return items of Native American cultural heritage; \65\

<bullet>  Increasing the penalties for violations and non-compliance by 
        institutions in possession of Native American ancestral remains 
        and ensure adequate enforcement mechanisms; \66\

<bullet>  Amend NAGPRA to ensure the definition of ``Native American'' 
        matches the intent of the law. \67\

    With respect to the last bullet, in Bonnichsen v. United States, 
367 F.3d 864, at 879-882 (9th Cir. 2004), the Ninth Circuit found that 
the remains of Techaminsh Oytpamanatityt (Ancient One), or Kennewick 
Man, were not ``Native American'' within the meaning of NAGPRA and 
therefore could not be repatriated. \68\ In doing so, the court 
inappropriately narrowed the definition of ``Native American.'' 
Congress should amend the definition of Native American in NAGPRA to 
read as follows: ```Native American' means of, or relating to, a tribe, 
people, or culture that is or was indigenous to any geographic area 
that is now located within the boundaries of the United States.''
ii. Prevent the Export of Tribal Objects of Cultural Patrimony
    NAGPRA was a monumental piece of a legislation \69\ that resulted 
in the return of many ancestral remains and sacred items and items of 
cultural patrimony. However, Tribal Nations cannot prevent the export 
of these items to foreign countries or take advantage of international 
treaties, to which the United States is a party, to facilitate their 
return from foreign countries. Congress can address this issue by 
passing the Safeguard Objects of Tribal Patrimony (STOP) Act. 
Originally introduced in the 115th Congress (S. 1400), and again in the 
116th (S. 2165), this bill would prohibit the export of Native American 
items of cultural patrimony obtained in violation of current federal 
law, increase the penalties for such acts, and facilitate inter-
governmental coordination to expedite the return of already exported 
items from foreign countries to their tribal homelands. NCAI requests 
that Congress re-introduce and enact the STOP Act during the 117th 
Congress. \70\
B. Lands
    Federal, state, and private lands are carved from the ancestral 
territories of Tribal Nations. Between 1776 and 1887, Tribal Nations 
lost approximately 1.5 billion acres of their homelands; \71\ between 
1887 and 1934 Tribal Nations lost another 90 million acres as a result 
of federal policies. \72\ Through its acquisition of tribal lands and 
resources, the United States formed a unique political relationship 
with Tribal Nations. This relationship is enshrined in the U.S. 
Constitution, \73\ treaties, statutes, \74\ Supreme Court decisions, 
\75\ and executive orders \76\ and recognizes the United States' 
fiduciary obligation to safeguard tribal lands. \77\
    Through passage of the Indian Reorganization Act of 1934 (P.L. 73-
383) (IRA), Congress repudiated the devastating policy of allotment, 
which impoverished tribal communities by causing the loss of 90 million 
acres of tribal homelands. \78\ Importantly, the IRA provides for the 
recovery of tribal homelands and imposes a duty on the Secretary of the 
Interior, as trustee for Tribal Nations, to take land into trust for 
the benefit of these nations. The IRA also prohibits the creation of 
classes of Tribal Nations.
    The IRA was a recognition that tribal homelands--whether within or 
outside current reservation boundaries--remain the heart of tribal 
governance, economies, healthcare, education, public safety and justice 
services, employment, and the protection of cultural and natural 
resources. Presently, Tribal Nations encounter significant barriers in 
the restoration of their homelands administratively and the management 
of resources within their ancestral territories which impact tribal 
treaty, trust, subsistence, and cultural rights and needs. To address 
these impediments, Tribal Nations have the below priorities.
i. Support the Restoration of Tribal Homelands and Pass a Clean 
        Carcieri Fix
    On February 24, 2009 the Supreme Court held in Carcieri v. Salazar, 
129 S.C. 1058 (2009) that the Secretary of the Interior lacked 
authority to take land into trust under Section 5 of the IRA for Indian 
tribes that were not under federal jurisdiction at the time of the 
Act's passage in 1934. Since the 111th Congress, \79\ Members of SCIA 
have either co-sponsored or introduced legislation to ``fix'' the 
Supreme Court's flawed decision. Most recently, during the 116th 
Congress, Senator Jon Tester (D-MT) introduced, S. 2808, a simple 
bipartisan amendment to the IRA that would undo the damage Carcieri v. 
Salazar has inflicted on Indian country. The amendment would (1) 
restore the Interior Secretary's authority to take land into trust for 
all federally recognized Tribal Nations; and (2) re-affirm existing 
trust lands. NCAI strongly supports passage of a clean Carcieri fix in 
the 117th Congress. \80\
ii. Protect Tribal Homelands and Sacred Places including View Sheds and 
        Soundscapes
    Congress must continue to support tribal management and co-
management of their traditional homelands. Last Congress, S. 3019, the 
Montana Water Rights Protection Act was passed as part of H.R. 133, the 
Consolidated Appropriations Act of 2021, and restored the National 
Bison Range to the Confederated Salish and Kootenai Tribes (CSKT) and 
returned management of the range to the CSKT. Importantly, the bill 
recognized that CSKT like many Tribal Nations have an extensive history 
of successful partnerships with Federal agencies with respect to the 
management of lands and resources. When Tribal Nations have the ability 
to make culturally appropriate management decisions about their 
homelands and natural resources they bring health, cultural, and 
economic benefits to their citizens and surrounding communities. 
Accordingly, we request that Congress support legislation that:

<bullet>  Meaningfully integrates Tribal Nations into federal land 
        management planning, practices, and decisionmaking and provides 
        consultation enforcement mechanisms; \81\

<bullet>  Supports tribal co-management of federal lands by expanding 
        existing authorities such as tribal assumption of federal 
        responsibilities through self-governance compacts and self-
        determination contracts and enhance protections and tribal 
        management for their sacred places; \82\

<bullet>  Meaningfully incorporate tribal expertise and Traditional 
        Knowledge, with protections, into the federal decisionmaking 
        process, including deference to tribal decisionmaking regarding 
        trust and treaty resources. \83\

    Tribal homelands remain the foundation to tribal governance. 
Management of tribal traditional homelands, including those within 
federal public lands, must be holistic, inclusive and incorporate the 
fundamental principles and practices of tribal co-management. This 
approach will unite the expertise of diverse perspectives to build a 
participatory framework that will benefit everyone. Congress must 
uphold its fiduciary obligations to work in partnership with Tribal 
Nations to protect and preserve their homelands.
VII. Climate Change and Energy
A. Climate Change
    The cultures, traditions, lifestyles, communities, foods, and 
economies of Tribal Nations are often dependent upon natural resources 
that are disappearing faster than they can be restored because of 
dramatic shifts in weather and climate. \84\ As such, they are 
disproportionately affected by even incremental environmental changes. 
\85\ Tribal Nations are at the front lines of the climate crisis 
responding to sea level rise, coastal erosion, ocean acidification, 
increased frequency and intensity of wildfires, extended drought, and 
altered seasonal duration. \86\ These weather events have dramatic 
impacts on traditional cultural and subsistence practices and sacred 
places, tribal fisheries, timber harvesting and agricultural 
operations, eco-tourism, and infrastructure. \87\ Despite these 
challenges, Tribal Nations are leading the way in climate action 
mitigation, adaptation, and resiliency responses for their communities 
and are integral to the global and national responses to the climate 
crisis. \88\
    Tribal Nations have the following, non-exhaustive list of 
priorities and goals for Congressional climate responses:

<bullet>  Legislation must include full and meaningful consultation 
        with decision makers that requires Tribal Nations' free, prior, 
        and informed consent and includes enforcement mechanisms; \89\

<bullet>  Tribal Nations must be integrated into Congressional and 
        Executive Branch climate planning, including on federal climate 
        committees and working groups; \90\

<bullet>  Restoring tribal land, water, wildlife and fisheries 
        resources is critical to tribal climate responses. This 
        includes identification and assessment of the full cost of 
        climate impacts on Tribal Nations; \91\

<bullet>  Co-management opportunities should be created and furthered 
        to support intergovernmental partnerships and integrate tribal 
        traditional knowledge in climate responses.

<bullet>  Any inclusion of Traditional Ecological Knowledge must be 
        conditioned on Tribal Nations' free, prior, and informed 
        consent; \92\

<bullet>  Tribal Nations must be included in climate financing action 
        through increased appropriations, grants, public-private 
        financing opportunities, and removal of barriers to tribal 
        climate responses, including competitive grants and matching 
        fund requirements.

<bullet>  Financing climate mitigation and adaptation measures must be 
        comprehensive and support a wide range of climate-related 
        activities, including wildfire management, coastal restoration, 
        drought resiliency, and for the development and repair of 
        tribal infrastructure.

<bullet>  Financing must also be flexible and responsive to tribal 
        needs and decisionmaking, and national efforts towards a 
        carbon-neutral economy must ensure that the socio-economic 
        needs of tribal energy producers are addressed. \93\

<bullet>  Any federal assistance provided to state and local 
        governments should also be provided to tribal governments 
        through tribal-specific funding mechanisms.

    Interior's Tribal Resilience Program is an important mechanism 
providing funding for projects that support tribal climate resilience 
and incorporate science, including Traditional Knowledge, into our 
climate approaches. Appropriations for this program fall short of the 
need. Congress should support doubling the current funding levels, 
increasing funding caps across all application categories, and expand 
the project funding beyond the current 2-year limitation. \94\
    Tribal Nations have the solutions to the climate crisis and we 
request that SCIA support legislation in the 117th Congress that 
incorporates the above tribal principles.
B. Energy
    Tribal energy resources are vast, largely untapped, and critical to 
America's efforts to achieve energy security and independence, reduce 
greenhouse gases, and promote economic development for both Indian 
Country and the United States as a whole. These resources include: one 
quarter of the nation's on-shore oil and gas reserves, one-third of the 
nation's western low-sulfur coal, \95\ almost 3.5 percent of the 
nation's wind energy, and approximately five percent of the nation's 
total solar energy potential. \96\
    Despite the energy potential in Indian Country, Tribal Nations face 
many challenges, including that approximately 14 percent of homes on 
reservations lack access to electricity \97\ and unique federal laws, 
regulations, and policies create additional burdens for energy 
development on tribal lands. \98\ Given the historic, social, and 
economic impediments Tribal Nations and citizens face, and the 
relatively short time in which they have been involved in energy 
development, the successes of Indian Country are clear indicators of 
future potential. Tribal Nations have several energy related priorities 
for the 117th Congress.
    First, Tribal Nations need assistance financing energy development 
through use of tools such as loans, grants, and technical assistance. 
\99\ For example, Interior's IEED Indian Loan Guarantee Program (ILGP) 
promotes tribal renewable and conventional energy development and 
mineral resource development for the purposes of economic development. 
IEED is responsible for many creative and successful initiatives that 
encourage energy resource development on tribal lands, spur economic 
and business development assistance and training, expand job and skills 
training opportunities, and leverage limited federal funding to provide 
access to capital for business development. However, there is a strong 
need for additional appropriations. With additional funding, the 
program could develop additional tribal capacity in managerial and 
technical capabilities, develop resource integration projects, and 
establish and maintain environmental programs in support of economic 
development. This program should be funded at a minimum of $25 million.
    Relatedly, Interior needs additional resources to enter into and 
help implement Tribal Energy Resource Agreements (TERAs). Tribal 
Nations can, and should, play a role in regulating the energy services 
industry on their lands and TERAs would assist in that endeavor. 
Without this authority, Tribal Nations, tribal citizens, and tribal 
enterprise utility customers located on tribal lands are, in effect, 
subject to state regulatory practices and decisions that have 
substantial impacts on energy development on tribal lands. \100\ To 
this end, Tribal Nations should not be subject to non-statutory funding 
eligibility requirements. These demands are a barrier to tribal 
participation in energy development funding programs and stifle Indian 
country's energy potential. \101\
    Finally, any energy-related legislation must include principles of 
parity and meaningful tribal consultation. This is critical since 
Tribal Nations must have the opportunity to provide their energy 
resources in an open market. Doing so will assist Tribal Nations and 
America in addressing critical energy needs. \102\
    With respect to consultation, Tribal Nations are best suited to 
make culturally and economically relevant decisions about the 
development and use of their energy resources. As such, Tribal Nations 
must be fully and meaningfully consulted with respect to the 
development of their energy resources. This includes both on and off-
reservation development of energy resources that impact tribal 
interests. \103\
    Despite the energy potential in Indian Country, Tribal Nations face 
many challenges, including underfunding, and unique federal laws, 
regulations, and policies that apply to energy development on tribal 
lands. Investing in and empowering Tribal Nations provides strong 
returns and outcomes for tribal and rural communities.
VIII. Public Safety
    Tribal communities continue to be plagued by the highest crime 
victimization rates in the country. A recent study by the National 
Institute of Justice found that more than four in five AI/AN adults 
have experienced some form of violence in their lifetime. \104\ Among 
AI/AN women, 55.5 percent have experienced physical violence by 
intimate partners in their lifetime, and 56.1 percent have experienced 
sexual violence. \105\ The study also found that 90 percent of these 
victims were victimized by a non-Indian perpetrator. \106\ The 
complicated jurisdictional framework at play in Indian Country, which 
limits tribal authority to prosecute non-Indians, continues to 
undermine safety for victims of violence in tribal communities. Tribal 
Nations are the only governments in America whose authority to protect 
their communities from domestic and sexual violence, child abuse, 
stalking, and trafficking is limited by federal law based on the 
political status/race of the defendant.
    Seven years ago, when Congress passed VAWA 2013, it included a 
provision that reaffirmed the inherent sovereign authority of Tribal 
Nations to exercise criminal jurisdiction over certain non-Indians who 
violate qualifying protection orders or commit domestic violence 
against AI/AN victims on tribal lands. However, victims of sexual 
violence, stalking, and trafficking, and AI/AN children and elders were 
left out. The limited scope of the federal law also leaves Tribal 
Nations unable to prosecute when a non-Indian domestic violence 
offender assaults a tribal law enforcement or corrections officer. 
These victims need the same protections that were extended to adult 
domestic violence victims in VAWA 2013.
    NCAI calls on Congress to reauthorize VAWA in the 117th Congress 
with key provisions addressing tribal jurisdictional issues such as 
those included in the Justice for Native Survivors of Sexual Violence 
Act and the Native Youth and Tribal Officer Protection Act, both of 
which have received bi-partisan support in this Committee in the past. 
These bills aim to reaffirm tribal jurisdiction over non-Indians for 
certain crimes involving children and elders, sexual violence, 
stalking, sex trafficking, obstruction of justice, and assaults against 
law enforcement and corrections personnel. VAWA reauthorization 
legislation must also include provisions aimed at improving the 
response to cases of missing and murdered AI/AN women; create a pilot 
project for Alaska Tribal Nations to exercise criminal jurisdiction; 
and clarify that Tribal Nations in Maine are able to implement the VAWA 
2013 jurisdiction provisions. NCAI through resolution ECWS-19-005 
strongly supports these provisions, \107\ which passed the House with 
bipartisan support in the 116th Congress.
    In addition to addressing the jurisdictional gaps left open by VAWA 
2013, we urge the Committee to prioritize reauthorization of the Tribal 
Law & Order Act (TLOA), which expired in 2015. TLOA is a comprehensive 
law designed to improve numerous facets of the public safety system in 
Indian Country. Tribal Nations have identified a number of areas where 
the law needs to be strengthened, and past reauthorization legislation 
has enjoyed bi-partisan support from this Committee.
A. Emergency Response
    Since the COVID-19 pandemic began, only 15 percent of Tribal 
Nations (91 Tribal Nations) have been able to access the billions of 
COVID-19 disaster funds through the Federal Emergency Management Agency 
(FEMA). \108\
    On July 1, 2020 this Committee hosted an oversight hearing with the 
FEMA Region IX Administrator to address these issues, yet the 
roadblocks continue to persist. \109\ In 2020, NCAI passed resolution 
PDX-20-066 calling on Congress to hold oversight hearings on FEMA's 
response to Tribal Nations during the COVID-19 pandemic and ensure that 
Tribal Nation perspectives are included in all FEMA COVID-19 after 
action reports. \110\ NCAI now also calls on SCIA to hold oversight 
hearings to highlight and identify the roadblocks that Tribal Nations 
face when trying to access lifesaving resources through FEMA. We then 
ask this Committee to advance legislation that removes those roadblocks 
and ensures that disaster resources actually reach tribal citizens in 
Indian Country.
IX. Strengthen Services for Indian Children by Reauthorizing the Indian 
        Child and Family Violence Protection Act
    The Indian Child Protection and Family Violence Prevention Act 
(P.L. 101-630) (ICPFVPA) was enacted to fill funding gaps in tribal 
child welfare services--specifically child abuse prevention, child 
protection, and child abuse treatment--and to ensure better 
coordination between child welfare and domestic violence programs. 
Child abuse prevention funding is vital to the wellbeing and stability 
of AI/AN communities. Beyond the emotional trauma that maltreatment 
inflicts, victims of child abuse are more likely to require special 
education services, enter the juvenile and criminal justice systems, 
have long-term mental health needs, and have lower earning potential 
than their peers. \111\ Financially, child maltreatment costs tribal 
communities and the United States $210,012 per victim. \112\
    Tribal Nations, like states, need adequate resources to effectively 
prevent and respond to child abuse and neglect in their communities. 
However, unlike states, Tribal Nations do not have meaningful access to 
Health and Human Services Child Abuse Prevention and Treatment Act 
Program (CAPTA) grant programs. The programs authorized under ICPFVPA 
were created to fill this gap, however without reauthorization and 
appropriations, Tribal Nations are left without funding for child 
protection and child abuse prevention services. In the 116th Congress, 
Representatives Reuben Gallego and Paul Cook introduced the Native 
American Child Protection Act (H.R. 4957) to reauthorize and fully fund 
the ICPFVPA. The bill passed the House with bipartisan support. NCAI 
supports re-introduction of this legislation and requests that SCIA 
members support the swift passage of this legislation to strengthen 
lifesaving services for Indian children.
X. Conclusion
    NCAI appreciates the opportunity to present Indian Country's 
priorities for the 117th Congress to the Committee. We look forward to 
working with the Indian Affairs Committee and its members during this 
Congress to advance the interests of Tribal Nations in accordance with 
the federal trust responsibility.

    ENDNOTES

    1 U.S. Commission on Civil Rights, Broken Promises: Continued 
Federal Funding Shortfall for Native Americans (Broken Promises 
Report), usccr.gov/pubs/2018/12-20-Broken-Promises.pdf.
    2 Coronavirus Resource Center, COVID-19 United States Cases by 
County, Johns Hopkins University of Medicine, coronavirus.jhu.edu/us-
map.
    3 NCAI, Executive Council Winter Session (ECWS) Legislative One-
Pager, Upholding the Treaty and Trust Obligations Through Improved 
Federal Budgets for Indian Country, ncai.org/conferences-events/ncai-
events/FINAL 2021 ECWS Days One Pager-Budget.pdf ;NCAI ECWS Legislative 
One-Pager, Climate Change and Energy, ncai.org/conferences-events/ncai-
events/FINAL 2021 ECWS Days One Pager-Climate Energy--.pdf; NCAI ECWS 
Legislative One-Pager, Addressing the COVID-19 Pandemic In Indian 
Country ncai.org/FINAL 2021 ECWS Days One Pager-DHS.pdf; NCAI ECWS 
Legislative One-Pager, Investing in Tribal Infrastructure, ncai.org/
conferences-events/ncai-events/FINAL 2021 ECWS Days One Pager-
Infrastructure.pdf6; NCAI ECWS Legislative One-Pager, Addressing 
Violence Against Women, ncai.org/FINAL 2021 ECWS Days One Pager-Public 
Safety and Justice.pdf; NCAI ECWS Legislative One-Pager, Providing 
Tribal Nations Tax Parity and Access to Capital, 6ncai.org/conferences-
events/ncai-events/FINAL 2021 ECWS Days One Pager-Taxpdf; NCAI ECWS 
Legislative One-Pager, Tribal Cultural Rights and Homelands Protection, 
ncai.org/FINAL 32021 ECWS Days One Pager-Tribal Cultural.pdf
    4 NCAI,. Fiscal Year 2022 Indian Country Budget Request: Restoring 
Promises. Washington, DC. ncai.org/resources/ncai-publications/NCAI 
IndianCountry FY2022 BudgetRequest.pdf
    5 Coronavirus Cases by IHS Area, Indian Health Services, ihs.gov/
coronavirus/
    6 Deaths involving coronavirus disease 2019 (COVID-19) by race and 
Hispanic origin group and age, by state, February 17, 2021, National 
Center for Health Statistics, data.cdc.gov/NCHS/Deaths-involving-
coronavirus-disease-2019-COVID-19/ks3g-spdg
    7 Weekly Updates by Select Demographic and Geographic 
Characteristics, Provisional Death Counts for Coronavirus Diseases, 
Centers for Disease Control and Prevention, cdc.gov/nchs/nvss/vsrr/
covid weekly/#Race Hispanic (in New Mexico, AI/ANs makeup approximately 
11 percent of the weighted population, yet represented at least 43.7 
percent of the state's deaths caused by COVID-19. In Arizona, the 
weighted distribution of the AI/AN population is 2 percent; however, 
the distribution of COVID-19 deaths has been at least 21.6 percent).
    8 Letter from NCAI, et al. to Charles Schumer, Senator, et al. 
COVID-19 Recovery Legislative Proposal, (Feb. 2, 2021), ncai.org/Covid-
19/resources-for-indian-country/COVID Letter 2.1.2021-
FINALTransmitted.pdf.
    9 House Committee on Natural Resources, Democratic staff, Water 
Delayed is Water Denied: How Congress Has Blocked Access to Water for 
Native Families, (2016), at 2, http://
democratsnaturalresources.house.gov/imo/media/doc/
House%20Water%20Report FINAL.pdf.
    10 Government Accountability Office (GAO), Drinking Water and 
Wastewater Infrastructure: Opportunities Exist to Enhance Federal 
Agency Needs Assessment and Coordination on Tribal Projects, (2018), at 
2, gao.gov/assets/700/691757.pdf
    11 Native American Rights Fund, The Importance of Indian Water 
Rights Settlement Funding, at 2 (2014), eenews.net/assets/2015/05/18/
document daily 02.pdf
    12 Ibid.
    13 NCAI, Natural Resource Conservation Policy: Incorporating Tribal 
Perspectives, 11 (2011), nrcs.usda.gov/Internet/FSE DOCUMENTS/
stelprdb1045669.pdf
    14 Ibid.
    15 NCAI Resolution DEN-07-069, Use of the Reclamation Fund for 
Indian Water Rights Settlements, ncai.org/attachments/Resolution 
ameOMwycvcgUJDjPPXzJXwbYeCnHPqOdcsJPzraFmUxNGiHQRbO--DEN-07-069.pdf
    16 Federal Communications Commission, Report on Broadband 
Deployment in Indian Country, Pursuant to the Repack Airwaves Yielding 
Better Access for Users of Modern Services Act of 2018, at 5, (2019), 
aipi.clas.asu.edu/sites/default/files/05011019fccreport on broadband 
deployment in indian country pursuant to the repack airwaves yielding 
better access for users of modern services act of 2018.pdf
    17 Id., at 5.
    18 National Telecommunications and Information Administration, 
Broadband USA, Broadband Funding Guide: Department of Interior, 2 
broadbandusa.ntia.doc.gov/sites/default/files/doi bbusa federalfunding 
fy20 0.pdf
    19 Id., at 1.
    20 Department of Interior, Indian Affairs, National Tribal 
Broadband Strategy, at 6, (2021), bia.gov/sites/bia.gov/files/assets/
as-ia/doc/
2020.%20December.%20National%20Tribal%20Broadband%20Strategy%20FINAL-
cover%20change.pdf
    21 Id. at 7.
    22 Id. at 13.
    23 Ibid.
    24 See, NCAI, U.S. House Committee on Energy and Commerce Hearing 
on Addressing the Urgent Needs of Our Tribal Communities Written 
Testimony of President Fawn Sharp National Congress of American 
Indians, 6-8, July 8, 2020, energycommerce.house.gov/sites/
democrats.energycommerce.house.gov/files/documents/Testimony-Sharp-
Tribal%20Communities%20Hearing 070820.pdf
    25 Department of Interior, Indian Affairs, National Tribal 
Broadband Strategy, (2021), bia.gov/sites/bia.gov/files/assets/as-ia/
doc/
2020.%20December.%20National%20Tribal%20Broadband%20Strategy%20FINAL-
cover%20change.pdf
    26 U.S. Department of Housing and Urban Development, Fiscal Year 
2017 Congressional Justifications, 11-12, (2016), hud.gov/sites/
documents/FY 2017 CJS COMBINED.PDF.
    27 Broken Promises Report, at 137, (2018), usccr.gov/pubs/2018/12-
20-Broken-Promises.pdf.
    28 U.S. Department of Housing and Urban Development, Housing Needs 
of American Indians and Alaska Natives in Tribal Areas: A Report From 
the Assessment of American Indian, Alaska Native, and Native Hawaiian 
Housing Needs, (2017), huduser.gov/portal/sites/default/files/pdf/
HNAIHousingNeeds.pdf
    29 Department of Housing and Urban Development (HUD), Fiscal Year 
2017 Congressional Justifications, 11-4, hud.gov/sites/documents/FY 
2017 CJS COMBINED.PDF
    30 Broken Promises Report, at138, (2018), usccr.gov/pubs/2018/12-
20-Broken-Promises.pdf.
    31 Ibid.
    32 U.S. Department of Housing and Urban Development, Fiscal Year 
2017 Congressional Justifications, 11-12, (2016), hud.gov/sites/
documents/FY 2017 CJS COMBINED.PDF.
    33 NCAI Resolution PDX-20-055, NAHASDA Reauthorization, 2020, 
ncai.org/attachments/Resolution 
zLcDLBJjazSdLkmeWKIMhDmfuqZKQgveoNYpUaKaMUwGZFkNYzw PDX-20-
055%20SIGNED.pdf
    34 Federal Register, Department of the Interior, Bureau of Indian 
Affairs, 25 CFR Part 256, Housing Improvement Program, final rule, Vol. 
80, No. 217, 69590, 2015, govinfo.gov/content/pkg/FR-2015-11-10/pdf/
2015-28547.pdf.
    35 Department of Health and Human Services, Indian Health Service 
Fiscal Year 2019 Congressional Justifications, (2019), ihs.gov/sites/
budgetformulation/themes/responsive2017/display objects/documents/
FY2019CongressionalJustification.pdf
    36 National American Indian Housing Association, Recommended Fiscal 
Year 2019 Funding Levels for Tribal Housing Programs, (2019), at 2, 
http://naihc.net/wp-content/uploads/2018/03/NAIHC-Budget-
Recommendations-FY2019-FINAL-2.pdf
    37 NCAI, Analysis of FY 2020 President's Budget, (2019), at 13, 
ncai.org/FY2020 Presidents Budget Analysis.pdf
    38 NCAI Resolution ECWS-14-001, Support for Indian Veterans Housing 
Rental Assistance Demonstration Program in the Native American Housing 
and Self-Determination Act Reauthorization ncai.org/attachments/
Resolution rGJmzKMOpmPXCODBFDEimNAVXIDwbXbVyXGHmPeVbMNxlCXSRjF--ECWS-
14-001%20resolution.pdf
    39 U.S. Department of the Interior, Statement of Michael Black, 
Director, Bureau of Indian Affairs, before the Senate Committee on 
Indian Affairs, Oversight Hearing on Tribal Transportation: Pathways to 
Safer Roads in Indian Country, at 2, (2015), bia.gov/sites/bia.gov/
files/assets/as-ia/ocla/MBlackStatementSCIA-TribalTransportationSCIA-4-
22-15%28FINAL%29.pdf
    40 U.S. Department of the Interior, Tribal Interior Budget Council, 
Transportation Subcommittee Report Out, http://ncai.org/TIBC-RM-
Subcomittee-Nov9-2017-Final.pptx.
    41 Ibid.
    42 NCAI Resolution PDX-20-027, Support Funding Increases to and the 
Expansion of Federal Transportation Infrastructure, Tribal Transit, and 
Highway Safety Programs Important to Tribal Nations, ncai.org/
attachments/Resolution 
prDUgaLNPKRTNERWxszSdDMdSlugRdzKsBSzcoWTwZsAyozKMJt PDX-20-
027%20SIGNED.pdf
    43 U.S. Department of the Treasury, Coronavirus Relief Fund 
Allocations to Tribal Governments (May 5, 2020), home.treasury.gov/
system/files/136/Coronavirus-Relief-Fund-Tribal-Allocation-
Methodology.pdf.
    44 Broken Promises Report, at 208, usccr.gov/pubs/2018/12-20-
Broken-Promises.pdf.
    45 ihs.gov/newsroom/factsheets/healthfacilitiesconstruction/
    46 Centers for Medicare and Medicaid Services. National Health 
Expenditure data. Accessed on September 21, 2015, at cms.gov/Research-
Statistics-Data-and-Systems/Statistics-Trends-and-Reports/
NationalHealthExpendData/NHE-Fact-Sheet.html
    47 IHS. The 2016 Indian Health Service and Tribal Health Care 
Facilities' Needs Assessment Report to Congress. 2016, at 4 ihs.gov/
newsroom/includes/themes/newihstheme/display objects/documents/RepCong 
2016/IHSRTC on FacilitiesNeedsAssessmentReport.pdf
    48 Broken Promise Report, usccr.gov/pubs/2018/12-20-Broken-
Promises.pdf
    49 NCAI Resolution PDX-20-017, Calling for Increased Funding for 
Health Care and Sanitation Infrastructure for American Indian/Alaska 
Native Tribal Nations,ncai.org/attachments/Resolution 
ziEgUwOewCQXGqVxbdHNGGfKVQSOJsbMFnpLzfHaEWWmZxtgOkM--PDX-20-
017%20SIGNED.pdf
    50 NCAI Resolution SAC-12-054, Increase Funding for Prevention of 
Methamphetamine and Suicide in Indian Country,ncai.org/attachments/
Resolution YzBtYXKlYEEkfscSvEfPEqDDbYykwDcjLwXsbhakwzROfRZEHxt SAC-12-
054.pdf
    51 85 Fed. Reg. 21864 (April 20, 2020), govinfo.gov/content/pkg/FR-
2020-04-20/pdf/2020-08247.pdf.
    52 See CMS ``MLN Matters'' SE 20016, updated April 30, 
2020,cms.gov/files/document/se20016.pdf.
    53Tribal Technical Advisory Group to the Centers for Medicare & 
Medicaid Services, Letter to the Honorable Seema Verma, Administrator, 
June 1, 2020, RE: Policy and Regulatory Revisions in Response to the 
COVID-19 Public Health Emergency (CMS-1744-IFC)--Tribal Recommendations 
and Requests.
    54 Bureau of Indian Education, FY 2021 Congressional Budget 
Justification, bia.gov/sites/bia.gov/files/assets/as-ia/obpm/
2021%20BIE%20Greenbook.pdf
    55 U.S. Department of the Interior, Office of Inspector General, 
Condition of Indian School Facilities, C-EV-BIE-0023-2014, 2016, 
doioig.gov/sites/doioig.gov/files/FinalEval BIESchoolFacilitiesB 
093016.pdf
    56 Statement of Jason Freihage, Deputy Assistant Secretary For 
Management Office Of The Assistant Secretary For Indian Affairs 
Department of The Interior Before The Subcommittee on Interior, 
Environment, and Related Agencies, House Committee on Appropriations on 
Education Facilities And Construction (July 24, 2019), congress.gov/
116/meeting/house/109835/witnesses/HHRG-116-AP06-Wstate-FreihageJ-
20190724.pdf.
    57 Moseley, Christopher (ed.). 2010. Atlas of the World's Languages 
in Danger, 3rd ed.. Paris, UNESCO Publishing, http://unesco.org/
languages-atlas/
    58 Broken Promises Report,usccr.gov/pubs/2018/12-20-Broken-
Promises.pdf.
    59 Indian Self-Determination and Education Assistance Act of 1975, 
25 U.S.C.  5301 et seq. (1975) (emphasis added)
    60 Merrion v. Jicarilla Apache Tribe, 455 U.S. 130, 137 (1982).
    61 NCAI Resolution SAC-12-042, Supporting Solutions, Including 
Federal Legislation if Necessary, that Will Reverse or Mitigate the 
Effects of the 1989 Decision of the U.S. Supreme Court in the Case of 
Cotton Petroleum v. New Mexico, ncai.org/attachments/Resolution 
eSZGOknIxfLFmwOulmyCZfYhlDDfJaXmDIpmHrPLCrZkFiyFFTO SAC-12-042.pdf; 
NCAI Resolution SD-15-045, Urging the Department of Interior to Address 
the Harms of State Taxation in Indian Country and Prevent Dual Taxation 
of Indian Communities, ncai.org/attachments/Resolution 
pmLuqCrTfDSNTWYJfSoWcGNXLesAZIFoJShRbLnbTsnktQZzdmj--SD-15-045.pdf;
    NCAI Resolution DEN-18-018, Urging the Department of the Interior 
to Restart its Process of Updating the ``Licensed Indian Trader'' 
Regulations, ncai.org/attachments/Resolution 
pkSZaduxisqpuxoAYmfZOTYOxIoleoUzWbQFdtmTiqPzlMLEhHy--DEN-18-
018%20Final.pdf;
    and NCAI ResolutionABQ-19-015, Urging the Secretary of the Treasury 
to Assist in Ending Dual Taxation of Economic Activity in Indian 
Country, ncai.org/attachments/Resolution 
LkQTZurnehEkDFmoZXhntmxoKQKEROQUbLLtflbXCHaDieVMCQd ABQ-19-015.pdf.
    62 See e.g., Arizona Republic, Tribes' human remains and cultural 
items have been scattered across the U.S. Here's how they get returned, 
azcentral.com/story/news/local/arizona/2020/06/25/how-nagpra-law-helps-
return-native-americanremains-tribes/3211191001/.
    63 See e.g., Senate Committee on Indian Affairs, Field Hearing, 
``The Theft, Illegal Possession, Sale, Transfer, and Export of Tribal 
Cultural Items,'' (S. Hrg. 114-535) (Oct. 18, 2016); GAO Report, 
``Native American Cultural Property: Additional Agency Actions Needed 
to Assist Tribes with Repatriating Items from Overseas Auctions,'' 
(GAO-18-537) (2018).
    64 National Native American Graves Protection and Repatriation Act 
Program Inventory, grantsdev.cr.nps.gov/NagpraPublic/Home/Inventory 
(last visited, Feb. 18, 2021); see e.g., GAO Report, ``Native American 
Graves Protection and Repatriation Act: After Almost Twenty Years, Key 
Federal Agencies Have Still Not Complied with the Act,'' (GAO 10-768) 
(2010)
    65 NCAI Resolution REN-19-003, Supporting Legislation to Facilitate 
International Repatriation of Tribal Nations' Tangible Cultural 
Heritage and Coordination among Federal Agencies, 
XbNGoCknSZuPPVEfngajJaERjsfwmjyGnxVyKIRWwaeDzMXPMXNP REN-19-
003%20FINAL.pdf.
    66 NCAI Resolution PDX-20-070, NCAI Initiative on Sacred Places and 
Cultural Rights Laws and Developing Legislation,ncai.org/attachments/
Resolution hlWapXboBodcDdyihesIEdrdoASofspeNKZLSrHIqPUiqkgWgYF--PDX--
0920-070%20SIGNED.pdf.
    67 NCAI Resolution TUL-05-029, Supporting Amending NAGPRA 
Definition of ``Native American;'' ncai.org/attachments/Resolution 
ktlzvLFbGsHkHWrkqFagelqjLPcXMUXrBvvXrAjBTBkDFeKYXvk TUL-05-029.pdf; 
Supra, note 5.
    68 Ultimately, Techaminsh Oytpamanatityt was repatriated to 
claimant Tribal Nations, see e.g., NPR, ``A Long, Complicated Battle 
Over 9,000-Year-Old Bones Is Finally Over,'' (2016), npr.org/sections/
codeswitch/2016/05/05/476631934/a-long-complicated-battle-over-9-000-
year-old-bones-is-finally-over.
    69 See e.g., U.S. Senate, Committee on Indian Affairs, Report to 
the Senate on Providing for the Protection of Native American Graves 
and the Repatriation of Native American Remains and Cultural Patrimony, 
(101 S. Rpt. 473); Jack F. Trope & Walter R. Echo-Hawk, The Native 
American Graves Protection and Repatriation Act: Background and 
Legislative History, 24 ARIZ. ST. L.J. 35, (1992); C. Timothy McKeown & 
Sherry Hutt, In the Smaller Scope of Conscience: The Native American 
Graves Protection & Repatriation Act Twelve Years After, 21 UCLA J. 
ENVTL. L. & POL'Y 153, (2002).
    70 NCAI Resolution REN-19-003, Supporting Legislation to Facilitate 
International Repatriation of Tribal Nations' Tangible Cultural 
Heritage and Coordination among Federal Agencies, ncai.org/attachments/
Resolution bNGoCknSZuPPVEfngajJaERjsfwmjyGnxVyKIRWwaeDzMXPMXNP REN-19-
003%20FINAL.pdf;
    71 Claudio Saunt, West of the Revolution (2014); see also, 
accompanying interactive map at, http://usg.maps.arcgis.com/apps/
webappviewer/index.html?id=eb6ca76e008543a89349ff2517db47e6 (last 
visited, Feb. 18, 2021).
    72 General Allotment Act of Feb. 8, 1887, 25 U.S.C.  331 (repealed 
1934); Dawes Act Amendment of 1906, 25 U.S.C.  349 (repealed 1934); 
see generally, Cohen's Handbook of Federal Indian Law   1.04, 1.05 
(Nell Jessup Newton et. al. eds., 2012). See also, Brendale v. 
Confederated Tribes & Bands of Yakima Indian Nation, 492 U.S. 408, 436 
n.1 (1989); Atkinson Trading Co. v. Shirley, 532 U.S. 645, 650 n.1 
(2001); County of Yakima v. Confederated Tribes & Bands of Yakima 
Indian Nation, 502 U.S. 251, 253-257 (1992).
    73 U.S. Const., Art. I,  8, cl. 3, (``Commerce Clause'') and Art. 
II,  2, cl. 2 (``Treaty Clause'').
    74 See e.g., National Historic Preservation Act (NHPA), Pub. L. No. 
89-665, as amended by Pub. L. No. 96-515; Native American Graves 
Protection and Repatriation Act (NAGPRA), 25 U.S.C.   3001 et seq. 75 
Johnson v. McIntosh, 21 U.S. (8 Wheat.) 543 (1823); Cherokee Nation v. 
Georgia, 20 U.S. 1 (1831); Worcester v. Georgia, 31 U.S. 515 (1832); 
United States v. Winans, 198 U.S. 371 (1905).
    76 See e.g., Presidential Memorandum of January 26, 2021, 
``Memorandum on Tribal Consultation and Strengthening Nation-to-Nation 
Relationships''.
    77 Cherokee Nation v. Georgia, 20 U.S. 1 (1831). See also, Indian 
Tribal Justice Support Act of 1993, 25 U.S.C.   3601-31 (stating, 
``The United States has a trust responsibility to each tribal 
government that includes the protection of the sovereignty of each 
tribal government''); United States v. Mitchell, 463 U.S. 206, 225 
(1983), (reiterating, ``the undisputed existence of a general trust 
relationship between the United States and the Indian People''); United 
States v. Navajo Nation, 537 U.S. 488 (2003).
    78 General Allotment Act of Feb. 8, 1887, 25 U.S.C.  331 (repealed 
1934); Dawes Act Amendment of 1906, 25 U.S.C.  349 (repealed 1934).
    79 Indian Country Today, ``Tester Re-Introduces a `Clean Carcieri 
Fix,' indiancountrytoday.com/archive/tester-re-introduces-clean-
carcieri-fix-4hr-jxvB-E6Z8EU3sZkZOw.
    80 NCAI Resolution RAP-10-024, To Support Legislation to Address 
the Supreme Court Decision in Carcieri v. Salazar, ncai.org/
attachments/Resolution 
oiGOSYZkdNCzZHOUkmLuFtLzAGVAKgIErwWMyEKWqiSixNMKwJq RAP-10-024.pdf.
    81 NCAI Resolution PDX-20-003, Calling for the Advancement of 
Meaningful Tribal Co-Management of Federal Lands, ncai.org/attachments/
Resolution FamhBAHVFLnQfgvKBsgXjzIrdYAbDzKIaVtsEdSjWIbSZtJDkFR PDX-20-
003%20SIGNED.pdf.
    82 Id. Note 20; NCAI Resolution BIS-02-043, Sacred Lands; National 
Congress of American Indians Resolution, #PHX-08-069C: NCAI Policy 
Statement on Sacred Places; The National Congress of American Indians, 
ncai.org/attachments/Resolution 
MEiHQoBUWknVjsqcJUWQNFxIyAjPXEntkmaXbcWTxiBwyqmMuIN PHX-08-
069cFINAL.pdf; NCAI Resolution ATL-14-032, Calling for Protection of 
Native Peoples' Sacred Places, Sacred Objects and Ancestors under 
United States, Native Nations and International Law, Policy and 
Practice; ncai.org/attachments/Resolution 
IdzEZaLwaLwIqbTUdSdFHioFkTzlokgGkHyUnvNYcTCOVVFlUEU ATL-14-032.pdf; 
NCAI Resolution ABQ-10-065, Calling for Legislation to Provide a Right 
of Action to Protect Native Peoples' Sacred Places, ncai.org/
attachments/Resolution 
VApsecvWsjrwXrclzXvxzxELsRVlaptSOXGIXgvxqshvXahisOB ABQ-10-065 rev.pdf; 
NCAI Resolution DEN-18-035, Supporting Legislation to Improve 
Protections and Authorize the Restoration of Native Sacred Places on 
Federal Lands, ncai.org/attachments/Resolution 
PYCnwKpRbfWPiYzlKHPLmgHJMNoHiIZVffWZqBIifEouNkSdFeS DEN-18-
035%20Final.pdf.
    83 NCAI Resolution PDX-20-003, Calling for the Advancement of 
Meaningful Tribal Co-Management of Federal Lands, ncai.org/attachments/
Resolution FamhBAHVFLnQfgvKBsgXjzIrdYAbDzKIaVtsEdSjWIbSZtJDkFR PDX-20-
003%20SIGNED.pdf; see also, NCAI Resolution REN-13-035, Request for 
Federal Government to Develop Guidance on Recognizing Tribal Sovereign 
Jurisdiction over Traditional Knowledge, ncai.org/attachments/
Resolution opZRyVFLdvvUFJrFgQGBcyGXoYlMduwfYOSaRAnursVMQYYNsCN REN-13-
035%20final.pdf.
    84 Broken Promises Report, at 193 (2018).
    85 Fourth National Climate Assessment, Vol. II: Impacts, Risks, and 
Adaptation in the United States, Chapter 15 (2018).
    86 Broken Promises Report, 193-194 (2018); Fourth National Climate 
Assessment, Vol. II: Impacts, Risks, and Adaptation in the United 
States, Chapter 15 (2018).
    87 Fourth National Climate Assessment, Vol. II: Impacts, Risks, and 
Adaptation in the United States, Chapter 15 (2018).
    88 NCAI, Climate Action Resource Center, ncai.org/ptg/climate, 
(last visited, Feb. 19, 2021).
    89 NCAI Resolution PHX-16-058, United States Federal Agency 
Consultation, Consent, Funding, and Actions to Address Climate Change 
Impacts to Tribal Treaty and Trust Resources, ncai.org/attachments/
Resolution RQiEDgHAWYpzQLoUKEdwjuxDCxyGCwKeLQhGWLAKzxTUAAUehsK PHX-16-
058%20final.pdf.
    90 NCAI Indians Resolution SD-15-024, Support for the Tribal 
Climate Change Principles: Responding to Federal Policies and Actions 
to Address Climate Change document and its Swift Implementation by the 
Federal Government, ncai.org/attachments/Resolution 
NZdlSoySpGDwyQAPQHLWnPZLOBFtqiQXqWoQXOVmdKCaPLkzSqm SD-15-024.pdf.
    91 See e.g., NCAI Resolution ABQ-19-036, Calling on Congress to 
Support and Pass Recovering America's Wildlife Act, or Similar 
Legislation with a Tribal Wildlife Conservation and Restoration 
Account, ncai.org/attachments/Resolution 
wdmLQlFJtJWBerRSGeAYFkjXqdVikLhFyqxMmWUrHzSQVdFGGjo ABQ-19-036.pdf.
    92 NCAI Resolution PDX-11-036, Traditional Ecological Knowledge and 
Climate Change, ncai.org/attachments/Resolution 
MZlrscMWUDNfPdJGEJQVODCZZtiNPdZRrWVaNmDdEYTmqgYqTat PDX-11-036 
final.pdf.
    93 Supra. Note 30. See also, NCAI Resolution ATL-14-050, Support 
the Wildfire Disaster Funding Legislation, ncai.org/attachments/
Resolution QpVTbEqVjmjgrNAPeUJdzfXCaXahfjUDwgklXihJcGGiWidclwo ATL-14-
050.pdf.
    94 Bureau of Indian Affairs, Trust Services, Tribal Climate 
Resilience Program, Solicitation, (2020),bia.gov/sites/bia.gov/files/
assets/bia/ots/tcrp/FY21NOFO%20for%20TCRP.pdf.
    95 See e.g., Property and Environment Research Center, PERC Policy 
Perspective: Unlocking the Wealth of Indian Nations: Overcoming 
Obstacles to Tribal Energy Development, (2014),perc.org/wpcontent/
uploads/old/pdfs/IndianPolicySeries%20HIGH.pdf.
    96 National Renewable Energy Laboratory, Techno-Economic Renewable 
Energy Potential on Tribal Lands, (2018), nrel.gov/docs/fy18osti/
70807.pdf.
    97 Department of Energy Department of Energy FY 2017 Congressional 
Budget Request--Volume 3. (Feb. 2016), p. 755. energy.gov/sites/prod/
files/2016/02/f30/FY2017BudgetVolume3.pdf.
    98 Broken Promises Report, at 182, (2018).
    99 NCAI Resolution FTL-04-110, Support for Legislation to Enhance 
the Development of Indian Tribes' Energy Resources, ncai.org/
attachments/Resolution 
QJdbbwFnrWmGVaJqGSHocjqqFSERrkvVBOJzsMmkGfVBtLNwMrp ftl04-110.pdf.
    100 Id.
    101 NCAI Resolution TUL-13-043, Support for Removal by Congress and 
the President of Barriers to Full Control by Tribal Nations of the 
Development of Their Renewable and Non-renewable Energy Resources, 
ncai.org/attachments/Resolution 
ttpWzJwjtHdUfEAcemlckTRjoAGzZhJvZoAOdLMxjazDEdHsjYQ TUL-13-
043%20Final.pdf.
    102 NCAI Resolution RAP-10-050, In Support of the Indian Energy 
Promotion and Parity Act of 2010, ncai.org/attachments/Resolution 
qIVBoCiVrzsphSvbVtxDGRAkClWuwPTgnRpGrZyiFMpCrCwqBga RAP-10-050.pdf.
    103 NCAI Resolution SD-15-038, Indian Country's Priorities for 
Federal Energy Legislation, ncai.org/attachments/Resolution 
qMHMstHTzqxRxkfyszNHlJtQWsJwCTsRfxceShlONcPiSBAVith SD-15-038.pdf; see 
also, NCAI Resolution, REN-19-001, Opposing Mining on Public Lands and 
Around the Grand Canyon without Tribal Nations' Free Prior and Informed 
Consent, ncai.org/attachments/Resolution 
fEBoYKOrTODFcWRgdViPRcbNmdjBuOuhGLIbNztNyaAqDLlALfA REN-19-
001%20FINAL.pdf; NCAI Resolution REN-19-024, Staying Mineral Leasing 
and Paleontological Use Permitting in Areas of Tribal Interest, such as 
the Buffalo Strip and Ball Ranch Area of Critical Environmental 
Concern, Where Tribal Nations Do Not Consent, ncai.org/attachments/
Resolution AgWCYVGVVOfVmUHPUmQqpmRGwechoEDblkAfndgPpHJPvAwfICv REN-19-
024%20FINAL.pdf
    104 U.S. Department of Justice, Violence Against American Indian 
and Alaska Native Women and Men: 2010 Findings from the National 
Intimate Partner and Sexual Violence Survey, 2, (2016), ncjrs.gov/
pdffiles1/nij/249736.pdf.
    105 Id.
    106 Id.
    107 NCAI Resolution ECWS-19-005, Urging Congress to Pass a Long-
term Reauthorization of the Violence Against Women Act that Includes 
Key Protections for Native Women, ncai.org/attachments/Resolution 
DKtUnmfhXSxCkRmoIHulitfxDPHWNFNWOvRcwcsoXQKMhhVnsBZ ECWS-19-005.pdf.
    108 Federal Emergency Management Agency, By the Number: Coronavirus 
Pandemic Whole-of-America Response, pg. 2, February 16, 2021.
    109 Senate Committee on Indian Affairs, Oversight Hearing on 
``Evaluating the Response and Mitigation to the COVID-19 Pandemic in 
Native Communities'' and Legislative Hearing to Receive Testimony on 
S.3650, indian.senate.gov/hearing/oversight-hearing-evaluating-
response-and-mitigation-covid-19-pandemic-native-communities, July 1, 
2020.
    110 NCAI Resolution PDX-20-006, Holding the Department of Homeland 
Security Accountable to Tribal Nations, ncai.org/attachments/Resolution 
wgnCWyNGKOayyakuupKOvWukzknuIjvkrrkmHKMMnSHEUaHRtLR PDX-20-
066%20SIGNED.pdf.
    111 Fang, X., Brown, D. S., Florence, C. S., & Mercy, J. A., The 
Economic Burden of Child Maltreatment in the United States and 
Implications for Prevention, Child Abuse & Neglect, 36, 156-65, (2012).
    112 Ibid.

    The Chairman. Thank you very much.
    Next, we have Mr. Leonard Forsman.

STATEMENT OF HON. LEONARD FORSMAN, PRESIDENT, AFFILIATED TRIBES 
                      OF NORTHWEST INDIANS

    Mr. Forsman. [Greeting in Native tongue]. Welcome, 
everyone, from Port Madison Indian Reservation here in 
Suquamish, Washington. I am Leonard Forsman, I am Chairman of 
the Suquamish Tribe and also President of the Affiliated Tribes 
of Northwest Indians, which represents many tribes in the 
northwest, Washington, Oregon, Idaho, Alaska, California, 
Montana, and beyond. I would like to thank you for the 
opportunity, Chairman Schatz, and Vice Chair Murkowski, for the 
opportunity to speak here on behalf of ATNI.
    Climate change has had a profound impact on Indian Country, 
in affecting our sovereign rights, access to our usual 
customary fishing, hunting and gathering places here in the 
Pacific Northwest and the Columbia River, on the coast, and 
here in Puget Sound. It is affecting our ability to live our 
traditional way of life and our economic livelihoods.
    Chief Seattle, who is buried here on our reservation, and 
who I descend from, stated in 1854, just before the Treaty of 
Point Elliott was signed, that every part of the soil is sacred 
in the estimation of my people. Every hillside, every valley, 
every plain and grove has been hallowed by some sad or happy 
event in days long vanished. It is in the spirit of his words 
that will continue my testimony.
    Climate change is causing more and extensive and frequent 
flooding, causing tribal elders throughout our area to move 
from homes, especially in Alaska, which you will hear more 
about later, I am sure, that they have occupied since time 
immemorial. It is also causing pollution here in the Puget 
Sound from overflowing sewer plants. More and more extensive 
wildfires are being caused by climate change, impacting our 
children's respiratory health, damaging sensitive ecosystems 
and polluting the water.
    Ocean acidification is threatening our traditional first 
foods, especially clams and crabs, that the Puget Sound and 
coastal tribes depend upon for commercial, spiritual and 
cultural purposes. Our spiritual relatives, the Southern 
Resident Killer Whales of Puget Sound, are endangered by the 
drastic reduction of salmon runs in the northwest, causing them 
to starve. The same could be said for the salmon. Fishermen of 
my tribe and many tribes around me in the Affiliated Tribes of 
Northwest have minimal, if any, opportunity to harvest salmon.
    Climate impacts have also altered fishing conditions and 
impacted streams and rivers where salmon spawn, while the Snake 
River Dam and other obstructions continue to prevent the return 
of salmon runs. Over 500 years, tribes have suffered inequity, 
injustice and disrespect as our traditional ecosystems have 
been ravaged by the impacts of development, which are now being 
amplified by climate change.
    The Federal Government has a trust responsibility based on 
treaties and other agreements to tackle this issue immediately 
and into the future. After all, what good is a treaty right if 
our environment and our ecosystems can no longer sustain fish 
to catch, animals and fish to harvest?
    Tribes are leading efforts to tackle climate change. The 
Swinomish Indian Tribal Community is reviving ancient clam 
gardens to improve nearshore habitat while addressing ocean 
acidification. The Blue Lake Rancheria has constructed a 
microgrid on its 100-acre reservation as part of its plan to 
transition to a zero-carbon community.
    The Navajo Nation is replacing coal with a solar project 
that supplies energy to 36,000 homes on their reservation. 
Tribes in Alaska, Louisiana, and Washington are developing 
plans to relocate to escape rising sea levels.
    The Fourth National Climate Assessment, published in 2018, 
had a chapter on Indian Country. It found that climate change 
threatens tribal communities in unique ways. The report 
concluded that the climate change threat to natural resources 
and the environment would have a profound negative impact on 
our heritage, our practices and our identity as tribes and our 
individual tribal members and families.
    A tribal review of the House's 2020 Congressional Climate 
Action Plan identified the following priorities for Indian 
Country: invest in tribal infrastructure to build a just and 
equitable clean energy economy; restore ecological resilience 
and maintain tribal access to first foods and other cultural 
resources; promote environmental justice and health of tribes 
while upholding tribal sovereignty; and honor the rights of 
tribes in climate governance.
    In conclusion, to fully accomplish our goals to address 
climate change impacts in the tribal communities, we need to 
have Congress ensure that front line tribal communities have 
the resources they need to address the inequitable climate 
change impacts that we are facing. Congress should increase 
funding for BIA's Tribal Resilience Program, so that tribes can 
plan, create, and implement tribal adaptation strategies.
    In addition, more funding should be directed to FEMA, the 
Corps of Engineers, and NOAA with the express purpose of 
helping to relocate tribal infrastructure that is threatened by 
climate change and rising sea levels.
    I would like to say that many of these priorities are being 
developed by NCAI, and I am one of the co-chairs of the Climate 
Change Task Force. I want to thank you for the opportunity to 
testify today. Affiliated Tribes of Northwest Indians stands 
ready to assist the Committee as it works to find solutions to 
address climate change.
    [The prepared statement of Mr. Forsman follows:]

   Prepared Statement of Hon. Leonard Forsman, President, Affiliated 
                      Tribes of Northwest Indians
    Tribal Nations in the U.S. are among the frontline communities 
feeling the full force of the climate crisis. We are already 
experiencing significant climate impacts that affect our rights as 
sovereign Nations, our access to our usual and accustomed places, our 
traditional lifeways, and our livelihoods. Our peoples have lived on 
our traditional lands since time immemorial, but our elders are being 
forced to move from their homes because they are experiencing more 
extensive flooding. More of our children have been inflicted with 
respiratory illness and have difficulty breathing during recent 
wildfire seasons, which are worse than ever before. And our traditional 
first foods, including clams, crabs, and fisheries are threatened by 
our acidifying oceans. The Suquamish Tribe and our ancestors have 
always had a sacred relationship with the Southern resident killer 
whale population in the Puget Sound, but they are starving because of 
the drastic reduction in our salmon runs. These reductions are strongly 
correlated with climate impacts and with the presence of dams on the 
Snake River. The inequities and injustices that the citizens of Tribal 
Nations in the US have experienced in the last 500 years are being 
amplified by the climate and the US government has a Trust 
Responsibility to tackle this issue immediately and moving forward.
    There are Tribes throughout the United States that are at the 
forefront of taking action on climate change. For example,

<bullet>  To adapt to ocean acidification, the Swinomish Indian Tribal 
        Community is reviving ancient clam gardens to improve nearshore 
        habitat and give tribal members more opportunities to harvest 
        traditional foods.

<bullet>  The Blue Lake Rancheria has constructed an electrical 
        microgrid on its 100-acre reservation, which is part of the 
        Tribes' transition to a zero-carbon community.

<bullet>  The Navajo Nation is working to increase renewable energy--
        the Kayenta Solar Plant now supplies energy to 36,000 homes on 
        the Navajo Nation.

<bullet>  Numerous Native communities in Alaska, coastal Louisiana, and 
        Washington State are developing plans for relocating and 
        protecting their existing infrastructure in response to rising 
        seas.

    The 4th National Climate Assessment, published in 2018, includes a 
dedicated chapter on Tribes and Indigenous Peoples. The Key Messages in 
the chapter are:

        1.  Climate change threatens Indigenous peoples' livelihoods 
        and economies.

        2.  The health of Tribal individuals and communities will be 
        uniquely challenged by climate impacts, which threaten the 
        natural resources that we depend upon, our cultural heritages, 
        identities, and physical and mental health.

        3.  Institutional barriers limit our access to traditional 
        territory and resources and also preclude us from engaging in 
        Federal policies and programs and accessing adequate funding.

    In autumn 2020, in a Tribally led review of the US House's 2020 
Congressional Climate Action Plan (CAP). The Tribal Review identifies 
key Tribal priorities that include:

<bullet>  Invest in Tribal infrastructure to build a just, equitable, 
        and resilient clean energy economy;

<bullet>  Support climate-resilient Tribal communities by upholding the 
        Federal Trust Responsibility;

<bullet>  Promote environmental justice and health of Tribes while 
        upholding Tribal sovereignty;

<bullet>  Restore ecological resilience and maintain Tribal access to 
        first foods and other cultural resources;

<bullet>  Honor the rights of Indigenous Peoples in climate governance 
        and climate science by honoring the Rights of Indigenous 
        Peoples.

    In May 2020, upon request from the U.S. House of Representatives 
Subcommittee on the Interior, the BIA Tribal Resilience Program 
assessed the unmet infrastructure needs of Tribal Nations for 
addressing climatic threats. The report identified a significant unmet 
financial need for existing tribal infrastructure threatened by climate 
that includes:

<bullet>  $3.45 billion over the next 50 years for Alaska which equates 
        to $90-$110 million in the first 10 years to address tribal 
        infrastructure threats;

<bullet>  $1.9 billion for Tribes in the Contiguous 48 States. This 
        represents a known underestimate of the total Needs ($462 
        million for Planning and $1.45 billion for implementation 
        projects).

    In conclusion, to fully accomplish our climate-related goals, the 
United States must ensure that frontline communities have the resources 
that they need to address the inequitable climate impacts that we are 
facing. Federal funding from BIA's Tribal Resilience Program is 
critical for Tribes seeking to plan and implement climate adaptation 
strategies. In FY 2022, funding for the BIA Tribal Resilience Program 
should be increased to $50 million. In addition, $150 million should be 
allocated to agencies such as FEMA, the USACE, and NOAA and committed 
to protecting or relocating existing tribal infrastructure (including 
cultural sites) threatened by climate.
    I appreciate the opportunity to provide this testimony and ATNI 
stands prepared to assist the U.S. Senate Indian Affairs Committee in 
future hearings to address climate impacts and solutions on behalf of 
Tribal Nations.

    The Chairman. Thank you very much.
    Next, we have Chair ``Hulu'' Lindsey, Office of Hawaiian 
Affairs.

  STATEMENT OF HON. CARMEN ``HULU'' LINDSEY, CHAIR, BOARD OF 
              TRUSTEES, OFFICE OF HAWAIIAN AFFAIRS

    Ms. Lindsey. Aloha, members of the Senate Committee on 
Indian Affairs. My name is Carmen ``Hulu'' Lindsey, and I am 
the Chairperson of the Board of Trustees of the Office of 
Hawaiian Affairs. Thank you for inviting me to provide 
testimony on behalf of the Native Hawaiian community to the 
Senate Committee on Indian Affairs.
    I want to offer my aloha to Committee chairman and Hawaii's 
Senator, Brian Schatz. Chairman Schatz, you have proven 
yourself a reliable and respected champion for Native 
Hawaiians, for American Indians, and for Alaska Natives. 
Chairman Schatz, I especially want to thank you for the 
critical relief programs like rental assistance, small business 
grants, broadband access, tele-health, and education that you 
created to ease the suffering caused by this pandemic. Those 
programs were desperately needed.
    Vice Chair Murkowski, I send my aloha and congratulations 
to you as well on your return to this important post. Hawaii 
and Alaska have enjoyed a long history of working together, due 
to the cultural ties we have developed over so many years as 
communities living outside the continental United States.
    Mr. Chairman, Madam Vice Chair and members of the 
Committee, I appreciate the bipartisanship way your Committee 
has worked over the years to ensure that the Federal Government 
honors its trust responsibility to all Native Americans: 
American Indians, Alaska Natives, and Native Hawaiians. I have 
submitted my lengthy written remarks, along with a copy of 
OHA's testimony from your December 2020 hearing on self-
determination. Together, these statements address the needs and 
successes of our Native Hawaiian community.
    I am one of nine publicly elected OHA trustees, all of whom 
are Native Hawaiian. OHA is a semi-autonomous agency of the 
State of Hawaii, mandated to better the conditions of Native 
Hawaiians. We advocate on behalf of Native Hawaiians. We advise 
and inform Federal officials about Native Hawaiians. And we 
coordinate Federal activities relating to Native Hawaiians. To 
prepare for today's hearing, we met with Native Hawaiian 
health, housing, and education organizations. In health, Papa 
Ola Lokahi, in housing, the Department of Hawaiian Home Lands, 
and in education, the Native Hawaiian Education Council. Their 
needs and their priorities are reflected in our written 
testimony.
    OHA's policy priority for the Congress is simply this: to 
further the self-determination of Native Hawaiians. We ask this 
Senate Committee to honor the Federal Government's trust 
responsibility to Native Hawaiians. Support Federal programs 
that benefit Native Hawaiians. And ensure parity by the Federal 
Government to all Native Americans, Native Hawaiians included.
    Congress has consistently recognized Native Hawaiians as 
the indigenous once-sovereign people of the State of Hawaii, 
who have never relinquished our right to self-determination. 
Though the Federal trust responsibility may look different from 
tribe to tribe and from community to community, that trust 
responsibility is owed by the Federal Government to all Native 
Americans.
    Unfortunately, for the past two decades, executive orders 
requiring Federal agencies consult with Native Americans have 
left Native Hawaiians out. To address this, OHA urges the 
passage of legislation extending consultation by the Federal 
Government to Native Hawaiians. To meet its trust 
responsibility to Native Hawaiians we urge Congress to 
reauthorize, expand and increase funding for the Native 
Hawaiian Health Care Improvement Act, the Native Hawaiian 
Housing Block Grants, the Native Hawaiian Education Act, and 
the Native American Languages Act.
    Mahalo again for allowing me the opportunity to provide 
remarks.
    [The prepared statement of Ms. Lindsey follows:]

  Prepared Statement of Hon. Carmen ``Hulu'' Lindsey, Chair, Board of 
                  Trustees, Office of Hawaiian Affairs
    Aloha e Chairman Schatz, Vice Chairman Murkowski, and the Members 
of the U.S. Senate Committee on Indian Affairs.
    Mahalo nui loa (Thank you very much) for inviting me to testify on 
behalf of the Office of Hawaiian Affairs (OHA) and our beneficiaries--
the Native Hawaiian community. I extend my aloha and congratulations to 
Chairman Brian Schatz and Vice Chairman Lisa Murkowski on your new 
leadership positions on the U.S. Senate Committee on Indian Affairs. 
This Committee has a long history of bipartisanship and collegiality 
among its Members. That spirit is critical to elevating the voices of 
Native leaders and fulfilling the federal government's trust 
responsibility owed to all Native people of the United States. Your 
work here empowers the Native community to continue exercising true 
self-determination--our right to chart our own course and maintain our 
distinct traditions, cultures, and Native ways.
    Chairman Schatz, OHA recognizes your work on behalf of our families 
in Hawai'i. You have been a champion on stopping the trafficking of 
Hawaiian women and children, including Native perspectives in federal 
climate action, and addressing disparities for Native Hawaiians in 
health, education, broadband access, and food security. We are 
particularly grateful for your recent efforts to ensure that Native 
Hawaiians were eligible for federal Coronavirus Disease (COVID- 19) 
relief, and that you provided us with the information we needed to 
obtain federal resources. We deeply appreciate your strong support to 
fund federal programs providing health care, housing, education, and 
other essential services to Native Hawaiians.
Background on OHA and its standing to represent Native Hawaiians
    Established by our state's Constitution, \1\ OHA is a semi-
autonomous agency of the State of Hawai`i mandated to better the 
conditions of Native Hawaiians. Guided by a board of nine publicly 
elected trustees, all of whom are Native Hawaiian, OHA fulfills its 
mandate through advocacy, research, community engagement, land 
management, and the funding of community programs. Hawai`i state law 
recognizes OHA as the principal public agency in the state responsible 
for the performance, development, and coordination of programs and 
activities relating to Native Hawaiians. \2\ Furthermore, state law 
directs OHA to advocate on behalf of Native Hawaiians; \3\ to advise 
and inform federal officials about Native Hawaiian programs; and to 
coordinate federal activities relating to Native Hawaiians. \4\
---------------------------------------------------------------------------
    \1\ Haw. Const., art. XII,  5 (1978).
    \2\ Haw. Rev. Stat.  10-3(3).
    \3\ Haw. Rev. Stat.  10-3(4).
    \4\ Haw. Rev. Stat.  10-6(a)(4).
---------------------------------------------------------------------------
Priorities for the 117th Congress
    Your inclusion of Native leaders in your first oversight hearing is 
reassuring. Allowing us to share--in our own words--how the Committee 
and the Congress can best meet the federal government's continuing 
trust responsibility to our people is an important part of honoring it.
    In preparation for this hearing, OHA met with other Native Hawaiian 
organizations to ensure that the broad needs of our diverse community 
are represented. These partners include Papa Ola Lokahi (POL), the 
Department of Hawaiian Home Lands (DHHL), and the Native Hawaiian 
Education Council (NHEC). Together, we provide health, housing, 
economic development, and education, among other services to Native 
Hawaiians. The priorities OHA presents today align with one guiding 
principle--furthering self-determination for Native Hawaiians.
    To accomplish this, we ask this Committee to: (1) honor the federal 
government's trust responsibility to the Native Hawaiian people by 
ensuring that Native Hawaiians are included in all federal consultation 
policies; (2) support federal programs for Native Hawaiians, by 
reauthorizing, strengthening, and expanding federal programs focusing 
on the health care, housing, economic development, and education of 
Native Hawaiians; and (3) ensure parity in the treatment for all Native 
Americans, including American Indians, Alaska Natives, and Native 
Hawaiians.
(1) Honor the federal government's trust responsibility owed to Native 
        Hawaiians
    Native Hawaiians are owed the same trust responsibility as any 
other Native American group. To meet this obligation, Congress--
oftentimes through the bipartisan work of this Committee and its 
Members--has created policies to promote education, health, housing, 
and a variety of other federal programs that support Native Hawaiian 
self-determination. Similar to American Indians and Alaska Natives, 
Native Hawaiians have never relinquished our right to self-
determination despite the United States' involvement in the illegal 
overthrow of Queen Lili`uokalani in 1893 and the dismantling of our 
Hawaiian government. In fact, over 150 Acts of Congress consistently 
and expressly acknowledged or recognized a special political and trust 
relationship to Native Hawaiians based on our status as the Indigenous, 
once-sovereign people of Hawai`i. Among these laws are the Hawaiian 
Homes Commission Act, 1920 (42 Stat. 108) (1921), the Native Hawaiian 
Education Act (20 U.S.C.  7511) (1988), the Native Hawaiian Health 
Care Improvement Act (42 U.S.C.  11701) (1988), and the Hawaiian 
Homelands Homeownership Act codified in the Native American Housing 
Assistance and Self Determination Act, Title VIII (25 U.S.C.  4221) 
(2000).
    While the federal trust responsibility has many facets, one of the 
most critical safeguards of effective self-determination is the ability 
to consult with the federal government. Under President Clinton's 
Executive Order 13175, and subsequent memoranda from the Bush, Obama, 
and now Biden Administrations, the U.S. Government recognizes the right 
to sovereignty and selfdetermination of this nation's Native people. 
While this is a step in the right direction, the omission of Native 
Hawaiians from federal consultation requirements has stifled and 
limited Native Hawaiian voices from being able to comment upon and 
inform federal projects and programs for the past two decades. Despite 
our exclusion from these executive orders, Congress's thoughtful 
inclusion of Native Hawaiians in key legislation like the Native 
American Graves Protection and Repatriation Act (NAGPRA) (25 U.S.C.  
3001) and the National Historic Preservation Act (NHPA) (16 U.S.C.  
470 et seq.) have demonstrated that Native Hawaiians can be effectively 
included in consultation now, with representation through Native 
Hawaiian organizations. Indeed, OHA receives and reviews approximately 
240 requests for federal consultations each year, including Section 106 
NHPA and NAGPRA reviews. The federal government takes many more actions 
affecting the Native Hawaiian community than are covered by these two 
statutes without ever giving Native Hawaiians an opportunity to 
consult. This must change.
    Ensuring Native Hawaiians are informed of all proposed federal 
actions and allowed to voice their comments and perspectives on them 
will help to correct this country's historic wrongs against Native 
Hawaiians. Moreover, this will also improve the quality of federal 
undertakings and projects. Federal consultation with entities that 
serve Native Hawaiians such as OHA, DHHL, NHEC, POL, and the Native 
Hawaiian Health Care Systems enables Native Hawaiians to access this 
basic tenet of self-determination--having a meaningful say in our own 
governance. We urge this Committee to pass legislation requiring 
meaningful federal consultation across the entire federal government 
and to extend these rights to all Native Americans, including Native 
Hawaiians.
(2) Support federal programs for Native Hawaiians
    While consultation is critical to self-determination, so is the 
provision of the resources and governmental programs to provide for the 
health, housing, education, and economic well-being of Native 
Hawaiians. Chairman Schatz and the other members of our congressional 
delegation have ensured that Congress continues to fund our essential 
federal programs annually; however, three of these acts must now be 
reauthorized, strengthened, and expanded by the Congress.
    Over the past several decades, the Native Hawaiian Health Care 
Improvement Act (NHHCIA), the Hawaiian Homelands Homeownership Act 
(HHHA), and the Native Hawaiian Education Act (NHEA) have enabled 
Native Hawaiians to receive culturally appropriate services relating to 
health, housing, and education. These Acts have delivered services to 
tens of thousands of Native Hawaiians through diverse programs 
including revitalizing the Native Hawaiian language, building and 
maintaining homes and infrastructure, and providing telehealth services 
during a global pandemic. Further, the Native Hawaiian Revolving Loan 
Fund (NHRLF)--administered by OHA--and the U.S. Treasury's Community 
Development Financial Institutions Fund's (CDFI Fund's) Native American 
CDFI Assistance Program have supported the emergence and growth of 
thousands of Native Hawaiian businesses. We urge this committee to 
reauthorize, strengthen, and expand all these programs to further 
support Native Hawaiian self-determination.
Native Hawaiian Health Care Programs
    Native Hawaiian self-determination in health care means that Native 
Hawaiians have the power to choose the health care services most needed 
in their communities. Similar to our Native relatives on the continent, 
Native Hawaiians face disproportionate threats to our physical and 
mental health, including poverty, \5\ suicide and depression, \6\ 
infant mortality, \7\ alcohol abuse, \8\ homelessness, \9\ and 
prejudice. Native Hawaiian infants are twice as likely to die (infant 
mortality rate of 7.9 per 1,000 live births) than their White peers 
(infant mortality rate of 3.5 per 1,000 live births) in the State of 
Hawai`i. \10\ Native Hawaiians are also more likely to suffer from 
coronary heart disease, diabetes, and asthma than non-Native Hawaiians 
in the State. \11\ Nearly 16,000 Native Hawaiians suffer from diabetes 
and more than 36,000 suffer from asthma. \12\
---------------------------------------------------------------------------
    \5\ Anita Hofschneider, Poverty Persists Among Hawaiians Despite 
Low Unemployment, HONOLULU CIVIL BEAT (Sept. 19, 2018), https://
www.civilbeat.org/2018/09/poverty
-persists-among-hawaiians-despite-low-unemployment/.
    \6\ NATIVE HAWAIIAN MENTAL HEALTH AND SUICIDE, OFFICE OF HAWAIIAN 
AFFAIRS (Feb. 2018), http://www.ohadatabook.com/HTH_Suicide.pdf.
    \7\ Ashley H. Hirai et al., Excess Infant Mortality Among Native 
Hawaiians: Identifying Determinants for Preventive Action, AM. J. OF 
PUB. HEALTH (Nov. 2013),
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC3828695/pdf/
AJPH.2013.301294.pdf.
    \8\ NATIVE HAWAIIAN HEALTH STATUS, OFFICE OF HAWAIIAN AFFAIRS 22 
(July 2019), http://www.ohadatabook.com/NHHS.html.
    \9\ ISSUE BRIEF: COVID-19 AND NATIVE HAWAIIAN COMMUNITIES, NATIVE 
HAWAIIANS OVER-REPRESENTED IN COVID-19 AT-RISK POPULATIONS, OFFICE OF 
HAWAIIAN AFFAIRS 2 (2020).
    \10\ Hirai, supra note 7.
    \11\ OFFICE OF HAWAIIAN AFFAIRS, supra note 9 at 2.
    \12\ Id. at 1-2.
---------------------------------------------------------------------------
    To address the major health disparities then apparent, Congress 
enacted the precursor to NHHCIA in 1988, which was most recently 
reauthorized in 2009. The NHHCIA established the Native Hawaiian Health 
Care program, which funds the Native Hawaiian Health Care Systems 
administered by POL. Together the five Systems on the islands of 
Kaua'i, O'ahu, Maui, Moloka'i, and Hawai'i provide primary health care, 
behavioral health, and dental services. They also offer health 
education to manage disease, health related transportation, and other 
services. The Systems serve tens of thousands of patients across the 
State each year. NHHCIA also established the Native Hawaiian Health 
Scholarships Program for Native Hawaiians pursuing careers in 
designated health care professions. It supports culturally appropriate 
training and the placement of scholars in underserved Native Hawaiian 
communities following the completion of their education. More than 300 
scholarships have been awarded through this program and more than 98 
percent of program alumni are now licensed and practicing in Hawai'i.
    According to POL, the pandemic has highlighted the urgent need for 
several amendments to the NHHCIA. OHA and POL have advocated for 
increased funding to the Systems and removing the matching requirements 
in parity with other Native health care centers; applying 100 percent 
of the Federal Medical Assistance Percentage (FMAP); expanding Federal 
Tort Claims Act coverage to POL, the Systems, and their employees in 
parity with other Native health care centers; allowing federal program 
funding to be used to collect and analyze health and program data which 
currently falls under the ten percent administrative cost cap for the 
program; allowing the Systems to be eligible for supplemental federal 
funding streams; and providing a tax exemption for the scholarships 
program. Additionally, POL has established partnerships with other 
organizations to reach Native Hawaiians living across the country, 
offering capacity building, technical assistance, and workshops to 
promote holistic health and well-being as Native Hawaiians. Through 
POL's partnerships, it can care for all Native Hawaiians, including 
those unable to access the Systems in Hawai'i. We urge the Committee to 
support increased funding for, reauthorization of, and expansion of the 
NHHCIA, including these amendments so that POL and the Systems may be 
able to expand what they can accomplish.
Native Hawaiian Housing Programs
    The HHHA facilitates Native Hawaiian self-determination by 
supporting part of DHHL's mission--to develop and deliver land and 
housing to Native Hawaiians. Congress enacted the HHHA in 2000. The 
HHHA established the Native Hawaiian Housing Block Grant (NHHBG) 
program and the Section 184A Loan Guarantees for Native Hawaiian 
Housing. The NHHBG provides much needed funding to DHHL to deliver new 
construction, rehabilitation, infrastructure, and various support 
services to beneficiaries living on DHHL lands. The 184A Loan Guarantee 
program provides eligible beneficiaries with access to construction 
capital on DHHL lands by fully guaranteeing principal and interest due 
on loans. The program currently serves owner-occupant single family 
dwellings on the DHHL lands. Together, these programs help DHHL to 
carry out the vision of our Prince Jonah Kuhio Kalaniana'ole, who as 
the then-Territory of Hawai`i's Congressional Delegate 100 years ago, 
spearheaded one of the first Acts of Congress implementing the trust 
responsibility to Native Hawaiians.
    Like other Native communities, housing has become even more vital 
during this pandemic. Prior to the pandemic, Native Hawaiians faced one 
of the most expensive housing markets in the country. In fact, Native 
Hawaiians made up nearly half of the homeless population on the island 
of O`ahu, \13\ whose population accounts for approximately two thirds 
of all State residents. To address housing needs, DHHL has used NHHBG 
funds for emergency rental assistance for eligible Native Hawaiians; 
rental subsidies for lower income elderly; rehabilitation of homes 
primarily for elderly or disabled residents; homeownership 
opportunities for lower income working families; and homeownership and 
rental counseling to address barriers experienced by Native Hawaiians.
---------------------------------------------------------------------------
    \13\ OFFICE OF HAWAIIAN AFFAIRS, supra note 9 at 2.
---------------------------------------------------------------------------
    Despite these efforts, DHHL estimates that they would need $728 
million over the next two fiscal years to develop a minimum of 1,700 
homestead lots statewide, provide needed loan financing, and carry out 
rehabilitation projects by which the general welfare and conditions of 
Native Hawaiians can be improved. Unfortunately, even that sum is not 
enough to provide every DHHL applicant with a parcel. OHA appreciates 
Chairman Schatz's active role in ensuring that DHHL is included in 
COVID-19 relief for housing and related assistance. We urge this 
Committee to support increased funding for, reauthorization of, and 
expansion of the NHHBG and 184A Loan Guarantee programs as well.
Programs Supporting the Economic Well-Being of Native Hawaiians
    Economic well-being and opportunity are central to the ability of 
any community to exercise self-determination. Unfortunately, the 
pandemic has devastated Hawai`i's job market. Unemployment in the State 
has skyrocketed, and recovery efforts continue to lag. The U.S. Bureau 
of Labor Statistics reports that as of December 2020, Hawai`i had the 
highest unemployment rate in the United States at 9.3 percent. \14\ 
Unemployment is unlikely to decrease significantly in the near future 
because one of our biggest industries--tourism--continues to be 
severely impacted. According to preliminary statistics released by the 
Hawai`i Tourism Authority's Tourism Research Division, visitor arrivals 
were 75.2 percent lower in December 2020 compared to a year ago. \15\ 
Given that nearly one in four Native Hawaiians are employed in the 
service industry closely tied to tourism, \16\ Native Hawaiians will 
likely continue to be disproportionately affected during the State's 
economic recovery.
---------------------------------------------------------------------------
    \14\ Unemployment Rates for States, U.S. BUREAU OF LABOR STATISTICS 
(Jan. 26, 2021), https://www.bls.gov/web/laus/laumstrk.htm.
    \15\ Hawai`i Visitor Statistics Released for December 2020, HAWAI'I 
TOURISM AUTHORITY (Jan. 28, 2021), https://
www.hawaiitourismauthority.org/media/6395/december-2020-visitor-
statistics-press-release-final.pdf.
    \16\ OFFICE OF HAWAIIAN AFFAIRS, supra note 9 at 3.
---------------------------------------------------------------------------
    Fortunately, several economic development and access to capital 
programs are already in place to serve Native Hawaiian communities. The 
Native American CDFI Assistance Program and NHRLF are both widely 
recognized as being effective. Continued support for these and similar 
programs are critical to minimizing the negative economic impacts of 
this pandemic. For example, in its nearly three decades in operation 
under OHA's administration, NHRLF has closed around 2,700 loans valued 
at more than $63 million of lending to Native Hawaiian businesses and 
individuals. With this in mind, OHA asks the Committee for its support 
of Native CDFIs and for programmatic fixes to NHRLF, including ending 
the demonstration status of the program, removing restrictions on 
outdated unallowable loan activities, and reducing the Native Hawaiian 
ownership percentage requirement from 100 to 50.
    In spite of these successes, more programs to support the economic 
well-being of Native Hawaiians are needed. OHA asks that the Committee 
explore opportunities to promote economic development and access to 
capital in Native communities. For example, OHA supports Chairman 
Schatz's PLACE Act, introduced last Congress. OHA also asks that the 
Native Hawaiian community be included in these kinds of programs now 
serving Native American communities.
Native Hawaiian Education Programs
    The self-determination framework supports the reclamation and 
revitalization of Native identity through culture-based education and 
language programs supported through programs like the NHEA. Congress 
passed the NHEA in 1988 and most recently reauthorized the Act in 2015. 
The NHEA established the Native Hawaiian Education Program (NHEP). This 
program offers competitive grants to fund the development of innovative 
education programs to assist Native Hawaiians and to supplement and 
expand Native Hawaiian cultural-based education. Evidence shows that 
educating students through the use of their own culture and language 
leads to better academic and behavioral outcomes for students.
    In 2011, Ms. Namaka Rawlins of `Aha Punana Leo, a renowned `Olelo 
Hawai`i (Hawaiian language) immersion preschool and the oldest Native 
American language immersion non-profit in the United States, testified 
before the Committee about the successes of their preschool and the 
language immersion movement generally. At the time, Ka Haka `Ula o 
Ke`elikolani at the University of Hawai`i at Hilo offered the only 
Ph.D. in the world that focused solely on Native language and culture 
revitalization.
    This Hawaiian language college provides curriculum for various 
levels of immersion education, including a laboratory school for 
Kindergarten through 12th Grade. Their rate of success is stunning. 
Hawaiian immersion laboratory school had a 100 percent high school 
graduation rate and an 80 percent college entrance rate. These rates 
have remained steady for more than ten years, supporting the conclusion 
that culture-based education and Indigenous language programs are 
reliably and overwhelmingly successful.
    Moreover, Native Hawaiian language advocates like Ms. Rawlins and 
other pioneers in `Olelo Hawai'i education have played critical roles 
in Native language revitalization efforts. They are ambassadors of 
aloha throughout Indian Country, even serving in leadership positions 
at the National Indian Education Association (NIEA) and affiliated 
tribal organizations intent on revitalizing their Native languages.
    The successes of the Native Hawaiian education movement are 
understood throughout the community. According to conversations with 
NHEC, in 2017 and 2018 alone, the 38 NHEP grantees served 95,458 
individuals, including 74,311 students, 18,429 parents, and 2,718 
teachers. They surpassed their target number for participants by 
approximately 65 percent. Additionally, all 38 grantees targeted 
serving Native Hawaiian communities and formed almost 700 strategic 
partnerships with schools, government agencies, or cultural 
organizations to expand the number served and to increase the overall 
impact of their programs.
    Despite the great work of NHEP grantees in recent years, the 
effects of the pandemic still threaten the survival of some grantees 
and widen existing disparities between Native Hawaiian students and 
their non-Hawaiian counterparts. Even before the pandemic, data 
collected in 2015 demonstrated that fewer Native Hawaiian students 
attained proficiency in math and reading than their non-Hawaiian 
counterparts. \17\ Compounding matters, Hawai`i is considered the state 
``most prone to academic risks during the coronavirus outbreak'' and 
faces the ``widest gap in the amount of teacher interaction with 
lesser-educated households compared with more-educated ones.'' \18\
---------------------------------------------------------------------------
    \17\ A NATIVE HAWAIIAN FOCUS ON THE HAWAI'I PUBLIC SCHOOL SYSTEM, 
SY2015, OFFICE OF HAWAIIAN AFFAIRS 9 (2017).
    \18\ Alex Harwin & Yukiko Furuya, Coronavirus Learning Loss Risk 
Index Reveal Big Equity Problems, EDUCATIONWEEK (Sept. 1, 2020), 
https://www.edweek.org/policy-politics/coronavirus-learning-loss-risk-
indexreveals-big-equity-problems/2020/09.
---------------------------------------------------------------------------
    Non-profit education programs, particularly language immersion 
programs, have faced unique hardships amid the pandemic. With the 
arrival of new COVID-19 strains in Hawai`i, Native Hawaiian students 
face a precarious situation. To further aggravate this risk, nearly ten 
percent of Native Hawaiian households do not have a computer in their 
homes, while nearly 20 percent do not have Internet access. \19\ During 
the pandemic, many families have been unable to afford the cost of new 
equipment and broadband service because formerly working adult parents 
are now unemployed.
---------------------------------------------------------------------------
    \19\ OFFICE OF HAWAIIAN AFFAIRS, supranote 9 at 3.
---------------------------------------------------------------------------
    OHA again appreciates Chairman Schatz's leadership in finding ways 
to assist Native Hawaiian educators through these difficult times. 
Unfortunately, despite these efforts, our programs and keiki (children) 
are still at risk. We urge the Committee to ensure that Native Hawaiian 
programs and service providers be included in all future federal relief 
efforts, that the NHEA be reauthorized, that its scope be expanded, and 
that its annual funding be increased.
(3) Ensure parity in the treatment of all Native Americans, including 
        American Indians, Alaska Natives, and Native Hawaiians
    Again, through more than 150 Acts, Congress has established its 
trust responsibility to Native Hawaiians based on our status as the 
Indigenous, once-sovereign people of Hawai`i. As a result of those 
Acts, this Committee has the duty to ensure that the federal government 
implements the trust responsibility fully and equally to all Native 
Americans, including Native Hawaiians. As Chairman Schatz recently 
stated, the trust responsibility ``should be the guiding light'' of 
this Committee's work. While the federal trust responsibility may be 
implemented differently to Native Hawaiians because of our unique 
history with the United States, that trust responsibility nonetheless 
still exists.
    As a Native Hawaiian leader elected to ensure the well-being of the 
Native Hawaiian community, I urge this Committee and the Congress to 
ensure that Native Hawaiians have the same opportunities as other 
Native Americans to engage in self-determination. OHA asks you to 
empower all Native Americans, including Native Hawaiians, with the same 
opportunity to choose their own path--understanding that each tribe, 
band, nation, pueblo, village, or community is best served through 
their unique, self-determined means. This necessarily includes 
extending access to federal programs implementing the trust 
responsibility to Native Hawaiians where appropriate, and where 
consistent with Native Hawaiians' unique history and evolving political 
relationship with the United States.
    OHA celebrates our involvement with the Alaska Federation of 
Natives, the National Congress of American Indians, and the NIEA, and 
we pledge to support and work with our Native cousins across the 
continent and in Alaska because all of us--American Indians, Alaska 
Natives, and Native Hawaiians--are strongest when we stand and work 
together.
    In closing, I wish to express my appreciation and gratitude to both 
the Chairman and the Vice Chairman for taking on this responsibility. 
It has been an honor to have had this opportunity to address you and 
your Committee members. I have included OHA's previous testimony from 
your December 9, 2020 hearing and am incorporating it by reference. *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    I stand ready to assist you in accomplishing this most important 
work, both now and in the future. A hui hou. Until we meet again.

    The Chairman. Thank you.
    Next, we have Julie Kitka, President and CEO of Alaska 
Federation of Natives.

   STATEMENT OF JULIE KITKA, PRESIDENT, ALASKA FEDERATION OF 
                            NATIVES

    Ms. Kitka. Thank you, Mr. Chairman. Thank you for inviting 
us to testify. I congratulate you and Vice Chair Murkowski in 
your selection as the leadership of the Committee. I also want 
to thank Senators Rounds, Cortez Masto and Smith for joining in 
the hearing today. At least I see them on the screen. Thank you 
so much for your attention to these issues. They are very 
important.
    First, I want to say the significance of this hearing 
cannot be overstated. It is critical, and we are not done with 
the pandemic. We are still in the midst of the pandemic.
    At the beginning of our first awareness of the pandemic, we 
had a briefing by CDC in January of 2020, and at that time, 
there was about 571 cases of the virus worldwide. The 
trajectory of the virus was to be an epidemic, not a pandemic. 
Now, a year later, we see how far it has spread, and no matter 
how remote and isolated we are in Alaska, we knew that we would 
be protected for some time by the isolation, but it clearly has 
hit our communities.
    I want to say what our priorities were at the beginning of 
the pandemic, and they remain our priorities today, is one, to 
support our tribal health system, secure the resources that 
they need, for the health professionals that work for them, 
including the rapid testing, the personal protective equipment, 
medical supplies and ventilators. We also put as a priority to 
work whatever way we could to save lives. Third was to focus on 
vulnerable populations that sometimes are more at risk than 
others within their population. Fourth was to support the 
recovery of our economy, because of the collapse of many 
sectors of the economy due to the shutdowns and the pandemic. 
This is a concern nationwide as well as often worldwide.
    But also to continue the engagement with different partners 
during the process of this pandemic, continue to flatten the 
curve, continue to expand distribution of the vaccine, and now 
to make sure that as the virus mutates and variants are named, 
if there is a booster shot that needs to be added to the mix of 
the vaccinations, that Native Americans and Alaska Natives and 
Native Hawaiians participate in that as rapidly as the priority 
of the vaccination that has gone out so far.
    And I want to thank you very much for the resources that 
you have put out to deal with this pandemic, but also 
respectfully remind you, we are still in the midst of that.
    One thing that we took to heart at the beginning of the 
pandemic is the pandemic required us to call upon our 
traditional values and our caring for one another, leaving no 
one behind. I am really pleased to say that that is how we are 
making it through, and that is how we will continue to make it 
through.
    I want to do a shout-out to one group that there hasn't 
been really too much knowledge about during this pandemic, and 
that is to the U.S. military. One of the successes that we can 
point to at the beginning of the pandemic is a Federal-medical 
partnership in which we were able to call upon active duty 
military to reach into their deep supplies.
    At a time when we only had 15 swabs in two major hospitals, 
that is all we had, they were able to reach into their supplies 
and release 45,000 pieces of personal protective equipment and 
medical supplies. Undoubtedly, that partnership has saved lives 
to date, and that partnership extends to the time when we were 
able to obtain rapid testing equipment on that, where we even 
loaned some of the rapid testing equipment to the active duty 
military to help them continue in their mission at the same as 
they were protecting lives.
    So I want you to know that, and when you speak with them in 
other venues on that, understand our deep appreciation. We know 
it has saved our peoples' lives. Again, at that time, we only 
had 15 swabs.
    I also wanted to say that we are very grateful for the 
attention that this Administration and this Committee gives to 
American Indians, and Alaska Natives and Native Hawaiians. We 
all have unique forms of self-determination, based on our laws. 
Rules have been put into place. But we are all brothers and 
sisters, and we all need to work together. I hope that whatever 
efforts you put forward incentivize inter-tribal cooperation 
and collaboration, and inter-regional tribal collaboration and 
cooperation, so that we can get through this pandemic in better 
shape than we were when we started.
    President Fawn noted that we have much work that needs to 
be done in infrastructure and many areas of our communities 
have been left behind on that. I want to thank you that we have 
made much progress in the last few decades, but we just need to 
continue to leave no one behind and move forward.
    So I want to thank those who have brought us to where we 
are today, and urge you to continue to focus on that. The 
Native American people, I know from our perspective, are ready 
to stand up to the challenge of rebuilding the economies and 
recovering from this and keeping our people as safe as 
possible.
    I also want to ask that testimony, the time for extending 
written testimony be extended. We want to supplement our 
testimony. We didn't have a lot of time to put together our 
testimony, and we know that other member organizations, both 
our tribes, our tribal consortiums, and our Native corporations 
will have specific ideas that they will want to put into the 
mix. We want to make sure that we can supplement our testimony.
    In summary, and I want to close on that, is yesterday, we 
understand that the House marked up $1.9 billion in COVID-19 
relief that will be considered in the Senate next week. That 
includes numerous programs that will affect Native Americans, 
programs for our tribes, for our health departments and 
hopefully our health corporations as well. Of the $1 billion 
that is specifically allocated for tribes, we recommend that be 
increased to $2 billion, and the remaining $18 billion be 
allocated by the Secretary of Treasury.
    We urge that the Committee gives the Secretary of Treasury, 
because Treasury is not that familiar with dealing with Native 
Americans, gives some sidebars, some guidance to them as they 
distribute that. Because we really need to make sure that there 
is equity and that it is informed distribution as opposed to 
making mistakes.
    We recognize there are huge amounts of resources being put 
into that, and we want to be able to stretch those resources as 
far as possible and make as much progress in the recovery that 
is humanly possible, using the best innovation, using the best 
logistics, using the best leap forward in technology. But 
really, use that as seed funds to leap ahead and not only 
contribute to savings our people's lives and recovering our 
health systems from the drain on their resources during this, 
but also make sure that we have the infrastructure that we need 
to push ahead. We don't want to be left behind as the new 
economy unfolds and rebuilds in our Country. We want to be 
contributing both for our people but also to the larger 
society.
    We also want you to think about parameters around those 
resources to take into account real poverty. It is real. We 
have districts in our State that are among the 10 top poorest 
areas in the entire Country. We should make sure that that is 
one of our goals, is to leave no one behind.
    And look at unemployment rates, real unemployment rates, 
not just people who have stopped looking for jobs or never had 
jobs. Look at real human needs. We note that in one section of 
the report, there is quite a bit of resources there in water 
and resources. But when you look at what goes into the Indian 
Health Service on water and sanitation needs, we have 30 plus 
communities that have no water and sanitation. Even during this 
pandemic, they have to haul up ice and melt it. Can you imagine 
trying to wash your hands five, six times a day with basically 
melted ice?
    The Chairman. We will keep the record open for additional 
testimony. If you could wrap up your remarks, we will be happy 
to get right into the questions. Thank you very much.
    Ms. Kitka. Yes. My wrap-up is, we have a different model of 
self-determination in Alaska, which is based on our land claims 
settlement, which was the historic largest land claims 
settlement in the history of the United States, nearly 50 years 
ago. In that land claims settlement, Congress directed us to 
form a for-profit Native corporation, so we would have our land 
and resources. So we do have a different model of tribal self-
determination in Alaska that includes both federally recognized 
tribes and our Alaska Native corporations and our tribal 
consortiums.
    We would like you to take into account that the way that we 
deploy our organizations, we view them all as tools for the 
Native people, for the empowerment of the Native people, for 
the well-being of the Native people. We urge that you not 
exclude different segments of our Native community, because of 
the way that we are structured differently.
    In conclusion, I would be glad to answer any questions. 
Thank you.
    [The prepared statement of Ms. Kitka follows:]

  Prepared Statement of Julie Kitka, President, Alaska Federation of 
                                Natives
    Thank you for this opportunity to testify. Before I begin, I want 
to congratulate Senator Schatz and Senator Murkowski for being 
unanimously elected as the Chairman and the Vice-Chairman of the Senate 
Committee on Indian Affairs for the 117th Congress. I would also like 
to welcome Senator Ben Ray Luj n to the Committee. On behalf of the 
Alaska Federation of Natives, we look forward to working with the 
Committee and thank you for making your first oversight hearing a call 
to action on the priorities of American Indian, Alaska Native, and 
Native Hawaiian communities. I would also like to thank Chairman 
Senator Schatz, Vice-Chair Senator Murkowski, and the Committee for 
being flexible and allowing me to testify today. I additionally 
appreciate the hearing record being kept open for the two week period 
to allow us to supplement our statement for the Congressional record.
    Formed almost 55 years ago to achieve a fair and just settlement of 
Alaska Native aboriginal land claims, AFN is the oldest and largest 
statewide Native membership organization in Alaska. Our membership 
includes 168 sovereign Alaska Native tribes, 166 for-profit village 
Native corporations, 9 for-profit regional Native corporations 
established pursuant to the Alaska Native Claims Settlement Act, and 12 
regional nonprofit tribal consortia that contract and compact to 
administer federal programs under the Indian Self-Determination and 
Education Assistance Act. The mission of AFN, among other things, is to 
advance and enhance the political voice of Alaska Natives on issues of 
mutual concern. Today, we represent more than 120,000 Alaska Natives 
through our members, which we interface with year-round and each 
October during our three-day Annual Convention to set the Alaska Native 
community's federal, state, local, and tribal priorities for the coming 
year.
    AFN would like to offer testimony today on the need to create 
equity among indigenous peoples, federal agencies, policies, and 
programs. AFN was pleased to see President Biden's Executive Order on 
Advancing Racial Equity and Support for Underserved Communities Through 
the Federal Government. Ensuring equity in federal programs is 
critical, because as you will hear from our communities, disparities 
entrenched in our laws and policies, and in our public and private 
institutions, have created barriers for individuals and our Native 
communities to overcome. As such, AFN asks the Committee on Senate 
Committee on Indian Affairs to seriously consider increasing your time 
and investment in interagency or ``whole of government'' initiatives to 
root out systemic barriers and create holistic cross-cutting solutions 
for key outcomes for increasing equity among federal programs, 
services, and policies that affect our American Indian, Alaska Native, 
and Native Hawaiian Communities. Further, AFN requests the Committee to 
encourage inter-tribal and inter-regional tribal coordination and 
collaboration to empower all Native Americans to address serious needs 
and come back from this pandemic stronger and able to help our people 
and continue to contribute to the larger society.
    First, I would like to offer an overview of Alaska's unique form of 
Tribal Self-Governance and Native Self-Determination. Alaska is 
different. The state and its people, as observed by the U.S. Supreme 
Court in Sturgeon v. Frost, are often the exception, not the rule. This 
is especially true for Alaska Natives as compared to American Indians. 
While both Alaska Natives and American Indians are distinct sovereign 
entities that predate the formation of the United States, they differ 
in the way they govern their lands and members. American Indians 
generally operate through a single entity--their respective tribe--
which exercises both inherent self-governance powers and self-
determination rights over the tribe's lands and members. Alaska 
Natives, on the other hand, generally operate through three distinct 
but interrelated entities--the respective tribe, corporation (regional 
and village), and tribal nonprofit organization--which share self-
governance and self-determination responsibilities for Alaska Native 
lands and peoples. Under Alaska's unique form of tribal self-governance 
and Native self-determination, Alaska Native tribes retain the inherent 
sovereign authority to govern their members. ANCs and tribal 
organizations do not possess self-governance powers. Rather, ANCs 
manage (and own) Alaska Native lands, and tribal organizations provide 
social services to Alaska Natives in their respective `service 
population' and `service delivery area,' and through this join Alaska 
Native tribes in furthering the self-determination of Alaska Natives.
Housing
    2021 marks the 25th anniversary of Congress passing the Native 
American Housing and Self Determination Act (NAHASDA). This legislation 
was and continues to recognize tribal sovereign rights to develop 
housing that meets the needs of our communities. Housing conditions in 
Indian country are well documented as being some of the worst of the 
worst in our Nation. Alaska Natives suffer from escalating and above 
national average rates of overcrowding, inadequate housing, and 
unemployment, in comparison to the general U.S. population, as well 
within the Native American population. The rate of overcrowding, or 
severe overcrowding, is such that Alaska needs more than 16,100 housing 
units to alleviate overcrowding. \1\ Having adequate and safe housing 
is part of the bedrock for our communities, without safe and adequate 
housing, our communities suffer. Due to stalemates in funding housing 
in our communities has become less available, and overcrowding and poor 
housing has shown to not only affect our children performance, but it 
also puts our way of life at risk. In my ability to address the housing 
shortage in our Native communities, AFN would like to highlight the 
first-ever Senate Committee on Indian Affairs field hearing in rural 
Alaska. The hearing was held in Savoonga Alaska, a small, isolated 
community on St. Lawrence Island between Russia and mainland Alaska in 
the Bering Sea. The field hearing addressed overcrowded housing and the 
impacts on American Indian and Alaska Natives, a panel of witnesses 
gave testimonials to the issue as well as solutions to overcrowded 
housing and housing affordability across Alaska. As such, AFN urges the 
Senate Committee on Indian Affairs to review the recommendations from 
the witness panel and to host an oversight hearing on the inequities in 
housing programs and policies in our communities in the 117th Congress.
---------------------------------------------------------------------------
    \1\ Association of Alaska Housing Authorities 2021 Federal 
Priorities
---------------------------------------------------------------------------
    Another immediate Committee recommendation is to prioritize the 
reauthorization of the NAHASDA \2\ and to authorize funding for the 
Indian Housing Block Grant at no less than $800 million, with 
subsequent fiscal year increases of $50 million per year until 
inflationary reductions have been recovered. \3\ NAHASDA allocates over 
$90 million each year to Alaskan Tribes and communities and is the 
primary vehicle for meeting critical housing needs. These efforts are 
driven through Alaska's Tribes and Tribally Designated Housing Entities 
which are sophisticated in leveraging funds to develop projects with 
multi-layered funding sources with NAHASDA as the foundation for 
building these complex funding packages.
---------------------------------------------------------------------------
    \2\ AFN Convention Resolution 19-27
    \3\ AFN Convention Resolution 19-26
---------------------------------------------------------------------------
    AFN also encourages the Committee to review the Bureau of Indian 
Affairs Housing Improvement Program (BIA HIP) as an opportunity to 
address the housing needs of our communities. After being funded at 
$23.1 million in 2005, the BIA HIP was eliminated from the FY 2008 
budget to fund other high priorities. In FY 2020, the BIA HIP program 
was funded at approximately $11 million. For additional background, 
Alaska's demonstrated need in 2019, based on eligible applicants, 
exceeded $436 million. \4\ As such, AFN urges Congress to fund the BIA 
HIP with an appropriation amount of $23 million. \5\
---------------------------------------------------------------------------
    \4\ Association of Alaska Housing Authorities 2021 Federal 
Priorities
    \5\ AFN Convention Resolution 19-25
---------------------------------------------------------------------------
Public Safety
    Many Alaska Native villages have no local law enforcement or police 
of any kind. For example, in May of 2019, 98 tribal communities in 
Alaska had no state-funded law enforcement, and about 70 of those 
communities had no local police of any kind. Jurisdictional and 
geographic barriers consistently prove too high a burden for 
traditional law enforcement, and health systems to overcome, resulting 
in disproportionate rates of heath, physical and sexual violence. 
According to the Indian Law Resource Center, nearly half of all Native 
women have experienced sexual violence. Alaska Native women continue to 
suffer the highest rate of forcible sexual assault and have reported 
rates of domestic violence up to 10 times higher than in the rest of 
the United States. A new approach with more tribal input, authority, 
and control is needed to address the inequities in our public safety 
system.
    The public safety crisis in rural Alaska was elevated, on June 28, 
2019, when former U.S. Attorney General William Barr took a significant 
step to remedy the public safety plight of hundreds of thousands of 
Alaskans, the majority of which are Alaska Natives, by declaring a 
federal law enforcement emergency in rural Alaska. The historic 
declaration made more than $10 million dollars in U.S. Department of 
Justice (DOJ) funds immediately available to Alaska Native tribes and 
tribal organizations to address short-term critical law enforcement 
needs in the state's more than 200 rural Native villages and identified 
almost $175 million more than tribes and tribal organizations could 
utilize to support long-term public safety efforts. U.S. Attorney 
General William Barr also pledged to support a more efficient funding 
mechanism within DOJ to include compacting authority. It is critical 
that we move off grant funded public safety to a more durable path of 
compacting. In our last meeting with AG Barr, he requested the legal 
tools to have DOJ be able to compact. Unfortunately this was not 
accomplished, and should be a Committee priority to authorize.
    Following former U.S. Attorney General William Barr emergency 
declaration, U.S. Senator Lisa Murkowski introduced S. 2616, The Alaska 
Tribal Public Safety Empowerment Act. S. 2612, alongside Congressman 
Young's pilot program, was received favorably by the Alaska Native 
community as an innovative step to address the public safety crisis in 
our Alaska Native communities. The legislation, which builds on the 
pilot program U.S. Congressman Don Young inserted into the House-passed 
version of the Violence Against Women Act of 2013, would allow five 
federally recognized Alaska Native tribes to prosecute individuals who 
commit certain offenses within their villages on a pilot basis 
regardless of tribal citizenship. S. 2616 authorizes the pilot tribes 
and inter-tribal organizations to exercise civil jurisdiction over all 
persons in their villages for all civil crimes; and authorizes the 
tribes and tribal organizations to exercise special criminal 
jurisdiction over all persons--including non-Natives--for crimes 
involving domestic violence; dating violence; sexual violence; 
violation of a protective order; stalking; sex trafficking; obstruction 
of justice; assault of a law enforcement or corrections officers; any 
crime against a child; and any crime involving the illegal possession, 
transportation, or sale of alcohol or drugs. AFN strongly encourages 
the Senate Committee on Indian Affairs to support the passage of the 
Alaska Tribal Public Safety Empowerment Act or similar language in the 
117th Congress. \6\
---------------------------------------------------------------------------
    \6\ AFN Convention Resolution 20-10
---------------------------------------------------------------------------
    AFN commends the passage of Savannas Act and the Not Invisible Act 
of 2019 in the 116th Congress. AFN urges this Committee to continue its 
efforts to address the public safety crisis in our Native communities 
in the 117th Congress. As stated above, AFN does not believe a tribal 
public safety network can be funded through short term grants, this is 
not an equitable solution. AFN urges the Senate Committee on Indian 
Affairs to support the expansion of compacting and contracting 
authority for Department of Justice programs and funds to tribes to 
ensure a stable funding source as opposed to grants.
Recovering from the Covid-19 pandemic
    The COVID-19 pandemic has underscored the faultiness in Alaska's 
government services and the weaknesses of Alaska's rural economy, 
hitting Alaska Natives especially hard. Persistent poverty and severe 
economic hardship have plagued our communities for generations. In 
Alaska 23.8 percent of American Indian or Alaska Natives lived in 
poverty in 2017. \7\ As it is nationally, the percentage of American 
Indian or Alaska Natives is higher than any other group. As of today, I 
am happy to report that Alaska and specifically, the Alaska Tribal 
Health system leads the nation in vaccination rates. While this is 
great news and trend, it does not diminish the damage and trauma that 
this pandemic has caused.
---------------------------------------------------------------------------
    \7\ Date from the 2017 U.S. Census Bureau American Community Survey
---------------------------------------------------------------------------
    Alaska tribes, along with their tribal health organizations, 
corporations, and nonprofits, are playing a critical role in responding 
to Alaska's novel coronavirus challenges, working diligently to stop 
the spread of, and promote recovery from, the COVID-19 pandemic. Alaska 
Native communities have historically been disproportionately impacted 
by pandemics. Because of the health conditions that the Centers for 
Disease Control and Prevention (CDC) notes increase the risk for a more 
serious COVID-19 illness, including respiratory illnesses, diabetes, 
and other health conditions, we are extremely concerned. As a result, 
Alaska tribes are currently providing essential services to their 
communities and dedicating resources to the unique circumstances of 
COVID-19 response that would otherwise be used on economic development 
opportunities.
    AFN is confident that Alaska Natives have the track record, 
capabilities, and knowledge to help get Alaska back on track. The Biden 
Administration with oversight and input from the Senate Committee on 
Indian Affairs can partner with Alaska tribes to identify effective 
economic stimulus programs that can be tailored to the unique 
circumstances in our Native communities including Alaska's unique 
system of self-determination and tribal governance. U.S. financial and 
tax incentives can increase both local and expanded investment in their 
villages--which can lead to stronger and more responsive economic 
performance levels and desperately needed jobs--and overcome the 
challenges posed by low population and lack of economies of scale.
    One immediate solution is to support Native participation in the 
New Market Tax Credit by creating a 10 percent set aside in the program 
for tribal communities. The NMTC program was established in 2000 to 
encourage private investment in impoverished, low-income communities 
that traditionally lack access to capital for infrastructure projects 
of the kind needed for broadband buildout. Investors who make qualified 
equity investments reduce their federal income tax liability by 
claiming the credit. Unfortunately, NMTC activity has been highly 
concentrated in just a few states, with the 10 states with the highest 
activity accounting for over 50 percent of all NMTC activity. The 25 
states with the least NMTC activity, including Alaska, account for less 
than 13 percent of all activity. Furthermore, the current NMTC program 
has no built-in mechanism to ensure that NMTC investments reach Native 
American communities.
    Additionally, with the support of AFN, the Alaska and Hawaiian 
Congressional Delegation introduced legislation to create a domestic 
version of the Millennium Challenge Corporation (MCC) in the 116th 
Congress. MCC is an independent federal agency established in January 
2004 to deliver foreign aid in an innovative way. It provides time-
limited grants to developing countries that meet certain standards of 
governance. The aid is designed to promote economic growth, reduce 
poverty, and strengthen institutions. MCC's focus areas include health, 
education, energy and power, and transportation infrastructure. The 
legislation introduced in the 116th Congress directs the Secretary of 
the Interior to establish demonstration projects like the MCC to assist 
remote Alaska Native and Native Hawaiian communities with economic 
development and poverty reduction in a manner that promotes self-
determination and self-sufficiency and authorizes $8 million in funding 
for fiscal years 2020 through 2025. Neither the House or Senate bill 
were heard in Committee and as such, AFN urges the Senate Committee on 
Indian Affairs to consider this option as an innovative solution to 
help our Native communities recover from the Covid-19 pandemic.
Broadband
    The digital divide among Alaska Native, American Indian, and Native 
Hawaiian communities is among the worst in the nation. According to a 
2019 report by the Federal Communication Commission (FCC), nearly half 
of all Native American and Alaska Native rural households do not have 
broadband, leading to poorer health, education, and economic security. 
\8\ In rural Alaska, where remote villages lie beyond the state's 
limited road system, Internet connectivity serves as the primary link 
to the rest of the world, thus supporting that community's economic and 
social vitality, just as physical roads do elsewhere. If that link is 
unavailable or too slow, too costly, or too unreliable, entire 
communities suffer the consequences. This has made COVID-19 prevention 
and mitigation efforts especially trying. As a direct or indirect 
result of this digital disparity, Alaska Natives and American Indians 
have succumbed to the virus at a rate two times higher than non-
Natives.
---------------------------------------------------------------------------
    \8\ Federal Communications Commission, Report on Broadband 
Deployment in Indian Country, Pursuant to the Repack Airwaves Yielding 
Better Access for Users of Modern Services Act of 2018 (May 1, 2019), 
available at https://www.fcc.gov/sites/default/files/
nnctf_tribal_broadband_report.pdf (last visited Feb. 12, 2021).
---------------------------------------------------------------------------
    In January 2021, the National Tribal Broadband Strategy (NTBS) was 
published by the Department of the Interior. The NTSB includes 28 
recommended actions that agencies should take to help address the 
digital divide in American Indian/Alaska Native/Native Hawaiian (AI/AN/
NH) communities. The first of these recommendations is to create a new 
Broadband Development Program (BDP) within the Office of Indian Energy 
and Economic Development. One of the main purposes of the BDP is to 
implement the NTBS and coordinate efforts within and beyond the 
Department of Interior to drive broadband development. As such, AFN 
requests the Senate Committee on Indian Affairs hold an oversight 
hearing on broadband deployment in AI/AN/NH communities. Access to 
broadband is a barrier for your communities to equally participate in 
the world around us and the Senate Committee on Indian Affairs should 
seriously consider whether new policies, regulations, or guidance from 
the federal government may be necessary to advance equity and urgency 
in the deployment of broadband in our Native communities. We also ask 
that such a hearing includes a review of the NTBS to gather feedback on 
the recommendations contained within the strategy. Additionally, AFN 
respectfully requests that Alaska and Hawaii be equally represented in 
such hearings.
Conclusion
    AFN deeply appreciates the opportunity to present our communities 
priorities for the 117th Congress to the Committee. We look forward to 
working with the Indian Affairs Committee and its members during this 
Congress to advance the interests, priorities, and to redress 
inequities in the policies and programs that serve as barriers to equal 
opportunities of American Indian, Alaska Natives, and Native Hawaiians.
    Quyana, Gunalcheesh, Haw'aa, Baasee, Thank you.

    The Chairman. Thank you very much.
    We will get right into questions. My first question is very 
straightforward. We will go in the order of the testifiers. 
What are your top one or two priorities for the coming COVID-19 
relief package? I will start with Fawn Sharp.
    Ms. Sharp. Thank you for that excellent question. Thank you 
so much.
    Our main ask is, the provisions that were passed out of the 
House, and that is a $20 billion set-aside of the tribal 
governments, as we as a set aside for tribal health. We want to 
point out that that should be viewed as a minimum. Our 
economies are devastated. We are disproportionately impacted by 
the pandemic. We are still trying to strategically prepare not 
only a public health care recovery but an economic recovery 
plan.
    We were some of the first in our area to shut down our 
businesses. In the absence of having the full spectrum of 
taxing and taxing and powers to raise revenues for tribal 
governments, we are forced, in our commercial enterprises, to 
generate corporate profits. And both of those revenue streams 
are compromised.
    So we urge this Committee to look at that $20 billion set-
aside as a floor. That would be our top priority, so that we do 
have the resources and the United States will fulfill its trust 
responsibility.
    The Chairman. Thank you very much. We have just over three 
minutes left. Let's go to Mr. Forsman and see if we can be as 
brief as possible with the top one or two priorities.
    Mr. Forsman. I think relief to tribal governments and 
tribal government economies is the top one. We are a regional 
economic powerhouse in a lot of ways in this area, by providing 
a lot of jobs for our people, and people outside out of our 
tribes. So that one first, and of course investment in public 
health, continued investment in public health would be our top 
two.
    The Chairman. Thank you very much.
    Ms. Lindsey?
    Ms. Lindsey. Thank you, Chair. We have many. Very briefly, 
Native Hawaiians experience disparities in health care and 
economic well-being. The pandemic made it worse. Hawaii has the 
highest unemployment rate in the Nation. Tourism, our major 
economic engine, has been severely impacted. Many Hawaiians 
work in service jobs in this industry. Our health care systems 
system, our housing was a major concern for Hawaiians, before 
the pandemic, and it is even worse right now.
    We urge the Committee to include support for all of our 
programs in this relief package. Thank you.
    The Chairman. Thank you very much.
    Ms. Kitka?
    Ms. Kitka. Thank you, Mr. Chairman. Our top priorities 
would be housing, the overcrowding in housing, substandard 
house. It would greatly improve our people's wellness and 
standard of living. Also, expansion of broadband for tele-
medicine and other things, affordability of broadband. The new 
markets tax credit extended to give leverage to private sector 
and economic recovery. Thank you.
    The Chairman. Thank you very much. With my remaining 
minutes or so, I am going to ask a couple of questions and take 
them for the record. The first is about vaccine hesitancy. I 
would like to understand how much vaccine hesitancy there is in 
Native communities, and what the Committee can do and what 
society can do.
    My own view is that these vaccines are miraculous, and that 
they are really going to change lives and save lives and give 
us our lives back. The trajectory right now in terms of people 
participating is a little bit misleading, because obviously, 
the people who are getting vaccinated are not the people who 
need to be persuaded. There is going to be a remaining cohort 
of all population generally across the United States, but 
specifically in Native communities, that remains hesitant and 
suspicious of the Federal Government. So we would love to work 
with our Native leaders on addressing vaccine hesitancy.
    Then one final observation is, perhaps there is something 
that this Committee can do on tele-health. Certainly, the 
jurisdictions are complex. The Finance Committee asserts 
jurisdiction correctly because of Medicare. But our ability to 
extend health care dollars into rural communities may depend on 
our ability to deploy tele-health more aggressively.
    With that, I will turn it over to Senator Murkowski.
    Senator Murkowski. Mr. Chairman, just to your last point, 
know that you have a trusted partner here as we are working out 
the broadband and the infrastructure there, and what more we 
can do.
    I appreciate what has been said about the importance of the 
COVID-19 relief dollars, and the significance when we are 
talking about State, local and tribal. I guess I will start 
with a question to you, President Sharp. As Julie Kitka has 
outlined, the service delivery system within the Alaska Native 
framework is different than we have in the lower 48 tribes. We 
have talked about that. The federally recognized tribes are 
authorizing tribal non-profits. The ANC is significant, but 
different, different roles in providing services.
    So I guess I would ask as we are looking at these tribal 
funds, that we are looking at in the House bill, whether or not 
NCAI would be supportive of ensuring that when tribes in Alaska 
rely extensively on consortia to provide the government 
services, which they do, that those consortia should be able to 
administer the tribal set-asides.
    What you have here, and I don't mean to educate you on 
this, but I will just repeat for colleagues, there are services 
that are authorized by recognized tribes, but they are 
administered by their non-profit. So you have a type of 
governmental function that is supported by a tribal government 
through the set-asides.
    So I guess I want to just hear your assurance or support 
that you recognize being able to access those tribal set-aside 
funds for our consortia operated governmental services is 
something that makes sense, so that we ensure that Alaska 
Natives who are served under this sort of framework are not 
disenfranchised.
    Ms. Sharp. Thank you, Vice Chairman. I really appreciate 
that question. Again, I would start by stating that with regard 
to tribal nations, we need to ensure that every piece of 
legislation that passes through this Congress that defines 
tribal governments, that there is a very clear distinction with 
sovereign tribal nations and our political status.
    So to your question about support for a consortium 
providing badly needed services during the pandemic, we 
absolutely support that. We give deference to the tribal 
governments in Alaska who have longstanding relationships 
between their sovereign tribal governments and the consortia 
with whom they work.
    It is our position at NCAI that under all circumstances, we 
support sovereign tribal nations in serving their citizens and 
communities. We defer to their decision-making and their 
relationships on how and when services are delivered through 
consortia.
    But we do see in these critical times that everyone needs 
to come together to serve the most vulnerable of our Alaska 
relatives.
    Senator Murkowski. And I think we would agree, that is the 
goal here, is making sure that these services are provided. As 
you know, we have within our ANCs, they have the ability to 
authorize contracts and compacts under the Indian Self-
Determination Act. Effectively what this does is allow for 
coverage for about 40,000 to 60,000 eligible Alaska Natives. So 
this is not a situation where the ANCs are trying to assert a 
level of sovereignty, but just that they are built into the 
self-determination system that we have here.
    I want to turn, with my remaining time, to you, Julie. I 
think you addressed the issue of the unique framework that we 
have in Alaska. I think we have seen Alaska's tribes do an 
outstanding job during this pandemic, with vaccine 
distribution, working with the IHS system. We are leading the 
Nation in per capital vaccination rates. But I hear what the 
Chairman is saying about vaccine hesitancy, and that is 
something that we want to understand.
    One of the concerns that I have heard from Alaska Native 
leaders is the challenge in the State related to delivery of 
services to Alaska Natives. Can you give a little more context 
to the unique nature of the structure and system for the 
delivery of tribal services in Alaska, recognizing, again, that 
it is a cooperative, collaborative, multi-layered approach that 
we have within Alaska?
    Ms. Kitka. Thank you, Mr. Chairman and Vice Chairman 
Murkowski. Yes, we do have a unique system. We describe it as, 
our form of self-determination includes Native self-governance 
and tribal sovereignty. Our tribes, our federally sovereign 
tribes, are sovereign. Our Native entities are not sovereign, 
but they are part of our self-determination model.
    What we have is, we have, for example, in the health 
system, we have tribal health corporations whose boards are 
made up of tribal chiefs on that. They have as a matter of law 
been required to work together to provide health care systems 
primarily because of the geographic distances, the high costs, 
the need to pool resources in order to improve the quality of 
health care. We cannot have a hospital in every village, but we 
can have a clinic in every village. We can have regional sub-
clinics, regional hospitals, and our major hospitals.
    So we have tribal consortiums on that, we have tribal 
housing authorities for the same reason, to be able to handle 
the logistics and pool the resources to stretch them the 
furthest. We also have for-profit, our Native corporations 
under the ISDEAA, that are enabled to pass resolutions to 
authorize services for those who are not tribal members on 
that. Many of our people from our tribal communities move into 
the urban areas for health care. They move there for 
employment. They move there, maybe they marry or migrate, or 
there are job opportunities. Without the ability of the 
corporations to be considered an authorized service on that, 
they get left behind.
    So our goal is to have people working together to take the 
uniqueness in Alaska, both with our land claims settlement and 
our different institutions that we have developed, the 
relationships we have developed, stretch these valuable Federal 
resources as far as we can to produce results and be 
accountable. Thank you.
    Senator Murkowski. Thank you. I think that was a good 
explanation, and in a way that is understandable.
    So thank you, I appreciate that, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. First of all, thank you, 
Mr. Chairman and Ranking Member, for having this great 
conversation today.
    Let me start with Ms. Kitka. There is an area, maybe I will 
just open it up to the panel, that I have concerns about, and 
that is health access outside IHS. As you all know well, 
chronic underfunding of the Indian Health Services put 
accessible, quality health care out of reach of too many tribal 
nations and communities. We have fallen fall short of our 
treaty obligations to provide for the physical, mental, and 
spiritual health of Native Americans.
    I am hopeful that we will be able to put our attention 
toward moving that funding stream over to the permanent side of 
the ledger, which is a bipartisan [indiscernible] that has been 
in the works for years. I am also hopeful that we can put 
significant new resources into the Indian Health Service to 
build up a robust provider workforce and establish new points 
of access to care and upgrade old facilities.
    I also want to ensure that we are providing coverage to 
tribal members are not living in tribal lands. We have huge 
urban Native populations across the U.S., including in my State 
of Nevada. We should be leveraging other health programs like 
Medicaid and Medicare to ensure their needs are met.
    So I am going to open it up to the panel. Can you talk a 
bit about how difficult it can be to access health care outside 
of the Indian Health Service? How could we help to address 
these access issues? I hear it in my own State, and I am 
curious if any of you collaborate.
    Ms. Kitka. Through the Chair, Senator Cortez Masto, this is 
Julie Kitka. We have a tremendous Indian Health service system 
in Alaska. It is based on a feeder system with local clinics 
feeding all the way up to regional hospitals to a statewide 
hospital. It has been deliberately constructed that way to 
stretch resources and drive up the quality of care that is 
available to our people.
    There are also aspects of contract health care that can do 
it. There are many lessons we have learned during this pandemic 
that we would like to share with the Committee. So maybe at 
some time, there should be a hearing on lessons learned from 
the pandemic.
    But exercising this Federal medical partnership with the 
government that includes the military, that includes the 
Veterans Administration and others, is a way to stretch the 
resources. We share many things with the Veterans 
Administration to improve veterans health care for even non-
Alaska Native veterans. We share many things with the 
Department of Defense and the military, and this Federal 
medical partnership really should be explored by the Committee 
as a way to stretch resources, as well as to expand the 
contract support costs.
    We really need to put more resources into the tribal health 
care system, because they are being tapped to the limit during 
this pandemic. They are going in the hole as they close down on 
any of their non-emergency services, which they use to 
supplement some of their resources.
    I would be glad to drop in some recommendations to 
supplement the record specifically on your question if that 
would be helpful.
    Senator Cortez Masto. Thank you.
    Mr. Forsman. Senator Cortez Masto, real quick, we don't 
have a clinic in Suquamish yet, but we do have a health plan 
and we are self-insured. So we are able to provide health 
services to tribal members who live outside the reservation by 
issuing them a health plan card. They just go the doctor of 
their choice if they are in our provider network. It seems to 
be working.
    But we are in the process of building a clinic here on our 
reservation. On the other hand, the urban side, you know about 
the urban health clinics as well that have been able to meet 
some of that need. Thank you.
    Senator Cortez Masto. Anyone else?
    Ms. Sharp. Yes, Senator Cortez Masto, I so appreciate your 
question.
    First of all, it is good to see you, and I always 
appreciate the time I can work directly with you. I really 
appreciate the point you made recognizing the cultural and 
spiritual health of our Native peoples. I would like to respond 
by saying that accessing health care beyond IHS is so 
critically important for our tribal nations and our citizens. 
Because if you look at a western medicine way of making and 
delivering health care to our citizens, that falls so 
inadequately short of us meeting the needs of our community. 
Because our community relies, and has for centuries, on our 
traditional foods, our traditional medicines, and other ways of 
making our citizenry whole and healthy and vibrant.
    When you consider the impacts of climate change and the 
devastating impacts that has on actually some of our medicines 
disappearing, and our access to traditional foods disappearing, 
those are the sorts of things that I can hear that thought in 
your question, and I really appreciate that.
    So I think we have an opportunity in this period when we 
are looking at a comprehensive public health care recovering 
system that when it comes to this Country's indigenous peoples, 
that we look at the totality of health. Just simply western 
medicine is not enough. Thank you.
    Senator Cortez Masto. Thank you, Mr. Chairman.
    The Chairman. Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman.
    My first questions go to public safety. I would like to 
address them to President Sharp.
    One of the things we worked on diligently is the safety for 
missing indigenous women and children. One of the things I have 
tried to do is pass the Savanna's Act, which would ensure that 
the funding is there, and you mentioned that in your opening 
comments. I appreciate that very much.
    Also, you referenced another one of the bills that I have 
submitted as well, like Savanna's Act, along with the Chairman 
and Ranking Member. I want to thank you for your support of 
that legislation, and our continued efforts to build on it.
    What I want to turn to for just a minute though is that in 
during a Senate Indian Affairs Committee field hearing I held 
in North Dakota, one of the things that became very apparent is 
that we need more BIA law enforcement officers. We need them 
pretty much everywhere, but we certainly need them in the upper 
Midwest part of the State.
    So one of the things we did was secure $5 million to 
develop another training center that is being provided at 
Spirit Lake, or very near Spirit Lake Nation, in North Dakota, 
at Camp Grafton. I think it is really helpful, and will 
continue to be helpful, both to train BIA law enforcement 
officers, but also to recruit more. We badly need more. I am 
hoping to continue to get support for that effort from my 
colleagues on the Committee.
    But I would like to ask, President Sharp, do you believe 
that a lack of BIA law enforcement officers has a negative 
effect on crime on the reservations? Talk a little bit about 
how you think that getting more BIA enforcement officers out 
there could really make a difference.
    Ms. Sharp. Thank you, Senator. I really appreciate your 
question as well. You are absolutely right. If we had more law 
enforcement officers, we would have more coverage. I see 
reports that compare the number of officers per geography and 
population relative to our counterparts. That is another 
statistic that is alarming for Indian Country. We do not have 
parity with other jurisdictions for the number of officers.
    You add to that another factor, and that is the pay, the 
rate of pay of our officers relative to counterparts. When we 
invest in hiring law enforcement but we are not able to pay 
them in parity with our counterparts, we become a training 
ground. And that is all across Indian Country.
    So the limited dollars that we do have to invest in law 
enforcement, to just achieve minimum, baseline number of 
officers to patrol, they are underpaid. So they go through our 
system, they are paid to go to the State academies, and they 
are quickly recruited out. So it becomes a revolving door for 
Indian Country. Each time there is turnover, that is upwards of 
$30,000 from HR standards each time there is turnover.
    So you are absolutely right, we need to invest not only in 
the number of officers, but so as to avoid burnout and morale 
issues, equity pay. That would be a significant investment in 
Indian Country and go a long way to providing effective public 
health and safety for our citizens.
    Senator Hoeven. I agree with you. I think that was 
extremely well said. I hope that continues to generate more 
support for our efforts to get more BIA law enforcement 
officers, to retain them, to train them. I just think it is 
incredibly important. I think your comments were spot on.
    I would ask any of the other witnesses if they would like 
to weigh in on this as well, and I hope express the importance 
of this as a real priority for Indian Country.
    Ms. Kitka. Mr. Chairman, this is Julie Kitka. I would like 
to respond when it is appropriate.
    The Chairman. Please do. You are very polite. Go ahead.
    Ms. Kitka. Thank you, Mr. Chairman, and thank you, Senator. 
That is a crucial question on public safety. In the last 
Administration, we had a visit by U.S. Attorney General Barr to 
Alaska. It was precipitated by two young people that died that 
had been incarcerated in the village lockdown facility for 
disorderly conduct and drinking, locked up for their safety and 
the community's safety, perished in a fire. It was a really 
tragic thing for our community.
    Attorney General Barr came up on a village trip to see what 
was going on. As a result of his touring our villages and what 
public safety capability and facilities we had, he declared a 
rural public safety emergency in Alaska. As a result of his and 
the Department's team on that, they were to redirect some 
resources, a significant amount of resources, to address some 
of the concerns.
    But I will raise one thing that didn't get done as a result 
of this visit, and further follow-up discussions on public 
safety. We have almost 70 villages that have zero public safety 
on the ground at all, State, Federal, anything. One of the 
things that he asked for was a legal tool to do compacting in 
Department of Justice. We told him we can't have a public 
safety system that is based on grants, and how well somebody 
can apply for a grant in order to do that. We need to have a 
reliable source, an efficient funding mechanism that can push 
the Department of Justice out.
    He asked for the legal tools to be able to compact, and 
asked for an ability for his team to get those tools. So if 
there is some focus that can be done on that as well as Senator 
Murkowski has introduced a bill that deals with jurisdiction, a 
pilot project on that, we think that would be really helpful. 
We are very grateful for Savanna's Act, and the Not Invisible 
Act. We think that we are making progress. But public safety is 
a huge issue for us. We would even venture to say, there is a 
nexus between public safety and national security, at least in 
Alaska. Thank you.
    Senator Hoeven. Thank you, Ms. Kitka. I think that is very 
well said and much appreciated.
    Thank you, Mr. Chairman.
    The Chairman. Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you, Mr. Chair and Vice Chair. I am so 
glad to have a chance to be with all of you today to talk about 
priorities for Native American and Alaska Native and Native 
Hawaiian people as we think about this next legislative year. I 
am filled with optimism for what it is that we can accomplish 
together. So thank you for taking the time to speak with us.
    I want to first associate myself with the comments that 
Senator Hoeven made about missing and murdered indigenous 
people. This is an issue of great importance to us in 
Minnesota. I am really proud of the state-led efforts that we 
have in Minnesota, and really look forward to being able to 
make headway on this at the Federal level also.
    But I want to dive into a little bit the question about 
health, particularly mental health. Even before COVID-19, we 
knew that we had deep struggles everywhere in our Country with 
the unmet need for people to have access to mental and 
behavioral health care, regardless of where you live. Of 
course, this is a particular challenge for everyone.
    I have had many conversations with Native people in 
Minnesota about it, and tribal leaders as well as urban 
indigenous folks about what we need to do. There are great 
examples of things that are working in Minnesota that are 
really rooted in developing strategies focused on helping 
people deal with historic trauma in their communities and their 
own mental health, and really rooted in cultural and 
traditional values.
    So we know we have significant needs, we know there is a 
lot we need to do. One of the big issues, of course, is 
resources. I would like to hear your advice to us as we are 
thinking about how to best tackle this need for improved access 
to mental and behavioral health both in tribal lands as well as 
in the urban indigenous communities, and what you would advise 
us to think about as we tackle this.
    Maybe we could start with President Sharp.
    Ms. Sharp. That is excellent, thank you, Senator Smith, for 
that question.
    I think probably one of the singular most important things 
you can do to help us to achieve the goals that you have 
outlined would be to ensure that tribal nations have the 
maximum flexibility. One, that we have the resources. As I said 
in some of my remarks, the $20 billion government set-aside 
that we are seeking should be viewed as a floor.
    And to your question about mental health and the ability 
for us to apply our culture, our tradition, our traditional 
foods as I mentioned, having the ability to determine as we see 
fit, as we build both a public health care recovery plan and an 
economic recovery plan, we have very creative thoughts about 
that all across Indian Country. If just those two things are 
secure for us, we can achieve many of the goals and objectives 
that we have outlined.
    Senator Smith. Thank you.
    It is exactly getting at that issue of flexibility and 
funding which is the idea behind my bill to create a special 
behavioral health program within the Indian Health Service that 
would create that flexibility. So I thank you for that.
    Would anyone else like to comment on this need, and how you 
see this, what we can do, what we need to do as we think about 
this?
    Ms. Kitka. This is Julie Kitka. I would be glad to answer 
that one.
    Senator Smith. Thank you, Julie.
    Ms. Kitka. We have recognized the need for behavioral 
health for some time on that. We do trend analysis of causes of 
death and causes of illness. We saw a shift a number of years 
ago from contagious disease, and this is all before the 
pandemic occurred, obviously. Before the pandemic occurred, 
many of the health needs for our people were behavioral issues. 
Whether it was suicide, whether it was mental health needs, it 
was behavioral in nature as opposed to contagions or diseases 
going through.
    We have a model in Alaska, we have a health aid model in 
our villages on that. But we also set up what is called a 
behavioral health aid model, which was intended to get exactly 
at the root causes of this. I would say building off that model 
or inviting them to share their latest work that they have 
done, but also realize, as President Sharp said before, a lot 
of this stuff is viewed holistically from the Native community. 
We need to have food security. We need to have culture 
security. We need to have respect. We need to make sure that 
there is equity among Native Americans in that we have help 
dealing with the discrimination and some of the racial issues 
that go with it.
    So holistically attacking all those together, using the 
strength of our culture to heal our own people. As I said, we 
would be glad to supplement that with written testimony. But we 
have a behavioral health aid model which is really functioning 
well.
    Senator Smith. Thank you. That is very helpful. I am 
thinking about the many conversations I have had with Biden and 
Harris appointees about the issues around the social 
determinants of health, both mental health and physical health, 
and how food security, housing security, addressing issues of 
systemic racism and historic trauma all feed into overall 
health as well as education and economic issues also.
    I hope that as we think about that here in this Committee 
we will be able to take that holistic approach. Thank you so 
much.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
holding this important hearing, and thanks to the Vice Chair. I 
am so proud of two of the witnesses who are playing national 
roles for our Country, President of the National Congress of 
American Indians, Fawn Sharp, and the President of the 
Affiliated Tribes of the Northwest, the Honorable Leonard 
Forsman. It is so great to be with them. I think you can 
already see why they are leading those organizations, because 
of their advocacy and articulation of the challenges Indian 
Country.
    I wanted to follow up, if I could, it is great to see both 
of you virtually. I am pretty sure broadband is on the list, 
because I can hear some latency. I don't know, President Sharp, 
if you are out at Quinault today, or not. But it as far as you 
can get, unless you want to get into the Pacific and go out to 
sea, our Chairman.
    But I wanted to ask about Carcieri. We have not made a 
Carcieri fix. I feel like even though we are here talking about 
land and talking about the economic challenges of COVID-19, I 
am pretty sure once we get out of COVID-19, we are going to 
say, we need a Carcieri fix. So if you could comment on that.
    The other issues is, one of the things we do need to do as 
far as this next COVID-19 package, in my opinion, is fix the 
inequity between the urban Indian health clinics and the fact 
that they don't get full FMAP funding. An actual Indian-run 
institution, Indian hospital does. But not the urban situation 
where we serve both Alaska population and many Washingtonian 
members of various tribes as well.
    So if you could comment, anybody comment, on those two 
issues.
    Ms. Sharp. Thank you, Senator. I will take the first 
question, with respect to Carcieri. First of all, it is good to 
see you, even if it is virtually. I am here at Quinault, and 
all my kids are off from school right now, so we can have 
coverage. Thank you for pointing out the broadband challenges.
    With respect to Carcieri, I just want to briefly say that 
when that decision was hot off the press, it hadn't even been a 
day or two from the time the U.S. Supreme Court issued 
Carcieri, that a tribal elder in my community who had been on 
our council for many years, understood just reading the text of 
what that case would do to all of Indian Country. So we need to 
move to ensure that we have a clear fix, so that all federally 
recognized tribes can take land into trust. Until there is a 
clear fix, it is going to be fertile ground for the types of 
lawsuits and the delays that we have witnessed.
    So we need to ensure two things. One, that every federally 
recognized tribe has that opportunity, but also that those 
right now that are designated as trust lands are intact and are 
not compromised. That would go a long way to stabilize tribal 
nations, to build their governments, to build their economies, 
to deliver services.
    So that is a critically important part of the Federal trust 
responsibility. I so appreciate your raising that question. 
Thank you.
    Mr. Forsman. Senator Cantwell, as far as the support of 
Indian health clinics, urban Indian health clinics, it is very 
important to Affiliated Tribes as well as the Suquamish Tribe. 
Any way we can support them to do outreach to large Native 
communities that are in urban areas, especially Seattle, the 
namesake of our chief. There is a number of American Indians 
and Alaska Natives that live there and rely on those services 
as a result of the relocation programs of the 1950s that the 
government implemented.
    Also a lack of economic opportunity potentially at their 
own reservations makes people move to these other economies. We 
really believe that is important for the health of those 
communities, their spiritual and cultural health. It is also 
important for the cities across the Nation which have Indian 
populations, so they will be healthy and contributing.
    Senator Cantwell. This is like a head scratcher. I don't 
know if this is just a technical glitch, but if we are 
basically saying, the reason why we fully support at 100 
percent the funding for tribal members on this health care is 
because we have a trust responsibility, I don't see a 
difference in the trust responsibility we have, whether it is 
delivered at a hospital in Montana or whether it is delivered 
at the Seattle Indian health port. It is the same to me, it is 
the same population, it is the same responsibility.
    So I think somebody is shortchanging us. I hope we can 
address this. Thank you.
    The Chairman. Senator Lujan.

               STATEMENT OF HON. BEN RAY LUJAN, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Lujan. Thank you so much, Mr. Chairman. And to our 
Vice Chair Murkowski, it is an honor to be with both of you and 
to be a part of this hearing.
    It is good to see some leaders that I have had the honor of 
getting to know throughout the years. To the Honorable 
President Sharp, it is an honor to see you. To our friend and 
President Forsman, good to see you, sir. And to the Honorable 
Chair Carmen ``Hulu'' Lindsey, I have not had the honor to meet 
you in person but I look forward to that. And also Julie Kitka, 
it has been an honor to learn from you throughout the years.
    I am Ben Ray Lujan, a new member of the Senate from New 
Mexico, and a proud new member of the Indian Affairs Committee.
    Ms. Sharp, I will jump right into some of the questions 
that I have. This comes with your leadership responsibilities 
at NCAI. I was visiting with one of the pueblos and tribes that 
I am so honored to represent. They were sharing with me some of 
the concerns and barriers that exist when it comes to 
infrastructure and some of the challenges that they faced with 
CARES Act funding, with not being able to secure easements and 
get approvals with easements through the Bureau of Indian 
Affairs, and also through the Federal government.
    Is this an issue that NCAI is familiar with, with the 
members that you are honored to represent?
    Ms. Sharp. Yes, absolutely. And these are challenges, when 
we have to engage in broad planning for delivering services or 
even building our economies, having security in knowing that we 
have rules that are predictable, that are timely, and 
regulations that we can rely on. Those are the sorts of 
questions that impede creating a climate of business certainty, 
a climate of being able to effectively, to strategically plan. 
When we have things like the property interests that you raise 
as a significant question, it provides another layer and 
another barrier in our inability to engage in commercial 
relationships, our inability to effectively deliver 
governmental services.
    So yes, we are very keenly aware of those types of barriers 
on the ground with respect to not just tribes in our region but 
all across the Country, those are challenges.
    Senator Lujan. Mr. Chairman, as you are aware, the Indian 
Health Service has recently identified a $2.56 billion backlog 
in projects that would provide tribal communities with access 
to potable water and wastewater. Looking at some of these 
barriers that exist with lack of coordination from Federal 
agencies and approval, I know it is slowing people down.
    President Forsman, one of the questions that I have for 
you, sir, is the importance of access to broadband and making 
sure that we are connecting communities. Can you speak to the 
importance of the program now at NTIA which is the Tribal 
Broadband Connectivity Program, and the importance of making 
sure that we have an FCC that is functioning and also that we 
have a strong NTIA program that will deploy broadband to tribal 
communities?
    Mr. Forsman. Thank you for that question, Senator Lujan, 
and I appreciate all the work you did in the House on behalf of 
Indian Country, and I look forward to your work here in the 
Senate. Hello from Suquamish.
    This is crucial, of course, not only for our governments to 
operate, and for us to be able to participate in this virtual 
platform, but also, as we all know, for schools, for tele-
health and for communication, for homebound elders, et cetera. 
One thing we find is that there is a lot of variety throughout 
Indian Country, as you know. There are some places that are 
severely underserved, and then there are other places that may 
have partially good service, and poor service in other places.
    So we need to really look at existing providers that we 
have, corporate providers and the public providers. There is a 
lot of dispute between those two entities sometimes on our 
reservations, where we want to go ahead and put appropriate 
infrastructure in, and we run into these issues. There are a 
lot of anecdotes that I can share with you another time 
regarding some specific service issues that we have.
    Senator Lujan. The last question that I have, to President 
Sharp, is would an extra $3,000 to $3,600 a year to the child 
tax credit be something significant through your eyes for 
Native American families who are trying to support their 
children and families during this pandemic?
    Ms. Sharp. Yes, absolutely. And I appreciate your 
recognizing the vulnerability of our individual citizens. That 
would absolutely provide, I know, a relief at a time when they 
need it the most. It would provide immediate relief. Because 
many of our families are just this far away from falling into 
further economic demise, but to some of the questions earlier 
raised, their mental health. Right now, our citizens are on the 
brink. Many of our citizens have been suffering for a long 
time. It is exhausting.
    And any relief like that would make a significant 
difference to provide some immediate relief. It would go a long 
way.
    Senator Lujan. Thank you so much.
    Mr. Chairman, thank you for the time today. And to all of 
our leaders who are here before us, it is truly an honor to be 
here with you. I look forward to working with you and learning 
from you.
    Thank you so very much. I yield back.
    The Chairman. I want to thank all of the testifiers. I want 
to extend a special mahalo to Chair Lindsey for her testimony. 
I want to thank our Vice Chair and all of the members for 
participating.
    If there are no further questions for our witnesses, 
members may submit follow-up questions for the record.
    The hearing record is normally open for two weeks, but 
pursuant to Ms. Kitka's request, without objection, we will 
keep the hearing record open for four weeks. I want to thank 
all of the witnesses for their time and their testimony today.
    This hearing is adjourned.
    [Whereupon, at 3:56 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. Timothy Nuvangyaoma, Chairman, Hopi Tribe
    Greetings Chairman Schatz, Vice Chair Murkowski, and Honorable 
Members of the Senate Committee on Indian Affairs (``Committee''). My 
name is Timothy Nuvangyaoma and I have the honor of serving as Chairman 
of the Hopi Tribe (``Tribe''). I would like to thank you for the 
opportunity to provide testimony regarding the Tribe's priorities for 
the 117th Congress.
    My testimony will focus on the urgent need to fully implement the 
1996 Navajo-Hopi Land Dispute Settlement Act and the devastating impact 
that the closure of the Navajo Generating Station has had on the Hopi 
people. I hope to impress upon you the importance of living up to the 
promise made to the Hopi Tribe in the 1996 Navajo-Hopi Land Dispute 
Settlement Act and why fulfilling this promise is the simplest way to 
help the Tribe mitigate the immense economic harm it is suffering in 
the wake of the closure of the Navajo Generating Station.
    The Hopi Reservation, located in the northeast corner of Arizona, 
includes more than 1.5 million acres. The Tribe has over 14,000 
enrolled tribal citizens, over half of whom reside in the Reservation's 
12 villages. The residents of the Reservation suffer from a 60 percent 
unemployment rate due, in part, to the lack of economic development 
opportunities caused by the remote and landlocked nature of the 
Reservation.
    This dire situation was exacerbated by the closure of the Navajo 
Generating Station (NGS) in November 2019, and the ongoing COVID-19 
pandemic. However, the resources already provided by Congress to help 
Indian Country address the pandemic, if combined with Congressional 
assistance to implement the 1996 Settlement as well as aid to 
transition from the NGS's closure, could drastically improve the lives 
of the Hopi people.
Implementation of the 1996 Settlement Act
    Twenty-five years have passed since the enactment of the Navajo-
Hopi Land Dispute Settlement Act of 1996 (``1996 Settlement''), yet the 
Hopi Tribe has still not received the full value and benefit Office of 
the Chairman P.O. Box 123, Kykotsmovi, AZ 86039 (928) 734-3000 that we 
were promised in the settlement. The 1996 Settlement arose from the 
illegal trespass and possession of Hopi lands by Navajo tribal 
citizens. The Hopi Tribe later settled its claims against the federal 
government and granted long-term leases to the Navajo trespassers to 
relieve the federal government of its obligation to remove them. The 
Tribe fulfilled its obligation under the 1996 Settlement decades ago, 
but the federal government has not.
    The 1996 Settlement obligates the federal government to accept 
500,000 acres of land in trust for the Hopi Tribe, including private 
land purchased by the Hopi Tribe on the open market and State trust 
land that is interspersed with such private lands. In the case of the 
interspersed State trust land, the State of Arizona is required to 
concur in the United States' condemnation of the land before it can be 
taken into federal trust status. Although the State of Arizona 
supported the 1996 Settlement, that provision has frustrated the 
Tribe's attempts to realize the benefit it should have received under 
the Settlement Act.
    Despite our best efforts, the State of Arizona has refused to 
concur in the condemnation of any lands. To date, there are 
approximately 144,000 acres of interspersed State trust land awaiting 
condemnation because of the State's refusal to concur with the 
condemnation. The State trust land makes it incredibly difficult for 
the Hopi Tribe to develop its own trust lands. Nevertheless, the 
federal government still has a role to play in upholding the 
commitments it made in the 1996 Settlement. While the Hopi Tribe 
continues its efforts to engage the State of Arizona, we have worked 
with our Congressional delegation on potential legislation that would 
allow us to fully benefit from the 1996 Settlement, as have the Navajo 
Nation and federal government.
    In 2017, Senator McCain acknowledged that ``Congress may need to 
pass legislation that establishes an alternative land acquisition 
process to the condemnation method prescribed under the 1996 Act.'' \1\ 
A federal land exchange could be the solution that brings the Arizona 
State Land Commissioner to the negotiating table. If the federal 
government provided the State with federal land of equal value to the 
144,000 acres of State trust land subject to the 1996 Settlement, the 
State may agree to allow the Hopi Tribe to finally take the settlement 
land into trust.
---------------------------------------------------------------------------
    \1\ Letter from Senator McCain to the Hopi Tribe re: 1996 
Settlement Act (November 28, 2017).
---------------------------------------------------------------------------
    As former Principal Deputy Secretary Indian Affairs Lawrence 
Roberts stated in 2016, ``the full implementation of the Settlement Act 
will benefit the Tribe, the United States, and the State.'' \2\ 
Additionally, it would allow the State, the Northern Arizona Region, 
Coconino County, and the Hopi Tribe to continue to move forward as 
friends and neighbors and economic partners so that we can all prosper 
together. This fact is evidenced by a 2018 joint letter from the Hopi 
Tribe and the Coconino County Board of Supervisors that states ``[i]t 
isn't just good policy for the State and federal government to work 
towards fulfilling the promises in the Settlement Act, it will also 
help Northern Arizona and its economic development.'' \3\ 
Implementation of the 1996 Settlement is desperately needed as the 
Tribe, and Northern Arizona, deals with the closure of the Navajo 
Generating Station.
---------------------------------------------------------------------------
    \2\ Letter from Principal Deputy Assistant Secretary-Indian Affairs 
Roberts to Arizona Land Commissioner Atkins re: 1996 Settlement Act 
(December 22, 2016).
    \3\ Letter from the Hopi Tribe & Coconino County to Arizona 
Governor Ducey & Arizona Land Commissioner Atkins re: Support of Hopi 
Land Settlement & Meeting Request. (June 6, 2018).
---------------------------------------------------------------------------
Transition from Navajo Generating Station
    The Tribe entered the COVID-19 pandemic on the heels of the closure 
of the Navajo Generating Station (NGS), which was the largest coal-
fired power plant in the western United States. While it was partially-
owned by the federal government, in November 2019, the other owners of 
the NGS--Salt River Project, Arizona Public Service Co., Tucson 
Electric Power Co., and NV Energy--decided to close the plant, citing 
``rapidly changing economics of the energy industry,'' including 
continued low prices for natural gas.
    Construction of the NGS began in 1969 to help provide a reliable 
power source to the growing Arizona population. The plant was also 
meant to provide a power source to pump water to the Central Arizona 
Project (CAP), which delivers water from the Colorado River to southern 
Arizona. The plant, which began operating in 1974, generated power for 
major cities, including Phoenix, AZ; Tucson, AZ; Las Vegas, NV; and Los 
Angeles, CA.
    The NGS was powered by coal from the Kayenta Mine through lease 
agreements with the Hopi Tribe and the Navajo Nation. The NGS was the 
sole customer for coal from the Kayenta Mine because it was the only 
place that the mine was linked to by rail. The federal government owned 
a 24 percent stake in the NGS through the Bureau of Reclamation due to 
its interest in the delivery of water through the CAP.
    The revenues generated from the NGS and Kayenta Mine operations 
provided approximately 80 percent of the Tribe's general fund budget. 
These funds were vital to the Tribe's ability to supplement 
insufficient federal funds to be able to provide essential government 
services to our citizens. While the NGS closure is causing great 
hardship on the Tribe's economy, the Hopi Tribe looks forward to 
working with this Committee on transitioning to a renewable energy 
economy. We urge this Committee not to leave Indian Country behind as 
the nation marches forward.
    In closing, I would like to thank the Committee once again for the 
opportunity to share our priorities for the 117th Congress. We look 
forward to providing updates and working with the Committee on these 
matters.
                                 ______
                                 
   Prepared Statement of Carol Wild Scott, Esq., Legislative Chair, 
       Veterans and Military Law Section, Federal Bar Association
    Dear Sir and Madam,
    The Veterans and Military Law Section of the Federal Bar 
Association hereby submits a Statement for the Record addressing the 
need for inclusion of the issue of the need for full accreditation of 
Tribal Veterans Service Officers (TVSOs) in the list of priorities for 
the Committee for the 117th Congress. The views herein expressed 
reflect those of the Veterans & Military Law Section of the Federal Bar 
Association and not necessarily those of the entire Federal Bar 
Association.
    American Indians, Alaska Natives, Native Hawaiian and Pacific 
Islanders--Indigenous peoples--serve this country in the armed forces 
to a far greater degree than any other ethnic group. They have done so 
since the earliest days of our democracy. Regardless of the extent of 
their service, they have historically, continuing to the present, 
received far, far less in benefits than any other ethnic group.
    There are several reasons for this. Many tribal communities are 
located in highly rural areas, far from any urban center. Cultural 
isolation is also a contributing factor; indigenous people have a high 
degree of distrust of the federal government in any shape or form. Of 
over 440 treaties between indigenous people and the federal government, 
every one has been violated; land and resources taken, whole cultures 
relocated, and languages and culture suppressed. national Veterans 
Service Organizations (VSOs), which depend on membership dues and 
donations for their existence do not reach out to Native veterans, who 
are largely unable to pay dues. A significant number of Native veterans 
return to communities with unemployment as high as 90 percent.
    Additionally, despite the formation of the Department of Veterans 
Affairs (VA) Office of Tribal Government Relations (OTGR) under the 
Obama administration, there has been little or no movement to encourage 
or allow full accreditation of TVSO advocates. Tribal Veterans 
Representatives (TVRs) were trained in regulations, how to gather 
information for claims, etc., but were not taught anything about 
advocacy (because of the potential for conflicts of interest); only to 
transmit information to someone at the regional office who held the 
power of attorney and filed the claim. . Several years ago, the TVR 
training program was introduced in VA. If the claim was denied, it was 
rarely if ever appealed. The veteran was told that the decision on the 
claim was what the government chose to grant. There is also a high 
level of racism in regional offices in whose jurisdiction are located 
reservations and tribal communities. As one reservation veteran told 
me, the address made your ethnicity pretty clear.
    The list of reasons why there should be accreditation begins with 
cultural competence and trust in a TVSO, who is almost always a veteran 
and an integral part of the tribal community. TVSOs, as part of the 
community understand the needs of the veterans, are acquainted with the 
veterans' extended families, and are able to incorporate into claims 
the accurate specifics of each individual veteran's situation, 
including trying to ensure cultural competence in mental health 
assessment and treatment. To a far greater extent than with national 
VSOs, TVSOs are the gateway to health care, housing loans, educational 
programs, adaptive housing and special needs--virtually every program 
available to all veterans everywhere.
    Full accreditation was discussed in meetings of the National 
Congress of American Indians (NCAI) Veterans Committee meetings as far 
back as 2011. Tribal governments began asking for it at about the same 
time. By 2013, several tribal entities had communicated to VA the need 
for full accreditation of TVSOs. Senators Tester and Udall wrote the 
Secretary arguing that accreditation was essential for cultural and 
accessibility reasons. It was ignored.
    Finally, in 2016, after a wholly inadequate tribal consultation, a 
proposed rule was promulgated by VA Office of General Counsel (OGC) to 
amend 38 C.F.R. Chapt. 14.626-629 to provide for the recognition of 
``Tribal Veterans Organizations. `` It was abundantly clear that OGC 
had not consulted with any expert on Indian Sovereignty Law, nor with 
Bureau of Indian Affairs (BIA), nor with Department of Justice (DOJ) or 
with VA's OTGR. It was apparent that OGC had no intention other than to 
require that Tribal communities form themselves into mini-DAVs by 
forming ``Tribal Veterans' Organizations.'' This is a term invented by 
VA OGC and without meaning otherwise. The rule also provided that 
accreditation could be sought through a state, although not all states 
have offices of veterans' affairs that prosecute claims before the VA.
    The process of issuing a proposed rule for comment prior to the 
publication of the final rule is to permit input of information and 
discussion by individuals or entities such as the Veterans & Military 
Law Section of the Federal Bar Association. There were a number of 
comments submitted in response to the proposed rule, including one from 
the Veterans & Military Law Section of the Federal Bar Association. In 
the commentary for the Final Rule, published in January, 2016, not a 
single comment or content thereof was found meritorious by OGC. The 
Final Rule mirrored the Proposed Rule. As far as is known, to date 
three Tribal Communities have applied for accreditation. None have been 
approved. The provisions in the Final Rule make it literally impossible 
for accreditation of individual TVSOs from individual tribal 
communities to occur. The Confederated Tribes of the Umatilla 
Reservation (CTUIR) in Oregon have tried three times to no avail. It is 
clear that the only solution is a legislative fix.
    The economic impact of veterans' benefits cannot be understated. A 
veteran with 100 percent disability, over the course of his/her 
lifetime, with a full suite of benefits, access to programs and health 
care brings into the tribal community in excess of $1 million. In one 
tribe in Oklahoma the TVSO, who after a lengthy effort was accredited 
through the state, brought into his community in excess of $16M over 
the course of fourteen years. There are VA programs in education, 
vocational rehabilitation, housing loans and housing/adaptive housing, 
health care (including the Caretaker Program which provides a stipend 
to a family caretaker), life insurance and others, about which many 
Indigenous veterans remain uninformed. There are considerable funds 
involved with all of these which, without fully accredited TVSOs to 
educate the veterans and provide full representation, are being left on 
the table.
    The Veterans & Military Law Section, through its Legislative 
Committee (now the Veterans Affairs Committee) began this quest years 
ago. It has taken a long time for the issue to reach fruition and to be 
recognized by the leadership of SVAC and HVAC. That the ABA has offered 
significant support through Resolution #110 is highly encouraging. We 
hope that the Senate Committee on Indian Affairs will add this issue to 
the list of essential issues for the 117TH Congress.
                                 ______
                                 
         Prepared Statement of the Seattle Indian Health Board
    Dear Chairperson Schatz and Vice Chairperson Murkowski:
    Seattle Indian Health Board (SIHB) would like to thank you and the 
Senate Committee on Indian Affairs for holding this Oversight Hearing. 
We appreciate the opportunity to provide written comments on our 117th 
Congressional priorities. These comments and recommendations are based 
on our experiences as an Urban Indian Health Program (UIHP) and 
national Tribal Epidemiology Center (TEC) serving urban Indian 
communities nationwide.
Healthcare Informed by Indigenous Knowledge
    SIHB ensures the health and well-being of urban American Indian and 
Alaska Native communities by providing culturally attuned health and 
human services, conducting data research through our research division 
the Urban Indian Health Institute (UIHI), and collaborating with 
tribal, community, and federal partners on policy and advocacy issues 
that impact urban Indian communities.
    We are one of 41 UIHPs that assist the federal government in 
fulfilling your trust responsibility to provide healthcare for the 
American Indian and Alaska Native citizens living in urban areas. UIHPs 
are a critical component of the Indian healthcare system and offer 
culturally attuned health services to the 2.2 million American Indians 
and Alaska Natives who live in 115 counties across 24 states. Alongside 
our tribal health partners and Indian Health Service (IHS) Direct 
facilities, we are tasked with offering healthcare services to the 5.2 
million American Indian and Alaska Native people nationwide.
    We are also home to an IHS designated Tribal Epidemiology Center 
(TEC) and public health authority--the Urban Indian Health Institute 
(UIHI). UIHI conducts data, research, and evaluation services for over 
62 urban Indian organizations nationwide. These health, social, and 
cultural service agencies provide culturally attuned health services to 
urban Indian communities. Of the twelve TECs nationwide, UIHI is the 
only one with a national purview; the other eleven operate regionally, 
serving tribal nations.
    As an Indigenous organization, we are guided by our traditional 
beliefs and practices, giving us a unique organizational approach based 
in Indigenous knowledge that we define as Indigenous Knowledge Informed 
Systems of Care. This allows us to approach all aspects of our 
organization through a holistic system of care. By creating a 
healthcare system that is centered on the patient and driven by 
Traditional Indian Medicine, we build on our resilience and healthier 
communities. Our Indigenous Knowledge Informed Systems of Care approach 
guides our policy advocacy, data research, workforce development, and 
health and human services to create an environment anchored in 
tradition, that empowers our community to walk in a culture of 
wellness.
    In response to the Oversight Hearing, we submit the following 117th 
Congressional priorities to the committee. These requests will begin to 
address the chronic underfunding of trust and treaty obligations to 
American Indian and Alaska Native people living in urban areas.
1. Authorize Advance Appropriations for Indian Health Service (IHS)
    We request Congress authorize advance appropriations for the IHS to 
honor the trust and treaty obligations to American Indian and Alaska 
Native citizens and address the negative impacts of government 
shutdowns on healthcare delivery. It is well documented that the IHS 
does not receive funding parity with other discretionary or mandatory 
federal health care programs such as the Veterans Health 
Administration, Medicaid, and Medicare. As a result, government 
shutdowns are threatening the health and wellness of the American 
Indian and Alaska Native communities across the Indian healthcare 
system.
2. Appropriate $200.5 million for Urban Indian Health Programs
    To address the chronic underfunding of the federal trust 
responsibility, SIHB supports Northwest Portland Area Indian Health 
Board's (NPAIHB) Budget Formulation FY22 Appropriations request of 
$200.5 million for Urban Indian Health Programs. This funding 
methodology uses a ten-year full funding formula that accounts for and 
is responsive to the health needs of our entire American Indian and 
Alaska Native community. This request begins to address the recent 
expansion of the Urban Indian Health Program to 41 locations, overdue 
investments in infrastructure, and healthcare inflation. Nearly 2.2 
million urban American Indians and Alaska Natives, living in 115 
counties, would benefit from this Appropriations request.
3. Appropriate $24 million to the 12 IHS Tribal Epidemiology Centers
    We request a baseline appropriation of $24 million to the 12 IHS 
Tribal Epidemiology Centers. Tribal Epidemiology Centers provide 
epidemiology and public health functions critical to the delivery of 
healthcare services for the Indian healthcare system and are authorized 
public health authorities for urban Indian communities and tribal 
communities within their service areas. Tribal Epidemiology Centers 
remain woefully underfunded despite marked success and un-replicated 
services, receiving an average award of $422,000 a year from IHS.
    Increasing funding to $24 million would allow Tribal Epidemiology 
Centers to conduct the culturally attuned research needed to identify 
the root causes of health disparities and to perform their core 
functions as defined in 25 USC <l-arrow> 1621m. The COVID-19 pandemic 
has revealed that despite being chronically underfunded, Tribal 
Epidemiology Centers play a critical role in publishing public health 
reports, developing public health toolkits for UIHPs, and developing 
culturally relevant vaccine hesitancy campaigns for Native communities. 
In addition, they are uniquely positioned to address data challenges 
surrounding COVID-19 and the Missing and Murdered Indigenous Women and 
Girls crisis by developing best practices for collecting race, 
ethnicity, and tribal affiliation and developing guidelines around 
Indigenous Data Sovereignty practices. There are twelve Tribal 
Epidemiology Centers nationwide with a service population of 5.5 
million American Indians and Alaska Natives.
4. Create an Urban Confer policy across the United States Health and 
        Human 
        Services Department (HHS)
    To ensure trust and treaty obligations are upheld to all American 
Indian and Alaska Native citizens, we request the development of an 
Urban Confer policy across all agencies and departments within HHS 
jurisdiction. The federal government has an obligation to consult with 
Tribal Nations on issues that impact tribal communities. In the Indian 
healthcare system, UIHPs have an Urban Confer mechanism with the IHS 
that provides an opportunity for an exchange of information and 
opinions that lead to mutual understanding and emphasize trust, 
respect, and shared responsibility between UIHPs and government 
agencies. Urban Confer policies do not substitute for nor invoke the 
rights of a Tribe as a sovereign nation. UIHP inclusion is to advocate 
for the urban Indian community as an Indian Health Care Provider and 
part of the Indian healthcare system.
    The importance of an Urban Confer was made evident in the COVID-19 
supplemental resources from Congress. Without an Urban Confer policy, 
HHS agencies outside of IHS had no formal mechanism for gathering 
feedback from urban Indian organizations and vice versa. As a result, 
submitting feedback to Health Resource Service Administration (HRSA), 
Substance Abuse and Mental Health Services Administration (SAMHSA), and 
the Centers for Disease Control and Prevention (CDC) was a significant 
barrier to accessing COVID-19 supplemental resources for urban Indian 
organizations. The CDC created a funding opportunity for 11 of the 12 
Tribal Epidemiology Centers by selecting a grant mechanism that failed 
to include urban Indian organizations as eligible entities. Errors like 
these leave urban Indian organizations without access to federal 
resources, despite Congressional intent.
5. Extend 100 percent Federal Medical Assistance Percentage (FMAP) to 
        Urban 
        Indian Organizations (UIOs)
    Amending 1905(b) of the Social Security Act to include UIOs would 
help fulfill the federal trust and treaty obligations to pay for health 
services for all American Indians and Alaska Natives regardless of 
where they reside. UIOs receive less than 1 percent of the IHS budget. 
Yet over 71 percent of American Indian and Alaska Native people live in 
urban areas. Seattle Indian Health Board, and many serve a growing 
number of urban American Indian and Alaska Native people. UIOs are the 
only part of the Indian healthcare system that are not 100 percent FMAP 
payment eligible despite being Indian Health Providers stipulated in 
Title V in the Indian Health Care Improvement Act (IHCIA), now 
Subchapter IV of the IHCIA as amended by the Affordable Care Act (ACA) 
in 2010.
6. Improve Data Access for Tribal Epidemiology Centers
    SIHB and UIHI are committed to understanding the impacts of COVID-
19 in urban American Indian and Alaska Native communities. As a TEC and 
public health authority, UIHI supports the epidemiological needs of 
urban Indian communities in 54 urban areas nationwide. Despite 
congressional authorization to access HHS data as a public health 
authority, UIHI was recently denied access to the National Notifiable 
Disease Surveillance System (NNDSS) by CDC. A failure to grant data 
access perpetuates systemic health inequities in American Indian and 
Alaska Native communities. Timely analysis of NNDSS data is critical to 
supporting tribal and urban Indian organizations as they prevent, 
prepare, and respond to a second surge of COVID-19. TECs are best 
positioned to advise and lead the appropriate collection and analysis 
of American Indian and Alaska Native data. To fully operate as public 
health authorities alongside local, state, and federal entities, the 
roles and authorities of TECs must be upheld. We ask for continued 
oversight of federal agencies to ensure compliance and timely access to 
HHS public health data and improvements to the collection, analysis, 
and reporting of American Indian and Alaska Native data.
7. Permanently Reauthorize the Special Diabetes Program for Indians 
        (SDPI)
    Type 2 diabetes is more prevalent in American Indian and Alaska 
Native people than in any other race and is two times higher than that 
of non-Hispanic White people. Since 1996, the SDPI has proven to be an 
inexpensive and highly cost-saving measure of diabetes care and 
prevention. The SDPI program has saved millions of Medicaid dollars 
through prevention and management of diabetes and associated health 
problems such as hypertension, cardiovascular disease, retinopathy, 
neuropathy, and end-stage renal disease. SIHB requests that the SDPI 
program to be permanently reauthorized and fully funded to ensure that 
all American Indian and Alaska Native people have access to culturally 
attuned chronic disease prevention and management services.
8. Extending Indian Preference for Housing Assistance
    The federal government has a federal trust responsibility to 
provide affordable housing in partnership with Indian tribes to improve 
the housing conditions and socioeconomic status of American Indian and 
Alaska Native citizens. Yet American Indian and Alaska Natives are 
three to eight times more likely to experience homelessness than other 
racial and ethnic groups. To address the housing needs of urban 
American Indian and Alaska Native people, SIHB requests that Tribal 
Housing Entities be allowed to extend Indian Preference Policy to 
affordable housing developments administrated by urban Indian 
organizations through Memorandums of Understanding (MOU), without 
having to allocate Indian Housing Block Grant program funding to a 
housing project.
9. Direct Services and Programming Carve Outs for Gender-Based Violence 

        Programs
    American Indian and Alaska Native people disproportionately 
experience violence. For example, more than 4 in 5 American Indian and 
Alaska Native women (84.3 percent) have experienced violence in their 
lifetime. These numbers likely underestimate the true extent of 
violence due to systematic racism, underreporting, misclassification, 
and ongoing distrust of law enforcement. Despite this ongoing crisis of 
violence, very little is known about the victimization of American 
Indian and Alaska Native women living in urban settings outside of the 
recent research by the UIHI, an IHS funded TEC.
    Through the I/T/U system of care, tribal and urban Indian 
organizations play a critical role in preventing and ending violence 
against American Indian and Alaska Native people in partnership with 
government and community partners. SIHB requests that all federally 
funded gender-based violence programs include a five percent grant 
carve out of state and local funds to urban Indian organizations that 
use indigenous approaches to ending gender-based violence through 
culturally attuned approaches to survivor and family support services, 
sexual assault prevention, and treatment services.
10. Expanded Community Health Aide Program (CHAP) Eligibility to Urban 
        Indian Organizations
    In accordance with 25 U.S.C.1602 to ensure the highest possible 
health status for Indians and urban Indians and to provide all 
resources necessary to effect that policy, we ask that section 111 of 
the Indian Health Care Improvement Act (IHCIA) by amended to include 
urban Indian organizations as eligible providers for the Community 
Health Aide Program (CHAP). The recent federal investment in CHAP 
expansion outside of Alaska is an important milestone in supporting 
culturally attuned and community-defined health interventions for 
tribal and urban Indian communities. SIHB participates in the regional 
CHAP advisory group lead by the Northwest Portland Area Indian Health 
Board (NPAIHB) to develop a regional CHAP board, yet we are not 
eligible CHAP providers. We have long partnered with our local tribes 
on the development and expansion of Dental Health Aide Therapists 
(DHATs), Behavioral Health Aides (BHAs), and Community Health Aides 
(CHAs) because we are a critical component of the Indian healthcare 
system and we know UIHPs are well positioned to support CHAP through 
workforce development, culturally attuned care, and policy development.
11. Conduct an Urban Indian Health Program (UIHP) Expansion Assessment 
        and Capacity Building Activities
    A 2009 Report to Congress, entitled New Needs Assessment of Urban 
Indian Health Programs and Communities It Serves, found unmet health 
care needs in 17 urban areas with high densities of American Indian and 
Alaska Native people. The UIHI, has also expanded their service 
population to over fifteen additional urban areas that have high 
densities of American Indian and Alaska Native people and urban Indian 
organizations. Several of these locations have strong community 
support, local leadership, or on-going activities to develop a health 
program serving urban American Indian and Alaska Native people. 
Addition assessment and capacity building activities would advance IHS 
priorities and outline a clear funding strategy to expand the Urban 
Indian Health Program.
    You can find a full list of our 2021 Federal Legislative Priorities 
on our website. We thank you for your consideration of these comments 
and recommendations and applaud the committee for your work to support 
the Indian healthcare system. We look forward to working together in 
the 117th Congress to support the health and well-being of American 
Indian and Alaska Native people, regardless of where they reside.
                                 ______
                                 
Prepared Statement of Kim Reitmeier, Executive Director, ANCSA Regional 
                              Association
    The ANCSA Regional Association expresses our sincere appreciation 
to Chairman Schatz and the Senate Committee on Indian Affairs for 
allowing us this opportunity to submit written testimony for the record 
for the oversight hearing titled ``A call to action: Native 
communities' priorities in focus for the 117th Congress.'' The ANCSA 
Regional Association would also like to congratulate Chairman Schatz 
and Vice-Chairwoman Murkowski for their selection as leadership of the 
Committee.
About the ANCSA Regional Association
    The ANCSA Regional Association (ARA) was founded in 1998 to 
represent Alaska Native regional corporations created pursuant to the 
Alaska Native Claims Settlement Act of 1971 (ANCSA). ARA's membership 
is comprised of the twelve-land based Alaska Native regional 
corporations; our members represent over 135,000 Alaska Native 
shareholders. Our board is composed of the presidents and chief 
executive officers of our member corporations. ARA's purpose is to 
promote and foster the continued growth and economic strength of the 
Alaska Native regional corporations on behalf of their Alaska Native 
shareholders.
Background on COVID's Impacts in Alaska
    The state of Alaska and Alaska Native people have been hit hard by 
the pandemic. Over 200 of our rural villages lack road access, creating 
a variety of healthcare and logistical challenges. Some of these same 
villages also lack access to running water and reliable Internet 
services--two huge hurdles when combatting COVID-19. In addition to 
these challenges, our state economy has been badly battered by the 
pandemic. Data collected by the New York Times showed that Alaska's tax 
revenue dropped by 42 percent in 2020 -more than 25 percentage points 
greater than the decline experienced by any other state. Our 
unemployment claims went from an average of 930 per week to 8,000, and 
approximately 27,000 jobs were lost as the cruise and visitor 
industries were decimated. Alaska's commercial fishing industry was hit 
by port closures, shipping restrictions and reduced demand, leading to 
$500 million in losses. When one considers that the total population of 
our state is only 730,000, these numbers are startling.
    In this time of need, Alaskans are stepping up to provide critical 
support to elders and other vulnerable populations. Alaska Native 
corporations (ANCs) are doing our part by partnering with tribes and 
non-profits in our regions and investing millions of dollars to keep 
our people safe and help our rural economies recover.
    Attacks on Alaska Native corporations and our unique system are 
only making matters worse. Misunderstandings around ANCs and the vital 
services we provide have led to costly litigation that has kept tribal 
funds from Alaska Native people who are in dire need of relief. If 
Alaska Native people are deemed ineligible to receive these funds that 
they rightfully deserve as Indigenous people, the outlook for our 
communities is bleak. The state of Alaska has already told the Supreme 
Court that it will be unable to make up for the lack of federal 
government funding if the Court rules against ANCs.
About the Alaska Native Claims Settlement Act of 1971
    The Alaska Native Claims Settlement Act of 1971 (ANCSA) was a 
tailored solution proposed by Congress to meet the unique economic and 
geographic differences that directly affect Native communities in 
Alaska. When Congress enacted ANCSA, it afforded Alaska Natives and its 
consortia a unique legal designation and identity; oversight of 
indigenous peoples' lands would be designated through regional and 
village ``corporations''. Both are led, owned, and provide essential 
support for Alaska Natives. Congress reserved all abilities to amend 
ANCSA to itself; in the scenario of state-level conflict with any 
provision of ANCSA and Federal law, ANCSA is given control. \1\
---------------------------------------------------------------------------
    \1\ Report from the House of Representatives, Mr. Udall, Chair, to 
accompany H.R. 4162, ``Amending the Alaska Native Claims Settlement Act 
to Provide Alaska Natives with Certain Options for the Continued 
Ownership of Lands and Corporate Shares Received Pursuant to the Act 
and for Other Purposes,'' 99th Congress, 2nd Session, Report 99-712, 
1986.
---------------------------------------------------------------------------
    The unique governance structure of Alaska Native people under ANCSA 
is often mischaracterized. ANCSA divided the state into twelve regions, 
whose boundaries were drawn by common heritages, shared interests, and 
geography. The regional boundaries established which regional 
corporation would serve the Native people in those communities and 
villages, however ownership of the land remains with the Alaska Native 
people. In creating regional and village corporations, the Federal 
government, set up a mechanism to continue serving out the public's 
interest of providing for, and ensuring the prosperity of Alaska and 
its Native people. Alaska Native people that are represented by 
regional and village corporations largely do not identify as 
``shareholders'' or recognize our consortia to be a ``corporation.'' 
The U.S. Government Accountability Office (GAO) outlined in-detail how 
Alaska Native corporations carry out many essential services to 
vulnerable Native communities.
    In 2012, GAO completed a comprehensive 40-year review of Alaska 
Native corporations; the report analyzes the ways in which benefits are 
provided by the consortia to its respective Alaska Native shareholders. 
The report outlines the specific ways in which shareholders receive 
benefits, which include direct employment opportunities, dividends, 
academic scholarships, cultural preservation programs, land management, 
economic development, and public advocacy for the Alaska Native people. 
\2\ Nonmonetary benefits are an essential part of the role Alaska 
Native corporations occupy in delivering services its Native people. As 
the GAO's report illustrates, Native and Village corporations provide 
crucial infrastructure like wind turbines, firewood distribution, 
flight training, and protection for historical sites.
---------------------------------------------------------------------------
    \2\ Report from the United States Government Accountability Office, 
``Regional Alaska Native Corporations--Status 40 Years after 
Establishment, and Future Considerations,'' 112th Congress, GAO-13-121, 
2013. Retrieved from: https://www.gao.gov/assets/gao-13-121.pdf
---------------------------------------------------------------------------
    It is without a question that Congress, in creating Alaska Native 
corporations under ANCSA, intended to create a new system of self-
governance for Tribal communities and economies in Alaska. The passage 
of ANCSA represented a new era of Alaska Native representation in the 
state and national economies, all while bringing greater prosperity to 
the Alaska Native people. By instilling a corporate-based structure 
into the Alaska Native way of life, Alaska Native people can continue 
to serve to the best interests of their Native lands and participate in 
the global economy.
Federal Legislative Priorities
    As we hit the one-year mark since the COVID-19 pandemic began, 
Alaska Native regional corporations are delivering on their commitment 
to support Alaska Native people. At the onset of the pandemic, Alaska 
Native corporations focused on providing essential health care services 
and support for the Alaska Tribal Health System, which services 
Alaska's most rural communities only accessible by plane or boat. And 
now, as Congress enters a new legislative session, ARA and its members 
would like to express our commitment to working with Congress and the 
Biden Administration on legislative solutions that meet the needs of 
all Native people in the United States.
    In working with the federal government, ARA and its members will 
continue to at every opportunity to assist the state and federal 
government in identifying, prioritizing, and distributing care and 
funding to Alaska Native people and our shareholders. The term `Indian 
Tribe', as defined in section 4(e) of the Indian Self-Determination and 
Education Assistance Act (ISDEAA), explicitly calls for the inclusion 
of Alaska Native village and regional village corporations as 
designated under ANCSA. By every means possible, we will continue to 
iterate that, unambiguously, Congress had every intention for relief 
moneys to be made accessible to Alaska Native regional corporations and 
village corporations.
    Our priorities expand past the crucial relief moneys that Alaska 
Native people desperately need. As Congress considers many strategies 
to rebuild all Native communities across the country, ARA supports the 
creation of an independent consultation process to address and meet the 
unique needs of Alaska Native corporations. Unlike like the Lower 48 
reservation system, a majority of Alaska Native people rely on 
transportation infrastructure to receive crucial services as 80 percent 
of Alaska's Native people inaccessible by land. Furthermore, ARA will 
continue to support Native corporation participation in government 
contracting, specifically with regards to the Small Business 
Administration's 8(a) Business Development program, which allows for 
both monetary and non-monetary returns to benefit tens of thousands of 
Alaska Native people.
ANC Education and Informing Policy
    Alaska Native corporations were founded by Congress five decades 
ago, but there are still many misconceptions about Alaska Native people 
and our unique governance structure. These misconceptions impact 
present ongoing relief policy discussions and in media coverage of our 
organizations. A continued misunderstanding of Alaska Native 
corporations could cause Alaska Native people to suffer greatly.
    ARA will continue to engage with elected officials, government 
agencies, the media, and the public at-large to educate them on the 
relevant history and mission of Alaska Native corporations. ARA is 
committed to conducting this outreach for as long as it takes to ensure 
Alaska Native people, and its ecosystem, are better understood.
    Alaska's distinct path towards self-determination, as President 
Kitka testified, should not be excluded simply because it is different:

         ``We have a different model of self-determination in Alaska 
        which is based on our lands claim settlement, which was a 
        historic, largest land claims settlement in the history of the 
        United States almost 50 years ago. In that land claims 
        settlement, Congress directed us to form for-profit native 
        corporations and have our land and resources in that. So, we do 
        have a different model of tribal self-determination in Alaska 
        that includes both federally recognized tribes and our Alaska 
        Native corporations, and our tribal consortiums and we would 
        like for you to take into account that the way that we deploy 
        our organizations we view them all as tools for the Native 
        people, for the empowerment of the Native people, for the 
        wellbeing of the Native people. We urge you not to exclude 
        different segments of our Native community because we are 
        structured differently.''

Closing
    The federal government and the statues under ANCSA created a 
tailored solution to Alaska Natives to ensure that geographic barriers 
did not pose a threat to the continued prosperity of Alaska Native 
people.
    Alaska Native regional corporations and village corporations 
continue to serve at the forefront of defense against the COVID-19 
pandemic. And as Congress considers its approach towards addressing 
relief efforts, ARA and its members urge federal legislators to 
consider the dynamic structure it afforded to Alaska's Native people by 
means of Alaska Native corporations.
    On behalf of the twelve Alaska Native regional corporations, we 
look forward to working with this and other committees in the 117th 
Congress. We hope to engage in open dialogue with the Committee on 
Alaska's Native communities and our shareholders to ensure 
understanding of the impacts of the COVID-19 pandemic on our 
communities.
    Thank you again for the opportunity to submit testimony to share 
the story of Alaska Native regional corporations and considering our 
open invitation to discuss the interests of Alaska Native people in the 
legislative priorities during the first session of the 117th Congress.
                                 ______
                                 
 Prepared Statement of Hon. Warren C. Swartz, Jr., President, Keweenaw 
                          Bay Indian Community
    Chairman Schatz, Vice Chair Murkowski, and Honorable Members of the 
Senate Committee on Indian Affairs, my name is Chris Swartz and I am 
the President of the Keweenaw Bay Indian Community. Thank you for the 
opportunity to provide testimony regarding the Community's priorities 
for the 117th Congress. My testimony will focus on the need for the 
United States to fulfill its trust obligation by correcting the 
injustices stemming from the breach of our treaties and the taking of 
our property rights.
    The Keweenaw Bay Indian Community (``Community'') is located on the 
L'Anse Indian Reservation, which is near the town of Baraga, Michigan 
on the east side of Lake Superior's Keweenaw Peninsula. The L'Anse 
Reservation is the oldest and largest reservation within the state of 
Michigan. Our ancestors dwelt, hunted, fished, and gathered for 
hundreds of years in the forests, lakes, and wetlands near the Keweenaw 
Bay in the Upper Peninsula of Michigan.
    The expansion of the western frontier and the federal government's 
growing interest in the mineral resources of the south shore of Lake 
Superior led the United States to enter into the 1842 Treaty of 
LaPointe (``1842 Treaty'') and the 1854 Treaty of LaPointe (``1854 
Treaty''). The 1842 Treaty addressed mineral rights and provided for 
the cession of lands west and south of Lake Superior, including those 
in the Keweenaw Bay area. However, the terms of the 1842 Treaty were 
specific and unequivocal regarding our ancestors' rights to continue to 
occupy, hunt, and fish in their homelands located within the cession 
area, including the Keweenaw Bay area.
    The 1854 Treaty provided that the signatory bands would transfer 
extensive and valuable land claims in Michigan and Wisconsin in 
exchange for permanent reservations in their ancestral homelands. In 
addition, it described the L'Anse Reservation by its exterior 
boundaries and both the Community and the United States understood that 
all land within these boundaries was reserved for the sole use of the 
Indians.
    Unfortunately, this promise wasn't kept and in the latter half of 
the 19th Century and early in the 20th Century, various lands within 
the boundaries of the L'Anse Reservation were wrongfully transferred to 
the State of Michigan. First, the Community was dispossessed of about 
1,333 acres of land that was reserved for the L'Anse Reservation and 
set aside in the 1854 Treaty. Lands were selected from the public 
domain throughout the State of Michigan for a 750,000-acre land grant 
to serve as payment for the construction of a canal at Sault Ste. 
Marie. Through either carelessness or expediency, the Secretary of the 
Interior approved the Canal Company's land selection on January 24, 
1855, fourteen days after the 1854 Treaty set aside the same lands for 
the L'Anse Reservation. The L'Anse Reservation lands were withdrawn 
from sale by the order of the President on March 7, 1855, but the title 
to the ``canal lands'' selected by Michigan, including those within the 
L'Anse Reservation, was transferred to the Canal Company in accordance 
with the orders of the Michigan Attorney General.
    Sadly, these were not the only lands within the L'Anse Reservation 
that were transferred to the state. Shortly after the signing of the 
1854 Treaty, the State of Michigan began demanding that the federal 
government issue it patents to wetlands within the L'Anse Reservation 
on grounds that an 1850 Federal swamplands statute granted such lands 
to the states. For many years, the federal government flatly rejected 
Michigan's contentions and the United States General Land Office (GLO) 
refused to issue patents to Michigan.
    The United States Department of the Interior informed Michigan that 
its submission of swampland list did not obligate the United States to 
issue patents for such lands where the land was occupied and 
appropriated for the Indians. The United States Supreme Court ratified 
the legal rationale of this position in a 1906 decision, Wisconsin v. 
Hitchcock, holding that the signatory bands to the 1854 Treaty had 
never abandoned their physical presence or right of occupancy to the 
lands confirmed as their ``permanent reservations'' under the 1854 
Treaty and this trumped any statute granting any portion of reservation 
lands to the states.
    For unknown reasons, the GLO nonetheless issued Michigan patents to 
about 2,207 acres of swamplands in the L'Anse Reservation. These 
patents not only violated federal law, they subverted the established 
policies of the Department of the Interior and the Indian Affairs 
Office with respect to the creation of the L'Anse reservation created 
by the 1854 Treaty. These swampland patents to Michigan were never 
cancelled or terminated, and the Community has never been compensated 
for the loss of the lands.
    In closing, I would like to thank the Committee once again for the 
opportunity to discuss these longstanding land claims. While our dire 
financial situation has made it difficult to pursue these claims, we 
know that recovering damages for these lost lands, and the economic 
opportunities they would have generated over the years, would greatly 
improve the lives of our tribal citizens. Finally, the Keweenaw Bay 
Indian Community encourages the Senate Committee on Indian Affairs to 
conduct oversight on all outstanding tribal land claims.
                                 ______
                                 
   Prepared Statement of United South and Eastern Tribes Sovereignty 
                            Protection Fund
    The United South and Eastern Tribes Sovereignty Protection Fund 
(USET SPF) is pleased to provide the Senate Committee on Indian Affairs 
(SCIA) with the following testimony for the record of the February 24th 
oversight hearing, ``A call to action: Native communities' priorities 
in focus for the 117th Congress.'' We appreciate SCIA's focus on 
hearing directly from Tribal Nations as the Committee considers its 
agenda for the Congressional term. USET SPF continues to seek 
foundational and systemic change to our relationship with the United 
States; change that will lead to a more appropriate, respectful, 
honorable, and modern diplomatic relationship for the 21st century. 
From our perspective and given the inflection point in which the United 
States finds itself, the SCIA has a unique opportunity during this 
Congress to enact bold, transformative policy that will have lasting 
impacts on the trust obligation and relationship. With this in mind, we 
offer the below early items of interest and opportunities for 
collaboration. This is by no means an exhaustive list of priorities for 
our member Tribal Nations, who, as governments, have broad and diverse 
interests across a host of issue areas, including housing, 
transportation, emergency services, social services, and veteran's 
affairs, among others. However, we view the below as the foundation for 
our initial engagement.
    USET Sovereignty Protection Fund (USET SPF) is a non-profit, inter-
tribal organization advocating on behalf of thirty-three (33) federally 
recognized Tribal Nations from the Northeastern Woodlands to the 
Everglades and across the Gulf of Mexico. \1\ USET SPF is dedicated to 
promoting, protecting, and advancing the inherent sovereign rights and 
authorities of Tribal Nations and in assisting its membership in 
dealing effectively with public policy issues.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chickahominy Indian Tribe (VA), 
Chickahominy Indian Tribe-Eastern Division (VA), Chitimacha Tribe of 
Louisiana (LA), Coushatta Tribe of Louisiana (LA), Eastern Band of 
Cherokee Indians (NC), Houlton Band of Maliseet Indians (ME), Jena Band 
of Choctaw Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee 
Wampanoag Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), 
Mississippi Band of Choctaw Indians (MS), Mohegan Tribe of Indians of 
Connecticut (CT), Monacan Indian Nation (VA), Nansemond Indian Nation 
(VA), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian Township 
(ME), Passamaquoddy Tribe at Pleasant Point (ME), Penobscot Indian 
Nation (ME), Poarch Band of Creek Indians (AL), Rappahannock Tribe 
(VA), Saint Regis Mohawk Tribe (NY), Seminole Tribe of Florida (FL), 
Seneca Nation of Indians (NY), Shinnecock Indian Nation (NY), Tunica-
Biloxi Tribe of Louisiana (LA), Upper Mattaponi Indian Tribe (VA) and 
the Wampanoag Tribe of Gay Head (Aquinnah) (MA).
---------------------------------------------------------------------------
COVID-19 Relief and Recovery
    While hope is on the horizon, we expect Congress and SCIA, along 
with the Biden Administration, to continue to focus on COVID-19 relief 
and recovery--both for Indian Country and the whole of the United 
States. We continue to underscore that the United States' shameful and 
unjust neglect of its duties, which Indian Country has been facing for 
generations, has been brought into sharper relief as a result of the 
global pandemic. COVID-19 is exposing the ever-widening gap between the 
trust obligation owed to Tribal Nations and the execution of that 
obligation. USET SPF demands accountability for the persistent, chronic 
failure to uphold legal and moral promises to Tribal Nations. Though 
these failures have persisted throughout changes in Administration and 
Congress, it is time that both the legislative and executive branches 
confront and correct them.
    We celebrate and extend our gratitude for the historic level of 
relief directed Tribal Nations in the American Rescue Plan. In 
particular, the $20 billion in the Fiscal Recovery Fund has the 
potential to have lasting impacts on Tribal Nation infrastructure. This 
is critical, as the disproportionately high rates of COVID-19 in Indian 
Country are caused and exacerbated by the chronic underfunding of the 
federal trust obligation, including for healthcare, education, housing, 
and critical infrastructure, leaving Tribal Nations unable to 
appropriately respond to and mitigate this pandemic.
    As SCIA considers further relief and recovery measures, it should 
continue to prioritize Indian Country, in accordance with trust and 
treaty obligations. In the short-term, federal COVID relief, response, 
and recovery measures must be focused on rapid, equitable deployment to 
Tribal Nations in a manner that reflects our unique circumstances and 
the federal trust obligation. The federal government must support and 
uphold our sovereign right to determine how best to use relief funding 
and resources to the benefit of our citizens and communities. And it 
must ensure that funding is delivered via the most expedient mechanisms 
while providing sufficient opportunity for Tribal Nations to expend 
these resources.
    In the long-term, the United States must confront and correct its 
ongoing and shameful failures to honor its sacred promises to Tribal 
Nations, many of which have been outlined in detail by the U.S. 
Commission on Civil Rights in its 2018 Broken Promises report. As the 
Commission states in Broken Promises, ``the United States expects all 
nations to live up to their treaty obligations; it should live up to 
its own.'' The time is long overdue for a comprehensive overhaul of the 
trust relationship and obligations, one that results in the United 
States finally keeping the promises made to us as sovereign nations in 
accordance with our special and unique relationship. This change is 
urgently needed, as the global pandemic exposes for the whole word to 
see the extent to which generations of federal neglect and inaction 
have created the unjust and untenable circumstances facing Tribal 
Nations in the fight against COVID-19.
Recognition of Inherent Tribal Sovereignty
    Tribal Nations are political, sovereign entities whose status stems 
from the inherent sovereignty we have as self-governing peoples, which 
pre-dates the founding of the Republic. The Constitution, treaties, 
statutes, Executive Orders, and judicial decisions all recognize that 
the federal government has a fundamental trust relationship to Tribal 
Nations, including the obligation uphold the right to self-government. 
Our federal partners must fully recognize the inherent right of Tribal 
Nations to fully engage in self-governance, so we may exercise full 
decisionmaking in the management of our own affairs and governmental 
services, including jurisdiction over our lands and people.
    However, the full extent of our inherent sovereignty continues to 
go unacknowledged and, in some cases, is actively restricted by other 
units of government, including the federal, as well as state and local 
governments. This serves to undermine the provision of essential 
services to our people, including such vital services as public safety, 
as well as the continuity and exercise of our cultures. This has 
created a crisis in Indian Country, as our people go missing and are 
murdered, and are denied the opportunity for safe, healthy, vibrant 
communities and traditions enjoyed by other Americans. As members of 
SCIA, with a heightened interest in and deeper understanding of these 
issues, we expect that you will exercise leadership in this space, 
including in circumstances where supporting Tribal sovereignty may be 
at odds with other interests or political positions.
Criminal and Civil Jurisdiction over our Homelands
    One important reason for higher rates of crime in Indian Country is 
the gap in jurisdiction stemming from the United States' failure to 
recognize our inherent criminal jurisdiction, allowing those who seek 
to do harm to hide in the darkness away from justice. When Tribal 
Nations are barred from prosecuting offenders and the federal 
government fails in the execution of its obligations, criminals are 
free to offend over and over again.
    The United States has slowly chipped away at Tribal Nations' 
jurisdiction. At first, it found ways to put restrictions on the 
exercise of our inherent rights and authorities. And eventually, as its 
power grew, the United States shifted from acknowledging Tribal 
Nations' inherent rights and authorities to treating these rights and 
authorizes as grants from the United States. With this shift in 
mindset, recognition of our inherent sovereignty diminished, including 
our jurisdictional authorities.
    For example, in the 1978 decision of Oliphant v. Suquamish Indian 
Tribe, the Supreme Court struck what may be the biggest and most 
harmful blow to Tribal Nations' criminal jurisdiction. In that case, it 
held Tribal Nations lacked criminal jurisdiction over non-Native 
people, even for crimes committed within Indian Country. Without this 
critical aspect of sovereignty, which is exercised by units of 
government across the United States, Tribal Nations are unable achieve 
justice for our communities. While the United States has stripped 
Tribal Nations of our own jurisdiction and the resources we need to 
protect our people, it has not invested in the infrastructure necessary 
to fulfill its obligation to assume this responsibility. As a result, 
Indian Country currently faces some of the highest rates of crime, with 
Tribal citizens 2.5 times more likely to become victims of violent 
crime and Native women, in particular, subject to higher rates of 
domestic violence and abuse. Many of the perpetrators of these crimes 
are non-Native people.
    More recently, the federal government failed to recognize a Tribal 
Nation's sovereign right to protect its community from COVID-19. When 
it became clear that the state of South Dakota was not going to 
institute the public health measures necessary to control the spread of 
COVID-19 within its borders, the Cheyenne River Sioux Tribe (CRST) 
acted to protect its citizens by installing checkpoints on the highways 
leading to its homelands. These checkpoints have been immensely 
successful in identifying COVID and mitigating its spread in CRST's 
community. However, when the Tribal Nation refused to remove the 
checkpoints, the governor of South Dakota wrote to the White House and 
Department of Interior (DOI) to request intervention. Despite its legal 
obligation to uphold and defend Tribal sovereignty and self-governance, 
DOI threatened to withdraw CRST's law enforcement funding if it did not 
comply with the governor's request.
    It is important to note that over the last decade, the federal 
government has made some effort to better recognize Tribal Nation 
jurisdiction over our own lands. USET SPF is appreciative of the 
efforts of this body in strengthening and improving public safety 
across Indian Country. Though many Tribal Nations remain unable to take 
advantage of its provisions, the 2013 reauthorization of VAWA was a 
major victory for Tribal jurisdiction, self-determination, and the 
fight against crime in Indian Country. This law provides crucial 
opportunities for Tribal Nations to reassume responsibilities for 
protecting their homelands by restoring criminal jurisdiction over non-
Indian individuals in cases of domestic violence against Tribal 
citizens.
    However, Tribal Nations, the Department of Justice, and others are 
reporting oversights in the drafting of the law that prevent the use of 
special domestic violence criminal jurisdiction (SDVCJ) and the law 
from functioning as intended. USET SPF remains strongly supportive of 
several bills aimed at addressing these gaps, including the Justice for 
Native Survivors of Sexual Violence Act and the Native Youth and Tribal 
Officer Protection Act. Though their provisions were incorporated into 
2019 and 2021 VAWA reauthorization proposals, they, along with VAWA, 
await further action in the Senate.
    As sovereign governments, Tribal Nations have a duty to protect our 
citizens, and provide for safe and productive communities. This cannot 
truly be accomplished without the full restoration of criminal 
jurisdiction to our governments through a fix to the Supreme Court 
decision in Oliphant. While we call upon the 117th Congress to take up 
and pass the aforementioned legislation, we strongly urge this 
Committee to consider how it might take action to fully recognize 
Tribal criminal jurisdiction over all persons and activities in our 
homelands for all Tribal Nations. Only then will we have the ability to 
truly protect our people.
Restrictive Settlement Acts
    As we work to ensure that Tribal sovereignty is fully upheld, we 
again remind this body that some Tribal Nations, including some USET 
SPF member Tribal Nations, are living under restrictive settlement acts 
that further limit the ability to exercise criminal jurisdiction over 
their lands. These restrictive settlement acts flow from difficult 
circumstances in which states demanded unfair restrictions on Tribal 
Nations' rights in order for the Tribal Nations to have recognized 
rights to their lands or federal recognition. When Congress enacted 
these demands by the states into law, it incorrectly allowed for 
diminishment of certain sovereign authorities exercised by other Tribal 
Nations across the United States.
    Some restrictive settlement acts purport to limit Tribal Nations' 
jurisdiction over their land or to give states jurisdiction over Tribal 
Nations' land, which is itself a problem. But, to make matters worse, 
there have been situations where a state has wrongly argued the 
existence of the restrictive settlement act prohibits application of 
later-enacted federal statutes that would restore to Tribal Nations 
aspects of our jurisdictional authority, including VAWA and the Tribal 
Law and Order Act (TLOA). In fact, some USET SPF member Tribal Nations 
report being threatened with lawsuits should they attempt to implement 
TLOA's enhanced sentencing provisions. Congress is often unaware of 
these arguments when enacting new legislation. USET SPF asserts that 
Congress did not intend these land claim settlements to forever prevent 
a handful of Tribal Nations from taking advantage of beneficial laws 
meant to improve the health, general welfare, and safety of Tribal 
citizens. We continue request the opportunity to explore short- and 
long-term solutions to this problem with this Committee.
Cultural Sovereignty
    While the practice of spiritual and ceremonial traditions and 
beliefs varies significantly among USET SPF Tribal Nations, our 
spirituality is overwhelmingly place-based. From the Mississippi Band 
of Choctaw Indians' Nanih Waiyah mounds to the ceremonial stone 
landscapes of New England, each member Tribal Nation has specific 
places and locations that we consider sacred. These places are often 
the sites of our origin stories, our places of creation. As such, we 
believe that we have been in these places since time immemorial. 
Through these sites, we are inextricably linked to our spirituality, 
the practice of our religions, and to the foundations of our cultural 
beliefs and values. Our sacred sites are of greatest importance as they 
hold the bones and spirit of our ancestors and we must ensure their 
protection, as that is our sacred duty. As our federal partner in this 
unique government-to-government relationship, it is also incumbent upon 
all branches of the U.S. government to ensure the protection of these 
sites, including by upholding our own sovereign action. As Congress and 
the Administration consider a massive infrastructure package as a part 
of COVID-19 recovery, this includes seeking the consent of Tribal 
Nations for federal actions that impact our sacred sites, lands, 
cultural resources, public health, or governance.
Economic Sovereignty
    As it is for any other sovereign, economic sovereignty is essential 
to Indian Country's ability to be self-determining and self-sufficient. 
Rebuilding of our Tribal Nations involves the rebuilding of our Tribal 
economies as a core foundation of healthy and productive communities. 
We celebrate and acknowledge the recent passage of the Native American 
Business Incubators Act and the Indian Community Economic Enhancement 
Act, but there is more work to done here, as well. Building strong, 
vibrant, and mature economies is more than just business development. 
It requires comprehensive planning to ensure that our economies have 
the necessary infrastructure, services, and opportunities for our 
citizens to thrive; thus resulting in stronger Tribal Nations and a 
stronger America. In order to achieve economic success, revenues and 
profits generated on Tribal lands must stay within Indian Country in 
order to benefit from the economic multiplier effect, allowing for each 
dollar to turn over multiple times within a given Tribal economy. It is 
critical that inequities and the lack of parity in policy and federal 
funding be addressed for Tribal Nations in order to fully exercise our 
inherent self-governance to conduct economic development activities for 
the benefit of our Tribal citizens.
    Further, the U.S. government has a responsibility to ensure that 
federal tax law treats Tribal Nations in a manner consistent with our 
governmental status, as reflected under the U.S. Constitution and 
numerous federal laws, treaties and federal court decisions. With this 
in mind, we remain focused on the advancement of tax reform that would 
address inequities in the tax code and eliminate state dual taxation. 
Revenue generated within Indian Country continues to be taken outside 
its borders or otherwise falls victim to a lack of parity. Similarly, 
Tribal governments continue to lack many of the same benefits and 
flexibility offered to other units of government under the tax code. 
Passage of comprehensive tax reform in 2017 without Tribal provisions 
was unacceptable, and our exclusion was inconsistent with expressed 
Congressional support to strengthen Tribal Nations. USET SPF continues 
to press for changes to the U.S. tax code that would provide 
governmental parity and economic development to Tribal Nations.
Restoration of Tribal Homelands
    Possession of a land base is a core aspect of sovereignty, cultural 
identity, and represents the foundation of a government's economy. That 
is no different for Tribal Nations. USET SPF Tribal Nations continue to 
work to reacquire our homelands, which are fundamental to our existence 
as sovereign governments and our ability to thrive as vibrant, healthy, 
self-sufficient communities. And as our partner in the trust 
relationship, it is incumbent upon the federal government to prioritize 
the restoration of our land bases. The federal government's objective 
in the trust responsibility and obligations to our Nations must be to 
support healthy and sustainable self-determining Tribal governments, 
which fundamentally includes the restoration of lands to all federally-
recognized Tribal Nations, as well as the legal defense of these land 
acquisitions. With this in mind, USET SPF continues to call for the 
immediate passage of a fix to the Supreme Court decision in Carcieri v. 
Salazar.
Consultation Reform
    As you are likely aware, the Biden Administration has directed all 
federal agencies, via Executive Memorandum, to prepare and periodically 
update plans to implement E.O. 13175. As a result, Indian Country is 
currently engaged in an extremely high level of consultation activity 
with the Administration. There is value in the spirit of the January 
26th Executive Memorandum, which is to recommit and refocus federal 
agencies to engaging in meaningful Tribal consultation. However, these 
actions alone are not sufficient to address systemic failures in the 
various consultation processes across the federal government. Broadly, 
the U.S. must work to reform the Tribal consultation process as 
conducted by agencies across the federal government. There must be a 
reconciliation to provide certainty, consistency, and accountability in 
Tribal consultation. The federal government must work to standardize 
and provide a uniform foundation to its Tribal Consultation methods.
    Accountability is required to ensure Tribal consultation is 
meaningful and results in corresponding federal efforts to honor Tribal 
input and mitigate any concerns. All federal agencies, including 
independent federal agencies, such as the Federal Energy Regulatory 
Commission and the Federal Communications Commission, as well as the 
Office of Management and Budget, must be statutorily required to adhere 
to consultation policies with additional oversight from the White House 
and Congress. USET SPF strongly supports the codification of 
consultation requirements for all federal agencies and departments, 
including a right of action to seek judicial review of consultation 
when the federal government has failed to engage, communicate, and 
consult appropriately. We ask that SCIA work with us to make this a 
reality.
    It is time for a Tribal Nation-defined consultation model, with 
dual consent as the basis for strong and respectful diplomatic 
relations between two equally sovereign nations. In the short term, we 
must move beyond the requirement for Tribal consultation via Executive 
Order to a strengthened model achieved via statute. In the long term, 
we must return to the achievement of Tribal Nation consent for federal 
action as a recognition of sovereign equality and as set out by the 
principles of the United Nations Declaration on the Rights of 
Indigenous Peoples.
Expansion and Evolution of Tribal Self-Governance
    Despite the success of Tribal Nations in exercising authority under 
the Indian Self-Determination and Education Assistance Act (ISDEAA), as 
well as the recently enacted Practical Reforms and Other Goals to 
Reinforce the Effectiveness of Self-Governance and Self-Determination 
(PROGRESS) for Indian Tribes Act, the goals of self-governance have not 
been fully realized. Many opportunities still remain to improve and 
expand upon its principles. An expansion of Tribal self-governance to 
all federal programs under ISDEAA would be the next evolutionary step 
in the federal government's recognition of Tribal sovereignty and 
reflective of its full commitment to Tribal Nation sovereignty and 
self-determination. In the case of COVID-19 response, it would provide 
for a streamlined and expeditious approach to the receipt and 
expenditures of funding from across the federal government, and ensure 
these resources can be utilized in ways that reflect the diversity of 
Tribal governments.
    USET SPF, along with many Tribal Nations and organizations, has 
consistently urged that all federal programs and dollars be eligible 
for inclusion in self-governance contracts and compacts. We must move 
beyond piecemeal approaches directed at specific functions or programs 
and start ensuring Tribal Nations have real decisionmaking in the 
management of our own affairs and assets. It is imperative that Tribal 
Nations have the expanded authority to redesign additional federal 
programs to serve best our communities as well as have the authority to 
redistribute funds to administer services among different programs as 
necessary. To accomplish this requires a new framework and 
understanding that moves us further away from paternalism.
    Examinations into expanding Tribal self-governance administratively 
have encountered barriers due to the limiting language under current 
law, as well as the misperceptions of federal officials. USET SPF 
stresses to the Committee that if true expansion of self-governance is 
only possible through legislative action, the Committee and Congress 
must prioritize legislative action on the comprehensive expansion of 
Tribal self-governance. This will modernize the federal fiduciary 
responsibility in a manner that is consistent with our sovereign status 
and capabilities. As an example, in 2013, the Self-Governance Tribal 
Federal Workgroup (SGTFW), established within the Department of Health 
and Human Services (HHS), completed a study exploring the feasibility 
of expanding Tribal self-governance into HHS programs beyond those of 
IHS and concluded that the expansion of self-governance to non-IHS 
programs was feasible, but would require Congressional action. However, 
despite efforts on the part of Tribal representatives to the SGTFW to 
attempt to move forward in good faith with consensus positions on 
expansion legislation, these efforts were stymied by the lack of 
cooperation by federal representatives. USET SPF urges the Committee 
and Congress to use its authority to work to legislatively expand 
Tribal self-governance to all federal programs where Tribal Nations are 
eligible for funding, in fulfillment of the unique federal trust 
responsibility to Tribal Nations.
    Further, Congress and the Administration should consider 
modifications to reporting requirements under ISDEAA and other methods 
of funding distribution. The administrative burden of current reporting 
requirements under ISDEAA including site visits, ``means testing,'' or 
other standards developed unilaterally by Congress or federal officials 
are barriers to efficient self-governance and do not reflect our 
government-to-government relationship. While obtaining data around 
Tribal programs is critical to measuring how well we as Tribal 
governments are serving our citizens and how well the federal 
government is delivering upon its obligations, Tribal Nations find 
themselves expected to report data in order to justify further 
investment in Indian Country. This runs counter to the trust 
obligation, which exists in perpetuity. The data collected by Tribal 
Nations must be understood as a tool to be utilized in sovereign 
decisionmaking, not to validate the federal government's fulfillment of 
its own promises.
    Because funding for Tribal Nations is provided in fulfillment of 
clear legal and historic obligations, those federal dollars should not 
be subject to an inappropriate, grant-based mentality that does not 
properly reflect our diplomatic relationship. USET SPF notes that 
federal funding directed to foreign aid and other federal programs are 
not subject to the same scrutiny. Grant funding fails to reflect the 
unique nature of the federal trust obligation and Tribal Nations' 
sovereignty by treating Tribal Nations as non-profits rather than 
governments. We reiterate the need for the federal government to treat 
and respect Tribal Nations as sovereigns as it delivers upon the 
fiduciary trust obligation, as opposed to grantees.
Full Funding for Federal Fiduciary Obligations
    The chronic underfunding of federal Indian programs continues to 
have disastrous impacts upon Tribal governments and Native peoples. 
Native peoples experience some of the greatest disparities among all 
populations in this country--including those in health, economic 
status, education, and housing. Indeed, in December 2018, the U.S. 
Commission on Civil Rights issued the ``Broken Promises'' Report, which 
found deep failures in the delivery of federal fiduciary trust and 
treaty obligations. The Commission concluded that the funding of the 
federal trust responsibility and obligations remains ``grossly 
inadequate'' and a ``barely perceptible and decreasing percentage of 
agency budgets.''
    Above all, the COVID-19 crisis is highlighting the urgent need to 
provide full and guaranteed federal funding to Tribal Nations in 
fulfillment of the trust obligation. While we unequivocally support 
budget stabilization mechanisms, such as Advance Appropriations, in the 
long-term, USET SPF is calling for a comprehensive reexamination of 
federal funding delivered to Indian Country across the federal 
government. Because of our history and unique relationship with the 
United States, the trust obligation of the federal government to Native 
peoples, as reflected in the federal budget, is fundamentally different 
from ordinary discretionary spending and should be considered mandatory 
in nature. Payments on debt to Indian Country should not be vulnerable 
to year to year ``discretionary'' decisions by appropriators. Recently, 
some in Congress, as well as the Biden Administration, have called for 
mandatory funding for specific agencies serving Indian Country. USET 
SPF strongly supports this proposal, which is more consistent with the 
federal trust obligation, and urges that this be realized via an 
entirely new budget component--one that contains all of the funding 
dedicated to Indian Country. Not only would this streamline access to 
these dollars, this mechanism would reflect true prioritization of and 
reverence for America's trust obligation to and special relationship 
with Tribal Nations. While some will quickly dismiss this as 
unrealistic and untenable, when compared against the value of the land 
and natural resources the United States gained as part of the exchange, 
both voluntarily and involuntarily, it becomes evident that it is 
really only a matter of will and desire.
Marshall Plan for Indian Country--Rebuild and Restore Tribal 
        Infrastructure
    For generations, the federal government--despite abiding trust and 
treaty obligations--has substantially under-invested in Indian 
Country's infrastructure. While the United States faces crumbling 
infrastructure nationally, there are many in Indian Country who lack 
even basic infrastructure, such as running water and passable roads. 
Now, the nation and world are witnessing the deadly consequences of 
this neglect, as COVID-19 spreads through Tribal communities that are 
unable to implement such simple public health measures as frequent hand 
washing. The United States must commit to supporting the rebuilding of 
the sovereign Tribal Nations that exist within its domestic borders. 
Much like the U.S. investment in the rebuilding European nations 
following World War II via the Marshall Plan, the legislative and 
executive branches should commit to the same level of responsibility to 
assisting in the rebuilding of Tribal Nations, as our current 
circumstances are, in large part, directly attributable to the shameful 
acts and policies of the United States. In the same way the Marshall 
Plan acknowledged America's debt to European sovereigns and was 
utilized to strengthen our relationships and security abroad, the 
United States should make this strategic investment domestically. 
Strong Tribal Nations will result in a strengthened United States. At 
the same time, any infrastructure build-out, in Indian Country and 
beyond, must not occur at the expense of Tribal consultation, 
sovereignty, sacred sites, or public health.
Address Climate Change with Tribal Nations at the Table
    Because of where we are located, our members are facing an 
increasing number of climate change-related events, including heavy 
precipitation leading to subsequent flooding, erosion, and decreases in 
water quality. In addition, Tribal Nations located in coastal areas, 
including many USET SPF member Tribal Nations, are most at risk to 
impacts from sea level rise. In fulfillment of the trust obligation, 
the federal government has an inherent responsibility to ensure the 
protection of the environmental and cultural resources that support the 
health and wellness of Tribal communities, as well as to support Tribal 
sovereignty and self-determination. Therefore, it is critical that 
Tribal Nations have access to the necessary resources to address the 
effects of climate change within our communities. In addition, Tribal 
Nations must be included as full partners in broader plans, dialogue, 
and legislation in addressing the climate crisis, especially with 
regard to establishing policies supporting economic development with 
renewable energy.
Conclusion
    USET SPF calls upon SCIA and the 117th Congress to join us in 
working toward a legacy of change for Tribal Nations, Native people, 
and the sacred trust relationship. The COVID-19 pandemic has 
underscored the urgent need for radical transformation in the 
recognition of our governmental status and the delivery of federal 
obligations our people. We can no longer accept the status quo of 
incremental change that continues to feed a broken system. The federal 
government must enact policies that uphold our status as sovereign 
governments, our right to self-determination and self-governance, and 
honor the federal trust obligation in full. We look forward to 
partnering with this Committee in an effort to advance these policies 
in the coming months and years.
                                 ______
                                 
   Prepared Statement of Robin Puanani Danner, Chairwoman, Sovereign 
               Council of Hawaiian Homestead Associations
    Chairman Schatz, Ranking Member Murkowski, Members of the 
Committee,
    Mahalo for the opportunity to offer priorities as described by your 
Committee hearing purpose of February 24, 2021.
    For the hearing record, my name is Robin Puanani Danner, a native 
Hawaiian with lived experiences among American Indians, Alaska Natives 
and of course, here in my homeland of Hawaii. My background is in 
banking and finance, business and community development, almost 
exclusively on reservations and trust lands.
    Today, I submit testimony in my capacity as the elected chairwoman 
of the Sovereign Council of Hawaiian Homestead Associations (SCHHA), 
serving a second term from 2019-2023. SCHHA is 34 years old this year, 
a federally defined Hawaiian Homestead Association under 43 CFR Part 47 
& 48, and as a coalition of other selfgoverning homestead associations, 
SCHHA is most similar to the National Congress of American Indians and 
the Alaska Federation of Natives. SCHHA is governed by a constitution 
wholly dedicated to 203,000 acres of trust lands established by the 
U.S. Congress in 1920, during the same policy era of other Indian 
Allotment Acts.
    Homestead Associations also known as Homestead Beneficiary 
Associations (HBA's) on our trust lands are defined and codified in 
federal regulations as self-governing, with a transparent registration 
process with the Secretary of Interior. We mahalo tribal leaders and 
Indian Country for the support during the federal rule-making process, 
to ensure that our native people, most impacted and most knowledgeable 
about our land trust, have a firm seat at the table with our federal 
government as it relates to the Hawaiian Homes Commission Act of 1920 
(HHCA).
    As native people, and due to the geographic distance and isolation 
of our trust lands, the federal government delegated day-to-day 
administration of our lands, to first the Territory of Hawaii, and then 
in 1959 at Statehood, to the State of Hawaii government. Our equivalent 
of the Bureau of Indian Affairs within the DoI, is the Office of Native 
Hawaiian Relations (ONHR). While this arrangement with a State 
government has added additional challenges to the goals of native and 
homestead association self-determination, and efficient management of 
our lands, there are absolute solutions that we will offer to further 
advance the federal promise in 1920 through the HHCA, 100 years ago 
this year.
    My testimony is organized to address the hearing topic and focus in 
2 priority areas for SCIA consideration over the next 2 years with a 
particular focus on challenges and solutions of Native American trust 
lands, including ours known as Hawaiian Home Lands--access to capital 
investment priorities and self-determination & capacity priorities.
I. Access to Capital Investment Priorities
    SCHHA offers 6 relevant areas to increase access to capital, 
providing outstanding returns on the federal trust relationship with 
native Hawaiians.
1. Enactment of the INVEST Act
    New Market Tax Credit programming managed by the U.S. Treasury CDFI 
Fund, is an incredible source of capital in developing economic 
prosperity in underserved areas of the country. NMTC is a successful 
and proven public private sector partnership with an opportunity to 
invest in the capacity of tribes and tribal/native led organizations to 
further increase the deployment in culturally relevant ways on trust 
lands across the country.
    Recommendation: The INVEST Act drafted in 2019 and 2020 is truly an 
excellent piece of legislation that establishes a 10 percent set-aside 
of NMTC for Native and Tribal CDFIs and CDE's. We urge the committee to 
bring the INVEST Act to the forefront for enactment over the next 2 
years.

2. National Intermediary Sole Source Funding for Capacity Building
    Annually, federal funds and HUD Section 4 capacity building 
program, are sole sourced to four specific national intermediary 
nonprofits--NeighborWorks, Enterprise, LISC and Habitat for Humanity. 
These organizations have worked across the country delivering powerful 
resources and technical support to underserved communities in the areas 
of affordable housing and economic development.
    However, our trust land areas, whether allotment lands or 
reservation lands across the country have struggled to be included at 
adequate levels. Engagement with any of the 4 intermediaries is 
responsible for countless communities of color and underserved 
communities to build strong sustainable community development 
nonprofits addressing affordable housing and job creation on the 
ground.
    Recommendation: To ensure that the oldest citizens of our country 
and the trust lands established by our federal government are included 
in a greater way, we recommend a focus by members of the SCIA to 
advance increased funding levels for the intermediaries, with a 10 
percent set-aside directing resources in a systematic and consistent 
way to trust land areas and organizations.

3. Reauthorization of NAHASDA
    Our Hawaiian Home Lands are a provision of NAHASDA, dedicated to 
the unique federal land trust status under the HHCA. Mahalo to SCIA for 
shepherding the enactment of NAHASDA for American Indians and Alaska 
Natives in 1996 and for native Hawaiians in 2002. Our priorities for 
NAHASDA are to improve and ensure greater reach and community 
development for our trust lands, the 10,000 homestead allotees or 
lessees (homes, farms and ranches), and the 28,000 on the waitlist.
    Recommendations: State government has struggled with the ability to 
spend down NAHASDA dollars, that at one time for 15 years, were funded 
at $10M to $13M annually. Over the last 5 years, due to a severe 
backlog by State government, the appropriation was reduced to $2M 
annually, and indeed during a time where homelessness and lack of 
housing inventory is at crisis levels, especially for our native 
people. The solutions we offer are as follows:
a. Sub Granting
    Reauthorize NAHASDA to require that the annual allocation to State 
government is sub granted to eligible and defined Homestead Beneficiary 
Associations or their designated housing authorities or nonprofit 
community development corporations, very much in line with the ``self-
determination'' intent in the name of NAHASDA. And in line with our 
American Indian and Alaska Native counterparts, where allocations flow 
to tribes or their tribally designated housing entities. Our self-
governing homestead associations have been made to be invisible, with 
State government indifference to the essence of NAHASDA as it was 
intended by the Congress.
    This reauthorization improvement would better implement the intent 
of NAHASDA, build capacity in our people, our organizations, and 
resolve the difficulties of State government. Moreover, this revision 
would position native Hawaiians to leverage NAHASDA dollars like 
tribally designated housing entities are doing in the private and 
philanthropic worlds, whereas it is near impossible to convince any 
social or economic investor to issue leveraged capital to a State 
government.
    We believe it is time for native Hawaiians to join the rest of 
Indian Country by replacing the NAHASDA recipient of State government 
to our Homestead Beneficiary Associations. It would be untenable for 
Indian people to have their NAHASDA allocations directed to the State 
of New Mexico or the State of Montana, and so on. Our beloved Senator 
Inouye and Senator Akaka envisioned a time when native Hawaiian 
homestead associations, like our tribal counterparts, have the capacity 
to manage and deploy our NAHASDA dollars. We believe that time has 
come, but offer the sub granting revision as a first step toward this 
ultimate goal.
b. HUD 184a On or Near
    Reauthorize NAHASDA to end, a perhaps unintended consequence of 
excluding the words ``on or near'' trust lands for the HUD 184a 
mortgage program. Under the Indian NAHASDA, those words are explicit, 
and enable American Indians and Alaska Natives to access mobility, 
currently denied native Hawaiians. Mobility is indeed a key component 
to economic prosperity, for example being able to take jobs in urban 
areas or providing housing options to the more than 28,000 on the 
waitlist for a trust land allotment, off homesteads.
    This small change will also contribute to the economic recovery of 
the State of Hawaii, particularly for lenders, realtors, builders and 
other homeownership related businesses. We request that under the 
section for our Hawaiian Home Lands HUD 184a program, the words ``on or 
near'' be added to this section of our NAHASDA law.
c. Annual Funding. Reauthorize NAHASDA with a return to the original 
        appropriation levels, of at least $13M annually, but we 
        sincerely request a more adequate level of at least $20M-$30M 
        to address the reality that the average age of an individual on 
        the 28,000-person wait list, is 58 years of age. As a country, 
        we simply must push for the fulfillment of a 100-year-old 
        promise under the HHCA. Too many of our elders have died 
        waiting.
    Increasing the annual investment of NAHASDA will engage the 
economic recovery of our people and the overall State of Hawaii by 
funding infrastructure and thousands of housing units, including multi-
family rental units.
d. Technical Assistance to Guard Against Redlining Like Practices. 
        Reauthorize NAHASDA to provide $500K annually directed at an 
        HBA designated nonprofit housing authority controlled by HHCA 
        eligible Hawaiians and accountable to our self-governing 
        homestead associations, to deliver technical assistance to 
        trust land borrowers and homeowners to access common loan loss 
        mitigations and financial literacy, to educate and assist 
        lenders and servicers to prevent foreclosure, and to directly 
        engage in assisting waitlist Hawaiians to access relevant 
        building industry professions for new construction.
4. Native Farmers and Ranchers
    One of the areas of greatest revelation from the 2020 Pandemic, is 
the severe food insecurity of our island State in Hawaii. There are 
more than 1,000 homestead lessees/allotees of agricultural and pastoral 
lots on our HHCA trust lands, and we find that the excellent programs 
at the USDA Farm Service Agency can help address our food insecurity. 
For example, the FSA existing programs have some of the lowest cost 
capital and outstanding 40-year amortized repayment terms, wherein our 
trust land families are under-represented.
    Recommendation: We recommend consideration of requiring USDA and 
FSA to designate a deployment goal for FSA loans to be issued to Native 
farmers and ranchers on trust lands anywhere in the country including 
our trust lands in Hawaii. Similar to how SBA designates internal goals 
to deploy section 8(a) business contracts.
    We would further recommend consideration of SCIA to create strong 
pathways for USDA 502 mortgage loans for rural low to moderate income 
families on trust lands and water/waste water programming to also have 
a priority of trust lands across the country.
5. Infrastructure & Roads on Trust Lands
    Our island state, where our trust lands are located on 6 islands in 
4 counties, transportation and energy are two of the most significant 
costs of Native organizations, businesses and families. Recommendation: 
We recommend the deliberation of SCIA in addressing the inclusion of 
our trust lands in road development, upgrades and maintenance programs 
at the Department of Transportation similar to programs for other trust 
land areas around the country. 6. Trust Land Safe Communities. One of 
the areas important to Homestead Associations across our land trust, is 
empowering and implementing homestead community-based neighborhood 
watch programming, not just to deter crime, but also to be a consistent 
presence for families with troubled youth or young adults. The most 
successful neighborhood watch programs today on our trust lands, are 
organized and led by our kupuna (elders), and religious leaders, 
however only a handful exist, and are greatly needed across the pae 
aina.
    Recommendation: We recommend the deliberation of SCIA in including 
our trust land areas and federally defined Homestead Associations in 
programming at the Department of Justice, Office of Tribal Justice, to 
access technical assistance and support of homestead community-based 
solutions.
II. Self Determination & Capacity Priorities
    Honorable Committee members, there is a body of research from 
prestigious organizations, including the Harvard Project on Indian 
Economic Development, that confirms the policy era of self-
determination, robustly initiated over several Presidential 
administrations. With the leadership and plenary powers of Congress, 
this policy era remains largely in place making great strides in 
addressing the needs of Alaska Natives, American Indians and Native 
Hawaiians whenever it has been applied.
    The prior policy eras of assimilation and termination, where 
paternalistic approaches in Washington DC and various State governments 
are a dark and difficult history. For us, as native Hawaiians, under 43 
CFR Part 47 and 48, it clearly states that the Congress recognizes 3 
parties to successfully implement the HHCA--the federal government, 
state government and native Hawaiians, which further codified a 
definition of representative Homestead Associations. As a native 
people, with a federally established land trust in our homeland, we 
know that greater efforts to embrace self-determination of our people 
will position us to be very much a part of the economic recovery of 
Hawaii, but also the prosperity of the tens of thousands on the land 
and those awaiting a homestead land award.
    SCHHA offers 5 priorities to advance the long-held solution of all 
native peoples, the policy of selfdetermination:
1. Self Determination of Homestead Associations
    HBA's, similar to tribal organizations and tribal consortiums, we 
have outstanding elected homestead leaders that include farmers and 
ranchers like Chairman Mike Hodson of Hawaii Island or Kupuna Kammy 
Purdy of Molokai. Others include experienced first responders like 
SCHHA Councilman Richard Soo of Oahu, and housing advocates like the 
SCHHA administrator, Faisha Solomon of Kauai.
    Recommendations: A commitment by the SCIA to engage with federally 
defined Homestead Associations in its committee work, in maximizing 
opportunities in legislative initiatives of the committee to include 
the federally defined language of our Homestead Associations, and to 
include required consultation language with these HBAs for federal 
agencies to adopt as a best practice.
2. Act 302
    This amendment to the HHCA adopted by the State of Hawaii 
Legislature more than a decade ago, requires the consent of Congress. 
Enactment would in effect, bring to bear for native Hawaiians and our 
HBAs, the success enjoyed in Indian Country commonly known as ``638 
contracting''.
    Recommendation: We urge the committee to take up consent of Act 
302.
3. Capacity Building Capital
    Practically zero resource investment has been made in the capacity 
building work of Homestead Associations by the federal government to 
advance the self-determination tenets of the HHCA or NAHASDA.
    Recommendation: We request the committee to support the 
establishment and funding for a Homestead Association Self 
Determination Capacity Building program at the DOI, Office of Native 
Hawaiian Relations with an appropriation of $5M annually to issue 
equity funds to HBAs to continue organizational capacity building 
efforts as well as seed funding for projects led by HBAs on trust 
lands.
4. Federal Regulations for the HHCA
    The HHCA was enacted in 1920 by the U.S. Congress. The 
congressional champion at that time, was the Hawaii Territorial 
delegate, Prince Jonah Kuhio Kalanianaole. A year after passage, our 
native Hawaiian champion that mirrored our land trust law after similar 
federal Indian policies of that era, passed away in 1922. As a result, 
the next step, federal rulemaking never occurred, creating an 
environment of instability in how our land trust has been administered 
by administration to administration both at the federal level and state 
government level.
    Mahalo Chairman Schatz for your work in 2013-2016 to establish the 
very first two rules by DOI and DOJ on land transfers and amendments to 
the HHCA. These rules have improved the process to engage native 
Hawaiians and now federally defined HBA's. We believe both 
Representative Jonah Kuhio Kalanianaole (R-Territory of Hawai'i) and 
Senator Akaka (D-Hawai'i), avid advocates of our HHCA land trust law 
would agree that federal rule making provides common sense stability 
for generations of Hawaiians to fulfill the promise of the HHCA.
    Recommendation. We request the inclusion in an SCIA committee 
report, calling for the continued promulgation of federal regulations 
on our 100-year-old HHCA land trust law. Our request for rulemaking is 
to begin with HHCA section 204, 207, 213/214 and 219 to create 
stability and transparent processes for native Hawaiians that we have 
largely lived without for too long.
5. Act 80
    In 2017, the State of Hawaii legislature enacted an amendment to 
lower the Blood Quantum of our successors (family members) on trust 
lands, from 1/4 to 1/32, which requires Congressional consent.
    Recommendation. We urge the committee to take up consent of Act 80 
to provide familial stability for generations.
    Mahalo for the opportunity to answer the call from the SCIA 
committee on relevant native priorities, especially from Chairman 
Schatz, Hawaii's Senator. Malama Pono.

                                  [all]
</pre></body></html>
